<html>
<title> - FISHING = JOBS: HOW STRENGTHENING AMERICA'S FISHERIES STRENGTHENS OUR ECONOMY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                            FISHING = JOBS: 
                           HOW STRENGTHENING 
                          AMERICA'S FISHERIES 
                        STRENGTHENS OUR ECONOMY 

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

           Saturday, August 25, 2012, in Panama City, Florida

                               __________

                           Serial No. 112-126

                               __________

       Printed for the use of the Committee on Natural Resources

         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

75-704 PDF                       WASHINGTON : 2013 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



                     COMMITTEE ON NATURAL RESOURCES

                       DOC HASTINGS, WA, Chairman
            EDWARD J. MARKEY, MA, Ranking Democratic Member

Don Young, AK                        Dale E. Kildee, MI
John J. Duncan, Jr., TN              Peter A. DeFazio, OR
Louie Gohmert, TX                    Eni F.H. Faleomavaega, AS
Rob Bishop, UT                       Frank Pallone, Jr., NJ
Doug Lamborn, CO                     Grace F. Napolitano, CA
Robert J. Wittman, VA                Rush D. Holt, NJ
Paul C. Broun, GA                    Raul M. Grijalva, AZ
John Fleming, LA                     Madeleine Z. Bordallo, GU
Mike Coffman, CO                     Jim Costa, CA
Tom McClintock, CA                   Dan Boren, OK
Glenn Thompson, PA                   Gregorio Kilili Camacho Sablan, 
Jeff Denham, CA                          CNMI
Dan Benishek, MI                     Martin Heinrich, NM
David Rivera, FL                     Ben Ray Lujan, NM
Jeff Duncan, SC                      Betty Sutton, OH
Scott R. Tipton, CO                  Niki Tsongas, MA
Paul A. Gosar, AZ                    Pedro R. Pierluisi, PR
Raul R. Labrador, ID                 John Garamendi, CA
Kristi L. Noem, SD                   Colleen W. Hanabusa, HI
Steve Southerland II, FL             Paul Tonko, NY
Bill Flores, TX                      Vacancy
Andy Harris, MD
Jeffrey M. Landry, LA
Jon Runyan, NJ
Bill Johnson, OH
Mark Amodei, NV

                       Todd Young, Chief of Staff
                      Lisa Pittman, Chief Counsel
               Jeffrey Duncan, Democratic Staff Director
                David Watkins, Democratic Chief Counsel



                                 ------                                

                                CONTENTS

                               ----------                              
                                                                   Page

Hearing held on Saturday, August 25, 2012........................     1

Statement of Members:
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................     2
        Prepared statement of....................................     4
    Southerland, Hon. Steve, II, a Representative in Congress 
      from the State of Florida..................................     5
        Prepared statement of....................................     7

Statement of Witnesses:
    Adams, Captain Tom, Mexico Beach Charters, and Chair, 
      Recreational Fishing Alliance ``Forgotten Coast'' Chapter..    35
        Prepared statement of....................................    37
    Anderson, Pamela W., Vice President, Panama City Boatman's 
      Association................................................    12
        Prepared statement of....................................    14
    Hansard, Candace, Vice President and Reef Deployment 
      Director, Emerald Coast Reef Association, Inc..............    33
        Prepared statement of....................................    34
    Jennings, Captain Michael, President, Charter Fishermen's 
      Association................................................    39
        Prepared statement of....................................    41
    Kelly, Captain William E., Executive Director, Florida Keys 
      Commercial Fishermen's Association.........................    21
        Prepared statement of....................................    22
    Merrick, Dr. Richard, Director, Scientific Programs & Chief 
      Scientific Advisor, National Marine Fisheries Service, 
      National Oceanic and Atmospheric Administration, U.S. 
      Department of Commerce.....................................    53
        Prepared statement of....................................    55
    Waters, Donald A., Co-Founder, Gulf Coast Professional 
      Fishermen, and Commercial Fisherman, Pensacola, Florida....    17
        Prepared statement of....................................    18
    Wright, Kenneth, Chairman, Florida Fish and Wildlife 
      Conservation Commission....................................     8
        Prepared statement of....................................    10
    Zales, Captain Robert F., II, President, National Association 
      of Charterboat Operators...................................    43
        Prepared statement of....................................    45
                                     



OVERSIGHT HEARING TITLED ``FISHING = JOBS: HOW STRENGTHENING AMERICA'S 
                  FISHERIES STRENGTHENS OUR ECONOMY.''

                              ----------                              


                       Saturday, August 25, 2012

                     U.S. House of Representatives

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m., in the 
Lecture Hall of Holley Academic Center, Florida State 
University-Panama City, Florida, Hon. Doc Hastings [Chairman of 
the Committee] presiding.
    Present: Representatives Hastings and Southerland.
    The Chairman. The Committee will come to order.
    By way of introduction, let me introduce myself, I am 
Congressman Doc Hastings and in the lower 48 States, I come 
from about as far away as you can be from Florida, I come from 
the great State of Washington, where in Washington, we say 
``the real Washington.''
    [Laughter.]
    The Chairman. So it is a pleasure for me to be here with my 
colleague Steve Southerland.
    Before we begin, I would like to call Reverend Michael Ryan 
of the Covenant Hospice to come up and give us the invocation.
    Rev. Ryan. Let us pray.
    God, thank you for the freedom we have to be here today. 
Thank you for the minds to concentrate, to understand; thank 
you for the hearts and the emotions that we all have associated 
with the issues that will be discussed today.
    Thank you for your presence; thank you for the beauty all 
around us and the people with whom we share this beauty.
    Today, oh, Lord, help our minds to understand, help our 
hearts not only to hold tightly to what we want or hope for, 
but also to reach out to others around us so that we all come 
to deeper understandings of the issues.
    Lord, we do lift up those who are hurting in any way. Help 
us, oh, Lord, to do what we can to reach out to them. We will 
thank you, we will give you credit.
    Amen.
    The Chairman. I would like to now ask that Mr. Davis lead 
us in the Pledge of Allegiance.
    [Pledge of allegiance.]
    The Chairman. This is an official committee meeting of the 
House Natural Resources Committee, it is not designed to be a 
town hall meeting. In fact, the Committee is here to gather 
testimony on obviously a very important issue, fishing in the 
Gulf.
    However, those of you that would like to--if you are 
inspired by what you hear and would like to submit testimony to 
the Committee, you can do so. You can go to the website, is the 
easiest way to do that, and typically the comment period is 
open for a period of 30 days so you will have plenty of time to 
get your testimony in, if you desire to do so.
    Before I start with my opening statement, I wanted to thank 
my colleague, your Congressman, Steve Southerland for pushing 
and trying to get this committee meeting down here. What is 
interesting, prior to the time that Congressman Southerland 
served on the--he is serving his first term on the Committee on 
Natural Resources--there had not been a Member from Florida on 
that Committee for nearly 10 years, the last one was 
Congressman Adam Putnam, who is now your Ag Commissioner. But 
now we have two Floridians from opposite parts of the State on 
the Committee. And I think Florida is well served by having two 
Floridians on the Committee and I know the Committee is well 
served by having two Floridians on the Committee. So I want to 
thank again, Steve, for advocating bringing this field hearing 
down here, and I do want to thank the witnesses also for being 
here. I will thank the first panel, and there will be two other 
panels.
    This is a Saturday, this is my first experience on the Gulf 
with an impending hurricane coming, so you all know about that 
better than I do, but I just want to say that I do very much 
appreciate you being here on a Saturday morning.
    I will now recognize myself for my opening statement, Mr. 
Southerland will give his opening statement and then we will 
recognize the panel and then we will have a series of questions 
that we will have for the panel.

    STATEMENT OF THE HON. DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    The Chairman. The Committee has a number of issues under 
our jurisdiction that can and do affect the State of Florida: 
The Magnuson-Stevens Fishery Conservation and Management Act, 
which governs all fishing activities in Federal waters; the 
Endangered Species Act; the Coastal Zone Management Act; the 
National Marine Sanctuaries Act; Coral Reef Conservation Act; 
the Marine Mammal Protection Act; and in addition, the 
Committee's jurisdiction extends over almost all of the 
Department of the Interior. So as you can tell, we have 
jurisdiction over a lot of Federal agencies and Federal 
statutes that do affect your activities here.
    Today, we are here to talk about fisheries and as we will 
hear from our witnesses, fishing plays a big part in the 
economy of the Gulf of Mexico and particularly here in Florida.
    According to a U.S. Fish and Wildlife Service report, in 
2006, nearly 3 million residents fished in Florida for a total 
of nearly 46 million days and contributed over $4 billion to 
the economy. According to the Florida Fish and Wildlife 
Commission, in 2008, the commercial seafood industry generated 
over $5.5 billion in sales in Florida. Now these are impressive 
numbers and they show that the health of the fishing resources 
off the coast of Florida can have a big impact on the overall 
economy of the State.
    This Committee has held a series of hearings in Washington, 
D.C. and we have heard quite a bit of testimony that indicates 
that different regions of the country have very different 
challenges as the amount of scientific information available to 
fishery managers varies significantly for most areas.
    I am glad to be able to be here to hear from today's 
witnesses directly about how the data collection and the 
management policies that are written in Washington, D.C. affect 
your activities. While I know there are always tensions between 
the commercial and recreation fishing sectors, and even more so 
when harvesting opportunities are restricted, I hope we can 
look at ways to allow both sectors to grow, by identifying the 
challenges that are affecting fisheries in this region.
    I come from the Pacific Northwest where most of our fishing 
is more in the commercial area. Not too many people go up in 
the cold North Pacific, for example, as opposed to the Gulf. So 
you have different tensions, and I recognize that. But I also 
recognize very importantly that we have to bridge that gap 
because both of those sectors, economic sectors, are very, very 
important to our economy.
    Through our hearings on fisheries issues this Congress, we 
have identified some issues that are causing reduced harvest 
levels. In particular, funding for fisheries surveys and stock 
assessments by the National Oceanic and Atmospheric 
Administration, or NOAA, they sometimes do not seem to make 
that a priority, that part does not seem to be a priority with 
that agency.
    When amendments to the Magnuson-Stevens Act were passed in 
2007, the bill required councils to establish a mechanism for 
identifying annual catch limits, or ACLs, in each fishery 
management plan at a level so that over-fishing does not occur. 
In addition, the councils are now required to include measures 
to ensure accountability.
    In January 2009, the National Marine Fisheries Service 
(NMFS) published a guideline to address these new requirements 
and aid the councils in developing ACLs and accountability 
majors or AMs. Included in these guidelines were provisions 
regarding how councils should deal with scientific uncertainty. 
The use of the ``precautionary approach'' required buffers and 
a protection of weak stocks where the data is unreliable or 
old. The less reliable the information, the more precaution is 
to be used. This has been a problem for fishery managers, 
particularly here in the Gulf, where the stock assessments are 
not done on an annual basis, and some fisheries have not been 
surveyed for years.
    While the goals of the bill were to make sure that 
management decisions were based on science, our Committee has 
heard a lot of testimony that the new provisions require a 
level of scientific information that was not available in all 
regions of the country. We have also heard that the regulations 
which implement the new amendments were unreasonable for those 
regions with limited scientific information. And the guidelines 
were creating situations where the multiple levels of 
``uncertainty buffers'' were reducing harvest levels 
unnecessarily.
    I look forward to hearing from you today, the panelists, on 
what primary challenges to fisheries management are here in the 
Gulf and what the Congress can do to make the necessary 
changes. In addition, I hope to hear from you about what other 
Federal restrictions or initiatives are affecting your 
activities. In many regions of the country, the Endangered 
Species Act is being used by groups that do not like 
development to tie Federal agencies in knots so they cannot 
issue permits for their activities. And to make matters worse, 
they often settle their lawsuits with the agencies which then 
takes Federal funds away from recovering species. Our Committee 
has been looking into that Act to see if there are specific 
provisions in the ESA that Congress can agree to review in a 
bipartisan manner.
    The Natural Resources Committee has also held a number of 
hearings on the National Ocean Policy, an unauthorized new 
bureaucratic layer of oversight that will almost certainly 
restrict everybody's ability to fish. I look forward to hearing 
your views on how this policy will affect the Gulf.
    Again, I would like to thank very much my colleague 
Congressman Southerland for inviting me here today. And with 
that, I will recognize your Congressman, Mr. Southerland.
    [The prepared statement of Chairman Hastings follows:]

          Statement of The Honorable Doc Hastings, Chairman, 
                     Committee on Natural Resources

    The hearing will come to order.
    Before I begin my opening statement, I would like to thank 
Congressman Steve Southerland for inviting me to come down to his 
beautiful district and for the opportunity to learn more about some of 
the challenges that fishermen face here in the Gulf of Mexico.
    As you all know, Congressman Southerland serves on the Fisheries, 
Wildlife, Oceans and Insular Affairs Subcommittee where he is one of 
six freshmen Republican Members. Steve has been one of the most active 
members of that Subcommittee and can always be counted on to ask the 
tough questions when we have hearings. I appreciate his energy and his 
enthusiasm.
    I would also like to thank today's witnesses and those of you who 
have given up your Saturday to come to this hearing.
    Despite the fact that the Natural Resources Committee deals with a 
number of important coastal issues and all fisheries management issues 
in Congress, the last time the Committee had a Florida member was 
2003--almost 10 years ago--when Congressman Adam Putnam (now the 
Commissioner of the Florida Department of Agriculture and Consumer 
Services) was on our Committee. I am pleased that Florida is now 
represented. That is not only good for the Committee but also good for 
the State of Florida.
    This Committee has a number of issues under our jurisdiction that 
can and will affect Florida: the Magnuson-Stevens Fishery Conservation 
and Management Act which governs all fishing activities in federal 
waters; the Endangered Species Act; the Coastal Zone Management Act; 
the National Marine Sanctuaries Act; the Coral Reef Conservation Act; 
the Marine Mammal Protection Act; and in addition, the Committee's 
jurisdiction extends over almost all of the Department of the Interior. 
As you can tell, we have jurisdiction over a lot of federal agencies 
and federal statutes that can and do affect your activities.
    We are here today to talk about fisheries. As we will hear from our 
witnesses, fishing plays a big part of the economy of the Gulf of 
Mexico and in particular, Florida. According to a U.S. Fish and 
Wildlife Service report, in 2006, 2.8 million residents and non-
residents (16 years old and older) fished in Florida a total of 46.3 
million days and contributed $4.3 billion in fishing-related 
expenditures. And according to a Florida Fish and Wildlife Commission 
report, in 2008 the commercial seafood industry generated $5.6 billion 
in sales in Florida. Those are impressive numbers and show that the 
health of the fishery resources off the coast of Florida can have a big 
impact on the overall economy of the State.
    This Committee has held a series of hearings in Washington, D.C. 
and we have heard quite a bit of testimony that indicates that the 
different regions of the country have very different challenges and 
that the amount of scientific information available to fishery managers 
varies significantly. I am glad to be able to be here to hear from 
today's witnesses directly about how the data collection and management 
policies that are written in Washington affect your activities.
    While I know there are always tensions between the commercial and 
recreational fishing sectors and even more so when the harvesting 
opportunities are restricted, I hope we can look at ways to allow both 
sectors to grow by identifying the challenges and impediments that are 
affecting fisheries in this region.
    Through our hearings on fisheries issues this Congress, we have 
identified a number of issues that are causing reduced harvest levels. 
In particular, funding for fisheries surveys and stock assessments by 
the National Oceanic and Atmospheric Administration (NOAA) are not 
keeping pace with the needs of the fisheries.
    In addition, Congress passed amendments to the Magnuson-Stevens Act 
at the end of 2006 and the bill was signed in early 2007. The bill 
required Councils to establish a mechanism for specifying annual catch 
limits (ACLs) in each fishery management plan at a level that 
overfishing does not occur. In addition, the Councils are now required 
to include measures to ensure accountability.
    In January 2009, NMFS published the guidelines to address these new 
requirements and aid the Councils in developing ACLs and accountability 
measures (AMs). Included in these guidelines were provisions regarding 
how Councils and their SSCs should deal with scientific uncertainty. 
The use of the ``precautionary approach'' requires buffers and the 
protection of weak stocks where the data is unreliable or old. The less 
reliable the information, the more precaution is to be used. This has 
been a problem for fishery managers particularly here in the Gulf where 
stock assessment are not done on an annual basis and some fisheries 
have not been surveyed for years.
    While the goals of the bill were to make sure that management 
decisions were made based on science, our Committee has heard a lot of 
testimony that the new provisions required a level of scientific 
information that was not available in all regions of the country.
    We have also heard testimony that the regulations which implement 
the new amendments were unreasonable for those regions with limited 
scientific information and the guidelines were creating situations 
where the multiple levels of ``uncertainty buffers'' were reducing 
harvest levels unnecessarily.
    I look forward to hearing from you today on what the primary 
challenges to fisheries management are here in the Gulf and what 
Congress can do to make changes. In addition, I hope to hear from you 
about what other federal restrictions or initiatives are affecting your 
activities. In many regions of the country, the Endangered Species Act 
is being used by groups that do not like development to tie federal 
agencies up in knots so that they cannot issue permits for activities. 
To make matters worse, they often settle their lawsuits with the 
agencies which takes federal funds away from recovering species. Our 
Committee has begun looking into the Act to see if there are specific 
provisions in the Act that Congress can agree to review in a bipartisan 
manner.
    The Natural Resources Committee has also held a number of hearings 
on the National Ocean Policy--an unauthorized, new bureaucratic layer 
of oversight that will almost certainly restrict your ability to fish. 
I look forward to hearing your views on how this Policy will affect the 
Gulf.
    Again, I would like to thank Congressman Southerland for the 
invitation to hold a hearing here in Panama City and look forward to 
hearing from our witnesses.
                                 ______
                                 

 STATEMENT OF THE HON. STEVE SOUTHERLAND, II, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF FLORIDA

    Mr. Southerland. Thank you, Mr. Chairman. I would like to 
say welcome to my home. Last year when we talked about this 
hearing, I knew that it would be a great honor to have you come 
and meet the people that my family has called friends for over 
200 years. So it is a great privilege to have you here.
    To my knowledge, this is the first Congressional hearing 
ever held here. And I want to tell you why we are here. I 
remember last year in this very room, I remember having a 
fisheries--a seafood roundtable where we invited different 
individuals that are stakeholders in producing a livelihood 
from the Gulf of Mexico. I remember that meeting, it is crystal 
clear almost like it was yesterday. Some of the names of the 
individuals that were here read like a Who's Who of Florida 
legacy when it comes to seafood--Mickles, Ward, Crum, 
Snelgrove, Zales, Dana, Abrams, Ratfield, Anderson, Miller, 
Hartsfield, Blander, Hart, Petromas, Gandy, Parish, Ward, 
Gillette, Blackman. Those are just some of the names that were 
here. So it was a pretty good gathering of individuals that 
bring knowledge from generation after generation of making 
their living out of the water.
    Why are we here? Because at the end of that meeting, I 
asked this simple question--would there be any interest in this 
group in me going back to Washington and asking Chairman Doc 
Hastings if he would be willing to come to Northwest Florida 
for a field hearing, so that our Committee could gather 
important data that affects the livelihoods of you, your 
families and so many people. I am very proud to tell you that 
unanimously all those names that I read, unanimously all said 
bring a field hearing here.
    And so in true fashion, as over the last 18 months, I am 
proud to fulfill my commitment of what I made in this room. I 
think that it is imperative that men and women who work hard 
and cannot afford to buy a $1,000 plane ticket and come to 
Washington, D.C., with $500 a night hotel rooms, and eating 
$100 meals in restaurants and being away from their business--
it is only proper when Congress can come to you. I think that 
is fair and I think that is responsible. And so to those who 
were here in this room a year ago--commitment fulfilled. And 
thank you for being here.
    When I was fortunate enough to be elected, I wanted to 
serve on committees that were a reflection of my history, that 
represented the people that I will now serve. Well, Natural 
Resources seemed like a pretty good fit. I serve nine coastal 
counties, that is a lot, thousands upon thousands of people. 
And so all the way from Dixie County all the way up to Okaloosa 
County. And it has been wonderful to represent those nine 
counties because my family has lived in this district for over 
200 years, hardly here today and gone tomorrow. This is home.
    Over my lifetime, I have seen those who make their living 
in these waters, I have seen them abused. I have seen them with 
no representation and they have done everything right, they 
have worked hard, they taught their children to work hard. They 
held their boats together with duct tape and baling wire, in 
order to put food on their table.
    You know me, I'd never been elected to an office before, 
not local, not state until I was elected to go to Congress. My 
promise was to fight for those who were not just acquaintances 
but were lifelong friends, my neighbors, my classmates, my 
friends whose families have been decimated by government 
bureaucracies that could care less. They do not care. So my 
promise was to fight for you. My promise was to represent you. 
My promise was to listen to you.
    Last Tuesday morning, I met with commercial fishermen in my 
office for an hour and a half, listening to their concerns, 
hearing their pains and hearing their struggles. I left there, 
I went to Destin and I walked on the docks of Destin Harbor. 
The charter boat captains just coming off the water, telling me 
their challenges, their hurts, their hopes and how all of them 
feel that they are having to try to make a living with the 
Federal Government's boot on their neck. Sound familiar? Yes, 
it does. That's not new to me, because I am one of you. I am 
one of you.
    And so today we are here to listen. We are here to listen 
to these witnesses and I want to say thank you to our first 
panel. And we are going to have two panels today, so after this 
first panel is done, we are going to go into the second. I want 
you to know, this field hearing, regardless of what some have 
accused, has been requested now for over a year in order to 
fulfill a commitment, because those of you that are here, you 
cannot afford to come to Washington. But please believe me, 
Washington can afford to come to you and here we are. So thank 
you very much for being here.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Mr. Southerland follows:]

           Statement of The Honorable Steve Southerland, II, 
         a Representative in Congress from the State of Florida

    Mr. Chairman, welcome to Florida. I want to thank you for your 
leadership and the decision to bring the committee to Panama City.
    I thank the faculty, staff, and students of Florida State 
University, Panama City for allowing us to use this great facility.
    I would also like to thank the men and women here today who will be 
providing us with their expert testimony, all of whom understand the 
need for logical, sound, and fair management of our fisheries, a 
resource belonging to all the citizens of this great nation.
    As you know, while there are only two members, including myself, 
from Florida serving on this committee, I am in the unique position of 
being the only one serving on the Subcommittee on Fisheries, Wildlife, 
Oceans and Insular Affairs.
    This gives me the opportunity to be a voice for not only the 
fishermen in Florida's 2nd Congressional District, but also for the 
fishermen throughout this state. Their frustrations have become my 
frustrations.
    I have been a member of Congress for over a year and a half now, 
and I have learned a great deal from not only Florida's fishermen, but 
also the owners of marinas, hotels, restaurants, and small business 
owners that depend upon a strong tourism industry. These groups all 
agree that Magnuson-Stevens, the law that governs our fisheries, is 
broken.
    To understand this better, I began sending staff to the Gulf of 
Mexico Fishery Management Council meetings. I was astounded to learn 
that councils have strayed from their original purpose and have been 
influenced by outside groups not affiliated with the fishing industry 
with the only goal of locking up our fisheries with no regard for our 
fishermen or our economies.
    Mr. Chairman, my family's roots in Florida pre-date statehood. For 
over 200 years, generations of my family have been blessed by the 
bounty that God has provided for us along the Gulf Coast. We have 
respect for this resource and understand that responsible management 
will not only provide for a sustainable fishery but also economic 
growth throughout our coastal communities.
    As I mentioned earlier, Florida depends on a strong tourism 
industry to sustain its economy. Florida's fisheries create and support 
thousands of jobs throughout the state and contribute to local 
businesses through hotel, restaurant, and bait store expenditures from 
out-of-state anglers. A U.S. Census Bureau report found that 2.8 
million resident- and non-resident anglers contributed $4.3 billion to 
Florida's economy in fishing-related expenditures in 2006.
    Today, Florida's tourism industry is at risk. Florida attracts 
tourists from all over the world to enjoy our beautiful beaches and--
most importantly--to catch some fish. Though thousands of species of 
fish exist in the Gulf of Mexico, the most popularly sought after is 
the red snapper.
    Recreational fishermen in the Gulf are limited to a 40-day red 
snapper season. The 40 days fall in the middle of the peak tourist 
season, but when you factor in inclement weather, sickness, or any 
other obstacle life sends your way, recreational fishermen face the 
reality of a significantly shortened season and a negatively impacted 
economy.
    If the boats are not out on the water catching fish, our hotels, 
restaurants, marinas, and small businesses of every kind throughout the 
Gulf Coast will face imminent closure.
    There are strongly held beliefs on all sides of fisheries 
management. However, one thing we can all agree on is that we are at a 
crossroads.
    I am pleased to be part of this important effort to make federal 
fisheries policy more responsive to the needs of our recreational and 
commercial fishermen.
    I hope today, through the testimonies before us that we can hear 
from all sides and find an effective way to move forward.
    I yield back.
                                 ______
                                 
    The Chairman. Thank you very much.
    When you were describing your district, for full 
disclosure, my district is a very heavy agriculture district 
and it sounds like your constituency is a lot like mine.
    We are very pleased to have our first panel here. We have 
Mr. Kenneth Wright, Chairman of the Florida Fish and Wildlife 
Conservation Commission; Ms. Pamela Anderson, the Operations 
Manager for Capt. Anderson's Marina; Mr. Don Waters, a 
Commercial Fisherman from Pensacola, Florida and Mr.--Captain I 
should say, not Mr. but Captain William Kelly, Executive 
Director of Florida Keys Commercial Fishermen's Association.
    Now if you have not had an opportunity to testify in front 
of a Congressional committee, we have this 5-minute clock which 
is in front of you. You have submitted testimony to the 
Committee. Generally that testimony is longer than 5 minutes, 
and that is fine, it will all be part of the record. But what I 
would like you to do is keep your comments within the 5-minute 
timeframe. When the green light comes on, that means you are 
doing extremely well; and when the yellow light comes on it 
means that there's a minute left; and if the red light comes 
on, those are special type chairs there----
    [Laughter.]
    The Chairman. Not really, but just try to keep it within 
that time period, if you will.
    So with that, Mr. Wright, we will start with you and you 
are recognized for 5 minutes.

            STATEMENT OF KENNETH WRIGHT, CHAIRMAN, 
       FLORIDA FISH AND WILDLIFE CONSERVATION COMMISSION

    Mr. Wright. Good morning, Chairman Hastings, Representative 
Southerland from our great State of Florida, fishing capital of 
the world, and members of the Committee absent today.
    My name is Ken Wright, I am Chair of the Florida Fish and 
Wildlife Conservation Commission, which I will refer to as the 
FWC. We are the agency responsible for managing fish and 
wildlife resources in the State of Florida, and I appreciate 
the opportunity to address our concerns regarding effective 
management of marine fisheries in Florida and the Southeast.
    Fishing is big business in Florida. As you stated, there 
are approximately 150,000 Floridians directly employed, not 
counting those that are involved in the multiplier of the 
industry. In the recreational sector, there are 100,000 in the 
commercial sector, 50,000. Florida alone accounts for nearly 40 
percent of all marine recreational fishing nationally, with 
$5.7 billion total sales from recreational fishing and $5.6 
billion in commercial sales.
    I am here to express the view that Florida and my agency 
are essential partners with the Federal Government making sure 
the fishery resources are sustainable and available to be 
enjoyed today and by generations to come. We in Florida, and 
particularly Florida FWC, have many years of experience and 
know that the public enjoyment of natural resources can be 
balanced with resource protection. By nature, fishermen are 
leery of increasingly restrictive regulations, but the 
fishermen have expressed their support for past management 
measurements after seeing stocks recover from over-fishing. 
Today, however, fishermen are more than leery. Many are angry, 
some are afraid, most are distrustful of a new set of rules 
they perceive as inflexible and without justifiable merit.
    They are frustrated with fishery managers and altogether 
skeptical of the public process. To make matters worse, many 
feel that the new regulations are being proposed at a time when 
they are still suffering from the ill effects of the 2008 
economic downturn and the irony is not being lost on these 
fishermen. Charter captains, party boat operators, marina 
owners, bait and tackle shops owners, seafood wholesalers, as 
well as recreational anglers tell FWC Commissioners about the 
negative impacts of what they consider over-restrictive and 
perhaps unnecessary management measures.
    Changes to the current system are needed, especially in 
terms of strengthening and expanding current fisheries data 
collection programs in our region. Fisheries management in the 
Southeast United States suffers from chronic, yet well-
documented data shortages. Essentially, our current system does 
not seem capable of adequately supporting the data and 
analytical requirements of annual catch limits management 
policies. The problem is two-fold. There are major deficiencies 
in the quality and the frequency of stock assessments and 
fishery statistics. Number two, management goals and time lines 
need to be more flexible, given our current scientific capacity 
and performance limitations of the council management system.
    In the context of decreased budgets, addressing the 
problems we have experienced in the Southeast will require 
reprioritization of scientific resources, we are well aware. 
Fundamentally, we need broader and more comprehensive data 
collection programs as well as sufficient numbers of highly 
trained analysts to provide reliable, high-quality scientific 
data and information on a timely basis.
    This concludes the remarks that I have, which I prepared, 
Chairman, Congressman, to summarize my written testimony.
    I will take the balance, the little bit of time I have to 
tell you that I am speaking on behalf of Florida's fishermen, 
all of the industries that rely upon the fishing industry. 
Fishermen in the Southeast come here, we need relief. I am 
tired of being in Commission meetings and having gentlemen come 
to me my age in tears because their business is crumbling. We 
are having to impose highly draconian restrictions upon the 
ability of our citizens to catch fish, recreationally or 
commercially, when we lack the sufficient data to support a 
decision that is so impactful to their lives and livelihood, 
without having the proper information. It is painful.
    I know that budgets are tight. I ask only that you give us 
more time. Red snapper in particular, it is recovering, we know 
that intuitively, because that is mostly what we have to rely 
on. But it is recovering, but to recover in so short a period 
of time may be at the cost of those people who will benefit 
from recovery. They may be out of business by the time we get 
to the point that we can document success.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Mr. Wright, for your 
testimony.
    [The prepared statement of Mr. Wright follows:]

                  Statement of Kenneth Wright, Chair, 
           Florida Fish and Wildlife Conservation Commission

    The Florida Fish and Wildlife Conservation Commission (FWC) is the 
agency responsible for managing fish and wildlife resources for the 
State of Florida. Ken Wright, Chair of FWC will address the agency's 
concerns regarding assessment and management of Gulf of Mexico 
fisheries.
    Fishing is big business in Florida. There are approximately 150,000 
Floridians directly employed in fishing-related businesses--100,000 in 
the commercial sector and 50,000 in the recreational sector. Florida 
alone accounts for nearly 40% of all marine recreational fishing 
nationally, with $5.7 billion in total sales from recreational fishing 
in 2011 and $5.6 billion in commercial sales in 2008. Gulf of Mexico 
fisheries are vital to Florida's economy. They are a main target for 
the recreational boating community, and are highly prized by resident 
and visiting anglers. The importance of Florida's fisheries and the 
unprecedented pressures they face force the state's management agencies 
and stakeholders to search for new, creative and sound fisheries 
management approaches.
    While there is always controversy about the status of regulated 
stocks--this is the nature of fisheries management--there is ongoing 
concern and a lack of credibility among commercial and recreational 
fishers about the findings of recent stock assessments. Of even more 
concern to fishermen are the management decisions being mandated based 
on these stock assessments. By nature, fishermen are leery of 
increasingly restrictive regulations, but fishermen have expressed 
their support for past management measures including size limits, bag 
limits and commercial quotas, after seeing vital Gulf of Mexico stocks, 
such as king mackerel and red grouper, recover from historical 
overfishing. Today, however, fishermen are more than leery. Many are 
angry, some are afraid, and most are distrustful of a new ``set of 
rules'' they perceive as inflexible and without merit. They are 
frustrated with fishery managers and altogether skeptical of the public 
process. To make matters worse, many feel that new regulations are 
being proposed at a time when nationally we are still suffering from 
the effects of the 2008 economic downturn--and the irony is not being 
lost on fishermen. Charter captains, party boat operators, marina 
owners, bait and tackle dealers, seafood wholesalers as well as 
recreational anglers tell FWC Commissioners about the negative impacts 
of what they consider over-restrictive and perhaps unnecessary 
management measures.
    Changes to the current system are needed, especially in terms of 
strengthening and expanding current fisheries data collection programs. 
Fisheries management in the southeast United States suffers from 
chronic, yet well-documented, data shortages. This hampers scientists' 
abilities to evaluate exploited populations and managers' abilities to 
develop, and ensure accountability with, management measures. Required 
data are simply stated: accurate catch statistics, adequate biological 
sampling, and comprehensive population monitoring. The lack of these 
data adds uncertainty at all levels of scientific and management 
processes, which, due to requirements in the Magnuson-Stevens Fishery 
Management and Conservation Act (Magnuson-Stevens Act), translates into 
an obligation to be increasingly conservative in management 
specifications. Therefore, it is highly likely that fisheries which are 
neither overfished nor experiencing overfishing, will nonetheless face 
harvest reductions and increasingly restrictive regulations.
    More recreational angling trips are taken in Florida annually than 
any other state. In fact, the number of angling trips in Florida each 
year exceeds the sum total of the next highest five states combined. 
Therefore, concerns with recreational statistics provided through the 
Marine Recreational Fisheries Statistics Program (MRFSS) are 
particularly relevant. The level of recreational data collection for 
Florida's Gulf Coast fisheries is considered inadequate to support 
timely and relevant stock assessments for many species. The MRFSS 
survey in Florida interviews approximately 45,000 anglers annually. 
This level of effort is nowhere near that required for a state with 
more than 24 million recreational angling trips each year. As a result 
of this under-sampling, statistics for many of the species managed by 
the Gulf of Mexico Fishery Management Council are measured with 
considerable imprecision by the MRFSS, even by the program's own 
standards. It is extremely difficult to develop effective 
accountability measures that can function adequately when applied to 
these imprecise estimates. Timing is also an issue. Under the current 
survey approach, final estimates of recreational catch and effort for 
each calendar year are typically delayed by at least eight months.
    The FWC recognizes that improving the precision of recreational 
statistics in Florida is not an easy task. The number of angler 
interviews required to enhance the precision of catch and effort 
estimates is enormous, likely at least 100 times the current level of 
effort. This reality suggests that alternative approaches are required 
to reliably estimate recreational fisheries statistics. The FWC 
believes that approaches should be developed that take advantage of 
many fishermen's stated willingness to report what they catch directly 
and to participate more fully in the data collection process. 
Implementing electronic or online reporting systems for recreational 
fishermen would improve both timeliness and sample sizes. The FWC 
supports efforts underway to resolve recreational data collection 
issues through the Marine Recreational Information Program (MRIP), and 
we hope that future programs will not only reduce uncertainty in 
estimates and considerably improve the timeliness of their 
availability, but also take advantage of current technology to address 
fishermen's willingness to submit information.
    The final requirement for expanding and strengthening this region's 
data collection programs is fisheries independent monitoring of 
resources, essentially the information that is provided by scientific 
surveys of fish and their habitats. There is no comprehensive 
monitoring program for the fisheries resources of the Gulf of Mexico, a 
fact that directly contributes to the large number of stocks in the 
region for which overfishing status is unknown. Scientific monitoring 
provides information for stock assessments that is proven to greatly 
reduce uncertainty. Data from these surveys allows analysts to separate 
out changes due to fishing from those caused by natural factors. In 
addition, scientific surveys provide a means of evaluating resources in 
areas that are closed to fishing, and generate more comprehensive 
information that is critical to future ecosystem-based fisheries 
management efforts. The FWC has long supported implementation of a 
comprehensive survey program in the region, and believes it is critical 
that such a program provide thorough spatial and temporal coverage. 
Some progress has been made by the development of an eastern Gulf of 
Mexico fishery-independent survey that FWC conducts in cooperation with 
the NOAA Southeast Fisheries Science Center. The geographic scope of 
this survey, however, is limited and not suitable for properly 
addressing fishery-independent data needs for stocks with broader 
ranges.
    The importance of a comprehensive fishery-independent monitoring 
program to the future success of fisheries management in the Gulf of 
Mexico cannot be overstated. Data generated from these types of surveys 
allow managers to be proactive, and stand in stark contrast to the 
retrospective, quota-based management of the present day. Today, stock 
assessments for Gulf fisheries rely mostly--and in some cases 
exclusively--on data from the fisheries themselves. As a result, these 
assessments are only feasible when fishery data is available. 
Restrictive regulations or fisheries closures reduce or eliminate the 
information stream informing the stock assessments. In these 
situations, data generated by independent scientific surveys becomes 
absolutely critical. Due to the lack of scientific surveys, recent 
management closures in the South Atlantic and those due to the 
Deepwater Horizon oil spill in the Gulf of Mexico created periods 
during which little or no fishery data were available for future stock 
assessments.
    Also of great concern are the recent budget cuts by NOAA to the 
Interjurisdictional Fisheries program (IJF), one of the oldest 
cooperative state/federal assessment and management efforts in the 
country. IJF is the only such program in which the states determine 
management priorities through planning and research efforts for inshore 
and nearshore species, such as spotted seatrout, striped mullet, blue 
crabs, and oysters. In the Gulf of Mexico, these nearshore species 
comprise the majority of the commercial and recreational harvest, 
resulting in significant social and economic benefits to the Gulf 
states and the nation. IJF is the cornerstone of the fishery management 
programs for the states and has provided the support for long-term 
databases for shrimp and juvenile finfish in the Gulf of Mexico, which 
would otherwise not be available. In recent years, it has provided for 
regional planning efforts, by states, to manage nearshore resources in 
a manner consistent with the Magnuson-Stevens Act. In essence, the IJF 
has provided a critical linkage between federal and state fisheries 
management plans and needs to be reinstated at full funding levels.
    While the Florida-based concerns are vitally important, we must 
also make the point that the Southeast Region of the United States, 
including the jurisdictions of the South Atlantic, Gulf of Mexico, and 
Caribbean Fishery Management Councils, has historically not been funded 
at levels needed to provide data and stock assessments on a timely, 
comprehensive basis. The NOAA Southeast Fisheries Science Center has 
the unenviable task of providing scientific support for three separate 
Councils and dozens of species. When asked about this discrepancy, the 
FWC has been told that the Southeast Region has ``boutique'' fisheries 
that are not worth as much as commercial fisheries in other parts of 
the country, thus not warranting increased funding to the area for 
needed assessments and data collection. The FWC argues that the people 
involved in fisheries in the Southeast, many of which have a large 
recreational component, deserve the level of data collection and 
assessment processes afforded in other parts of the county, especially 
in light of the stringent timelines and requirements in the Magnuson-
Stevens Act.
    In summary, state and federal agencies are all spread very thin. 
Data collection systems, however, need to be revamped to get more 
active participation by fishermen and more timely data for stock 
assessments. The Southeast region needs to be recognized at the same 
levels as other parts of the country and funded at similar levels. We 
should have the ability to collect the basic information on the 
numerous species in the Southeast region as well as hire additional 
stock assessment scientists to support more timely and a larger number 
of assessments. These requests would help the fisheries management be 
more predictable and forward thinking. Fishermen would benefit greatly 
from this data and this type of management. We realize that the funding 
challenges are considerable, but these critical needs must be addressed 
now. Implementing priority program enhancements should be combined with 
appropriate adjustments to management timelines to allow more 
flexibility in achieving healthy stocks without imposing undue burdens 
on fishermen. The FWC has dealt with the fisheries challenges of the 
past and we are prepared to continue to work hard to successfully 
implement the level of well-informed and credible fishery management 
that the people of Florida rightfully deserve.
    In closing, the Florida Fish and Wildlife Conservation Commission 
would like to thank the House Natural Resources Committee for holding 
this important hearing in Panama City, home of Representative Steve 
Southerland, and we greatly appreciate the Committee's interest in the 
effective management of marine fisheries in Florida and the southeast.
                                 ______
                                 
    The Chairman. I will recognize Ms. Pamela Anderson for 5 
minutes.

 STATEMENT OF PAMELA W. ANDERSON, VICE PRESIDENT, PANAMA CITY 
                     BOATMAN'S ASSOCIATION

    Ms. Anderson. Chairman Hastings----
    The Chairman. Speak directly into the microphone. Turn it 
so it is facing you. I think it is on, is it not? It was on a 
moment ago. Yes, it is on.
    Ms. Anderson. You want me to get closer?
    The Chairman. Yes, get it--I am trying to be nice about it.
    [Laughter.]
    Ms. Anderson. Chairman Hastings, Representative 
Southerland, my name is Pam Anderson and I am appearing today 
on behalf of the Panama City Boatman's Association and Capt. 
Anderson's Marina here on Panama City Beach. We know first-hand 
many of the negative economic impacts legislative issues have 
had on our industry. Our anglers and I appreciate the 
opportunity to share with you these issues that are costing 
jobs in the fishing and tourism industry.
    What I will speak to concerns the Gulf red snapper fishery. 
In other areas of the country though the message is the same, 
just a different species.
    The original Magnuson-Stevens Act gave NOAA the mandate to 
rebuild and better manage the fisheries. The fisheries began to 
noticeably recover and rebuild in 2000. In 2006, recreational 
fishing was good. We had a four fish bag limit and 6 months of 
good fishing and tourism. then came the Magnuson 
Reauthorization of 2006, with inflexibility of non-scientific 
arbitrary deadlines and mandates. Our gradual rebuilding of the 
red snapper fishery became a mandate to stop over-fishing by 
2010--3 years to fix what fishery managers had allowed to 
happen over decades. Each year since, the season has been 
shorter and we have been told we over-fished the annual limit 
even as we abided by the regulations. In 2009, the updated 
assessments show we are no longer over-fished nor undergoing 
over-fishing, the season still got shorter.
    This was due to the weight of the fish. In 2006, the 
average weight of red snapper was 3.2 pounds; in 2012 the 
average weight is 7.6 pounds. Each year the fishery managers 
have under-estimated the growth of the fish and that has thrown 
us into over-fishing. For instance, in 2006, with the average 
fish weight of 3.2 pounds, we were harvesting about 1.4 million 
fish. This year, with the annual catch limit almost the same, 
but the average fish weight of 7.6, we were held to about 
521,000 fish. The real problem was they did not factor that 
average weight properly when they determined the annual catch 
limit. They estimated the average weight to be less which set 
us up to over-fish. This has happened every year since 2007 and 
we have had days deducted from the following year's season.
    When we had the red snapper open, business was really good. 
When red snapper is closed, business is down 30 to 50 percent. 
The 40 businesses at our marina support about 300 jobs in red 
snapper season.
    What can our legislators do to help? We need flexibility in 
the non-scientific arbitrary deadlines in the Magnuson-Stevens 
Act to rebuild the fisheries. As long as a fishery is 
rebuilding, going in the right direction, we should be able to 
fish. I believe since NOAA says we over-fished for the last 5 
years, and the fishery is rebuilding faster than expected, 
there is a data problem.
    Southeast Fisheries Science Center provides fishery 
independent data based on data collected in 10 to 15 of the 
same natural reefs each year. Because in part this data 
collection started before the tens of thousands of artificial 
reefs and petroleum platforms were in place, they do not 
consider them in their data. The reason they say they do not 
use the artificial reefs in the data is a concept called 
production versus attraction.
    With this theory, they say the natural reefs are the main 
source of reproduction territory in the red snapper fishery; 
the fish are drawn to the artificial reefs for a food source. I 
find it hard to believe that fish go out to lunch at the 
artificial reefs and go back home to the natural reefs to 
spawn, especially after seeing videos and hearing divers' 
reports of their dominance on the artificial reefs. Dr. Bob 
Shipp at the University of South Alabama presented data to 
prove that reproduction takes place on the artificial reefs in 
the February 2010 council meeting. He also has written a 
research paper that you have there, ``A Perspective of the 
Importance of Artificial Habitat.'' He presented this paper to 
the SEDAR committee in proof of the higher abundance of red 
snapper, but it was set aside as ``not the best available 
data.'' This must be due to the NOAA scientists not believing 
the red snapper reproduce on artificial reefs. But this paper 
is on the NOAA website.
    Reputable researchers across the Gulf disagree with NOAA on 
the status of the red snapper. It has been shown that by 
including the thousands of artificial reefs and petroleum 
platforms in the stock assessment, instead of a red snapper 
biomass of 15 million pounds, there is closer to 100 million 
pounds of red snapper out there.
    In addition, we have been working to prevent Sector 
Separation and Catch Share from being implemented in the 
recreational Gulf fishery. In 2004, the IFQ program for red 
snapper in the commercial sector cut them from 1,600 permitted 
boats to about 800, picking winners and losers. Catch Shares is 
privatization of our natural resource, our fishery in the Gulf. 
This week, the Gulf council has on record almost 3,500 emails 
from stakeholders, of which more than 90 percent are against 
Sector Separation and Catch Shares and yet, instead of voting 
it down, they tabled it for a year. We are hoping that you will 
help us defund this job killing program.
    Tourism, the fishing industry, and coastal communities have 
come to rely on fishing as an economic driver as well as our 
heritage. And so it is imperative that regulations that impact 
the fishery are accurate, fair and made in consideration of the 
economic impacts they cause. We need your assistance in getting 
flexibility in the over-fishing deadlines in the Magnuson-
Stevens Act, in stopping any new Catch Share programs, and 
demanding that the data collection, stock assessments, and 
model of the data, reflect true, accurate science as you direct 
fishery managers to relax some of the strict regulations and 
get our industry back to work.
    Mr. Chairman, this concludes my testimony.
    The Chairman. Thank you very much for your testimony.
    [The prepared statement of Ms. Anderson follows:]

           Statement of Pamela W. Anderson, Vice President, 
                   Panama City Boatman's Association

    Chairman Hastings, Ranking Member Markey, Representative 
Southerland and members of the Committee, my name is Pamela Anderson 
and I am appearing today on behalf of the Panama City Boatman's 
Association (PCBA). I am also the Operations Manager of Capt. 
Anderson's Marina here on Panama City Beach and know first-hand many of 
the negative economic affects some of the legislative and governmental 
issues have on our industry. Our Panama City anglers and I appreciate 
the opportunity today to share with you issues that are costing jobs in 
the fishing and tourism industry.
    Most of what I will share with you concerns the Red Snapper fishery 
because that is the species we deal with most in the Gulf. In other 
areas of the country, the message is the same, but it is concerning a 
different species of fish.
    As you are aware, the original Magnuson-Stevens Fisheries 
Conservation and Management Act of 1976 and reauthorized in 1996 put in 
motion a new set of regulations to give NOAA Fisheries Service the 
power to rebuild and better manage the fisheries. As the new 
regulations were implemented in our area, the commercial and 
recreational sectors were designated certain allocations of the 
different managed species, and a 6 month season was put in place 
instead of a year-round season. In 2004 a limited access privilege 
program was put in place for the recreational for-hire industry in the 
Gulf. This was followed by an IFQ program for Red Snapper (now referred 
to as Catch Shares) in the Commercial Gulf fishing industry in 2004. As 
these programs came on line the fishery began to noticeably recover 
from the overfishing that had occurred. In 2006, fishing was good, we 
had a 4 fish bag limit and 6 months of good fishing and tourism. Then 
came the Magnuson-Stevens Reauthorization Act of 2006, which was signed 
into law in January, 2007, with inflexibility of non-scientific 
arbitrary deadlines and mandates.
    Our gradual rebuilding of the red snapper fishery became a mandate 
to stop overfishing by 2010--3 years to fix what fishery managers had 
allowed to happen over decades. In May, 2007, we went to a 2 fish bag 
limit and finished out the 6 month season. In 2008, it was reported 
that we `overfished' in 2007, so our season was cut to 65 days; in 
2009, we were told we were fortunate-fishery managers `gave' us 75 
days, but were then told we overfished so much that in 2010 we were 
given 53 days, then 45 days in 2011 and 46 days this year. Each year we 
have been told we have overfished the annual catch limit, but each year 
we have done exactly as we were told, abiding by the regulatory bag 
limits and seasons. In addition, there was an update assessment 
completed in 2009 which showed the growth of the fishery to a point 
where we are no longer overfished nor undergoing overfishing.
    The reason for this supposed overfishing was not due to the number 
of fish we harvested, but due to the weight of the fish. In 2006, the 
average weight of the harvested Red Snapper was 3.2 pounds. In 2012, 
the average weight is 7.6 pounds. Each year the Fishery managers have 
underestimated the growth of the fish and that has thrown us into 
overfishing. For instance, in 2006, with the average fish weight of 3.2 
pounds we were harvesting about 1.4 million fish. This year, with the 
annual catch limit almost the same but the average fish weight of 7.6, 
we were held to about 521,000 fish. But the real problem was they did 
not factor that average weight properly when they determined the annual 
catch limit. They estimated the average weight to be less, giving more 
days to fish, which set us up to overfish. This has happened every year 
since 2007. As we go over the annual catch limit, we have days deducted 
from the following year's season.
    What impacts has it had on our businesses? First of all, it is a 
detriment to our business to not be able to tell our customers who 
begin making summer vacation plans in January and February that we know 
the season will begin June 1st but do not know when it will end-
sometimes not until the June meeting when the closure may come in July. 
It is impossible for them and us to plan ahead.
    During the Red Snapper season, our headboats, there are five at our 
marina, have seen a significant effort shift from long trips (10-12 
hours) to short trips (5-6 hours) as you can see on the chart provided. 
The same has happened to the charter boats, of which we have 22. Their 
customers are shifting from the long trips to shorter trips. The reason 
given? Folks don't want to pay to go the extra hours if they can only 
keep 2 Red Snapper. For the marina, this causes issues with decreasing 
fuel sales and some operators having a difficult time paying rent due 
to the short window of time they have to make a profit. In addition, 
since the headboats pay according to a percentage of sales, as 
customers choose the shorter, lesser expensive trips, the marina loses 
more revenue. But it does not stop there. We also have a 500 passenger 
dinner cruise boat, a 200 passenger sightseeing boat, a large 
restaurant, seafood market and gift shop. They all work together 
providing entertainment and dining for folks who come in with their 
families. If fishing is down, traffic to the marina is down. The other 
businesses are affected. So this has happened to one marina that with 
all 40 businesses probably employs 300 people when business is good. In 
addition, those folks who are not coming to the area are not visiting 
other local attractions, staying in hotels, and eating in other 
restaurants.
    When is business really good? When we have the Red Snapper season 
open. Without Red Snapper, but during tourist season, business is down 
between 30 and 50%.
    What can our legislators do to help? We need flexibility in the 
non-scientific arbitrary deadlines in the Magnuson to end overfishing 
and in rebuilding the fisheries. As long as a fishery is rebuilding, 
going in the right direction, what does it matter that we are 
overfishing? Overfishing is not harvesting more than the science-based 
overfishing level set by the Science and Statistical Committee. 
Overfishing is harvesting more than what the SSC thought we could 
harvest and still rebuild the fishery. We have done that for the past 5 
years and the fishery is still on the right track for its rebuilding 
plan, and researchers say, probably better than expected. What that 
means to me is there are more fish out there than the NOAA data is 
showing.
    NOAA scientists at the Southeast Fisheries Science Center in Miami 
provide data to the fishery managers for regulatory purposes. Their 
fishery independent data is based on data collected across the Gulf in 
as few as 10-15 of the same natural reefs each year. Some years there 
are only 150-200 samples taken at these locations. Because, in part, 
this data collection started before the tens of thousands of artificial 
reefs and petroleum platforms were in place, they do not consider them 
in their data. The reason they say they do not use the artificial reefs 
in the data is a concept called production vs. attraction.
    With this theory, they say the natural reefs are the main source of 
reproduction territory in the Red Snapper fishery; the fish are drawn 
to the artificial reefs for a food source. I find it hard to believe 
that fish go out to lunch at the artificial reefs and go back home to 
the natural reefs to spawn, especially after having seen videos and 
heard diver's reports of their dominance on the artificial reefs. Dr. 
Bob Shipp, head of Marine Biology at the University of South Alabama, 
presented data to prove that reproduction takes place on the artificial 
reefs in the February, 2012, Gulf council meeting. (http://vimeo.com/
37538879) He has also written a research paper that has been published, 
`A Perspective of the Importance of Artificial Habitat on the 
Management of Red Snapper in the Gulf of Mexico.' He presented this 
paper to the SEDAR committee in proof of the higher abundance of Red 
Snapper, but it was set aside as `not best available data'. One would 
assume this is due to the NOAA scientists not believing the Red Snapper 
reproduce on artificial reefs.
    This theory is the one that is holding back the fishing industry 
further through regulations. Reputable researchers across the Gulf 
disagree with NOAA on the status of the Red Snapper stock. It has been 
shown that by including the thousands of artificial reefs and petroleum 
platforms in the stock assessment instead of a Red Snapper biomass of 
15 million pounds, there is closer to 100 million pounds of Red 
Snapper.
    In addition to all of this, we have been working to prevent a Catch 
Share system from being implemented in the Recreational Gulf Fishery. 
This week the Gulf Council, again, as in the last 4 years, discussed 
the issue of Sector Separation. Sector Separation is not Catch Shares, 
but it must be in place dividing the recreational sector into private 
angler and for-hire groups, in order for Catch Shares to be implemented 
in the for-hire, then, later, the private angler group. In 2009, in 
giving mandates from NOAA Fisheries in Washington, D.C. to the Catch 
Shares Task Force it was said, to `go to your regions, find out what 
the impediments to the program are, and fix them.' You cannot fix 
deceit, but you can stop it. That is what we plan to do with our 
efforts here as we attempt to inform the stakeholders and with your 
efforts in passing legislation to stop this job-killing program.
    Dr. Jane Lubchenco, head of NOAA Fisheries, states that the Catch 
Share program will reduce participation in the fishery, that we are at 
overcapacity. NOAA staff in the Gulf region say there will be winners 
and losers. According to that terminology, I believe it is not meant to 
be a choice, even though that is what is stated publicly by NOAA in DC. 
Catch Shares is privatization of our Natural Resource, our fishery in 
the Gulf. Even though numerous times we have presented information 
proving the majority of stakeholders do not want Catch Shares in the 
Gulf, the Gulf of Mexico Fishery Management Council finds a way to 
`kick the can down the road' again. This week, they have on record 
almost 3500 emails from stakeholders of which more than 90% are against 
Sector Separation and Catch Shares. As this talk was being written, I 
was sitting in Gulf Council meeting as the Council made the decision to 
`table' the issue of Sector Separation. After 4 years of controversy, 
of discussion, of NOAA Science Center time and effort, it is tabled!
    One last issue that will affect our Gulf fishery is the demolition 
of the petroleum platforms in the Gulf which have become artificial 
reefs teeming with corals, plantlife, all species of Gulf fish, 
dolphins and turtles. We ask that you assist in stopping this 
unnecessary destruction to preserve this fishery habitat. With the 
destruction of the platforms scheduled for 2012, it will kill an 
estimate of 2 million pounds of Red Snapper alone. Our recreational 
annual catch limit was about 4 million pounds this year.
    Tourism, the fishing industry, and coastal communities have come to 
rely on fishing as an economic driver and so it is imperative that the 
regulations that impact the fishery are accurate. Fishery regulators 
depend on the science and interpretation of that science to implement 
proper regulations. The fishing industry expects the regulations to be 
fair, equitable, and made in consideration of the economic impacts they 
cause. We need your assistance in getting flexibility in the 
overfishing deadlines in the Magnuson, in stopping any new Catch Shares 
programs, and demanding that the data collection, stock assessments and 
modeling of the data, reflect true accurate, science that will give 
fishery managers the ability to relax some of the strict regulations 
and get our industry back to work.
    Mr. Chairman, this concludes my testimony. Again, I say thank you 
for including me in this discussion. I am happy to answer any questions 
you have to the best of my ability.
    Attachments: Please supply copies of this document: A Perspective 
of the Importance of Artificial Habitat on the Management of Red 
Snapper in the Gulf of Mexico by Robert L. Shipp and Stephen A. Bortone
    www.sefsc.noaa.gov/sedar/download/SEDAR24-RD39_Shipp2009.pdf?id=
DOCUMENT
                                 ______
                                 
    The Chairman. And now I am pleased to recognize Mr. Don 
Waters, a Commercial Fisherman out of Pensacola, Florida. Mr. 
Waters.

STATEMENT OF DONALD A. WATERS, COMMERCIAL FISHERMAN, PENSACOLA, 
                            FLORIDA

    Mr. Waters. Thank you, Mr. Chairman and members of the 
Committee. Thank you for the opportunity to testify today. My 
name is Donald Waters, lifelong Florida fisherman. I have been 
fishing in the Gulf of Mexico for four decades.
    Fishermen are speaking out. I ask that newspaper articles 
circulating through our Gulf region papers yesterday be 
submitted for the record.
    The Chairman. That will be part of the record.
    Mr. Waters. Thank you, sir.
    I am here representing those fishermen, but I am also 
representing more than 250 million Americans that do not fish 
but like to enjoy fresh Gulf seafood.
    I am proud to be a commercial fisherman, we are a huge part 
of the Gulf economy. Just here in Florida, the seafood industry 
generates 65,000 jobs and $2.4 billion in income. So we 
commercial fishermen know that fishing equals jobs. But we also 
know that it is not always that simple.
    It was not that far back we fished ourselves out of a job. 
You cannot condemn the system we are in today unless you have 
lived the system in the past. When I first started 
participating seriously in the Gulf of Mexico fisheries 
management process our fisheries were hardly managed at all. It 
is easy to say we want to be liberated from regulations, but 
those of us who fished so hard for so little in the old open-
access fisheries know better. We could not depend on red 
snapper for a living. I remember back in the 1970s when we 
caught 400 pounds in 5 days we counted ourselves lucky.
    In the red snapper fishery, we moved from open-access to 
derby fishing. We was told to fish the first 9 days of the 
month. The personal impact was terrible. I missed my wife's 
birthday for 15 years in a row. I had no choice but to go 
fishing--weddings, funerals, even my son's graduation. The 
economic impact was terrible. Buyers wanted a constant supply 
of fish, we could not provide that. We were selling fish for 
$1.50 a pound. Imports had the upper hand on us by supplying a 
constant supply to the restaurants. We were basically exporting 
American seafood jobs.
    Fishermen helped implement two big reforms under the 
Magnuson-Stevens Act. First, we adopted science-based catch 
limits. We moved into a system that ended over-fishing in red 
snapper and we are now on a 40-year rebuilding plan.
    Second, we voted to adopt new systems to allow us to fish 
at our own pace. These catch share systems have worked well, 
starting with spiny lobster, stone crab. Soon after, the red 
snapper IFQ was implemented in 2007, the price rose to $3.00, 
the first time in 15 years that I had seen this price. These 
fisheries went from low pay part-time jobs to better paying 
full-time jobs, not just for fishermen, for fish houses, 
distributors, restaurants, and boosted the economy of the Gulf 
and the Nation.
    I would never suggest that every fishery should be managed 
by catch share, and the current law requires no such thing. But 
the participants of every fishery should retain the right to 
make that decision.
    We have come a long way, but our fisheries still face 
enormous challenges. With all due respect, we do not need 
Congress taking us back to the failures of the past. We need 
you to help us address the changes of the future. For example, 
American fishermen are the victims of rampant seafood fraud, 
which costs jobs at home. Help us create a traceability system.
    Funding for fishery science and data collection, help us 
secure investments for these programs.
    And Mr. Chairman, a distinguished bipartisan Congressional 
coalition got us where we are now, and it helped. Senators like 
Trent Lott and John Breaux, tackled the challenges of their 
day. We need similar leadership from Congress. Do not turn back 
the clock, help us create fisheries and jobs for tomorrow.
    Thank you.
    [Applause and cheers.]
    Mr. Waters. Thank you, Mr. Southerland.
    The Chairman. As I mentioned, this is a Committee hearing 
and one of the things that we do when we have Committee 
hearings is expect decorum when there are differing views. I 
know there are differing views on this, we would not be having 
this hearing here if there were not differing views.
    But for goodness sakes, if we are Americans, we should 
expect to have those differing views respected by people in the 
audience. I thought the testimony was--you could tell it was 
real. That came across very clear. But please, this is a 
Committee meeting and we would like to have respect for the 
people that are giving the testimony. We are here to gather 
information.
    [The prepared statement of Mr. Waters follows:]

                Statement of Donald Waters, Co-Founder, 
                   Gulf Coast Professional Fishermen

    Chairman Hastings, Ranking Member Markey, and Members of the 
Committee, thank you for the opportunity to testify today on how 
strengthening America's fisheries can strengthen our economy. My name 
is Donald Waters and I've been an active commercial reef fish fisherman 
out of Pensacola, FL since 1974. My grandfather first introduced me to 
red snapper fishing when I was just six years old. At age fourteen I 
began gill net fishing, which I did for over twenty years until the 
Florida net ban. I am the owner of the F/V Hustler, which I've operated 
for the last twenty years. I've been an active participant in the Gulf 
of Mexico Fishery Management Council process since 1985, and have 
attended more Gulf Council meetings than any other commercial fisherman 
alive. I serve on the Red Snapper Advisory Panel, Red Snapper Ad Hoc 
IFQ panel, and the Red Snapper stock assessment panel. I am also a 
founding member of the Gulf Coast Professional Fishermen.
    Mr. Chairman, our nation's fisheries provide us with food, jobs and 
a way of life. Nowhere is that more true than here in the Gulf of 
Mexico. I'm proud to be part of a commercial fishery that generates 
jobs--not merely on the dock, but right down through the seafood supply 
chain. Commercial fishermen in the Gulf of Mexico landed 1.4 billion 
pounds of finfish and shellfish in 2009, earning $629 million in 
landings revenue. But critically, that is only the start of the benefit 
my industry brings to our region and our nation. For example, right 
here in the State of Florida, the seafood industry generated 65,000 
jobs and $2.4 billion in income. And perhaps just as important, we are 
the conduit for the more than 250 million Americans who don't fish in 
our oceans but want to enjoy the delicious, healthy seafood they 
provide.
    So Mr. Chairman, the assertion contained in the title of this 
hearing--that ``fishing = jobs''--is a truth that I know better than 
most. But with all due respect to you and members of your committee, it 
also risks being a dangerous over-simplification of a very complex 
issue. I've learned during decades of change in Gulf fisheries that 
more fishing doesn't always mean more jobs. And I've seen up close how 
an unwise policy or management decision taken in Washington, DC can 
jeopardize the jobs of fishermen like me, and the wellbeing of coastal 
communities like this one.
    Today I would like to focus my remarks on matters that I believe 
can help guide the committee during its fisheries deliberations--for 
the remainder of the year and into the next Congress. Some members of 
this panel are calling for immediate and far-reaching reform of the 
Magnuson-Stevens Fishery Conservation and Management Act. Others would 
like to see significant changes in the context of the next 
reauthorization, scheduled to occur as early as 2013. I hope my 
testimony today can provide useful context for those debates. Because 
although I believe there are significant improvements that can still be 
made in our fishery management system, ignorance of the shameful 
mistakes of the past must not be permitted to undermine the slow and 
often painful strides we've made in creating one of the most successful 
systems of science-based fishery management that exists anywhere in the 
world.
A legacy of job-killing mismanagement
    At the time when I first started participating seriously in the 
Gulf of Mexico fishery management process, our fisheries were hardly 
managed at all. It seemed to me that we were practicing a form of 
`faith-based' fisheries management, crossing our fingers and hoping we 
caught the `right' amount of fish.
    Some who weren't there with me might look back on such a system 
through rose-tinted glasses, viewing the absence of regulatory controls 
as `liberating'. But you cannot condemn the system of today unless you 
have lived the system of the past: for those of us who struggled 
through it, the reality was anything but liberating. Red snapper was 
chronically overfished, severely curtailing our fishing opportunities. 
I remember back in the 1970s when if we caught 400 pounds in five days 
we counted ourselves lucky. Mr. Chairman, more fishing may have equated 
to more jobs for some of my predecessors--those who over-exploited 
God's creation and left the fishery in crisis. But for me and my 
contemporaries it meant that we struggled to make ends meet. For many, 
fishing was no more than a low-paying part-time job. And the impacts of 
fishing on the local economies throughout the Gulf were drastically 
worse than they are today.
    The depleted number of fish in the sea was not the only problem we 
faced. Back then, it wasn't just a question of how many fish there were 
to catch, but also how we went about catching them. In a clumsy attempt 
to control fishing effort, managers instigated `derby' fisheries, which 
allowed fishing activity to occur only on a small number of days 
selected through an arbitrary process--for much of the time the first 
10 days of the month. I sure didn't see much evidence of that system 
creating jobs, but it did create a lot of mayhem. The limited number of 
permissible `Days At Sea' meant being on the water whenever the fishery 
was `open'. That meant going out in dangerous weather conditions, often 
putting yourself, your crew, and your boat in jeopardy. And it meant 
missing weddings, funerals and birthdays because you couldn't afford to 
miss a fishing day--no matter what.
    The derby system wasn't just dangerous and depressing for 
fishermen, it was also disastrous for our bottom line. Unnecessary wear 
and tear on our vessel, and higher fuel and maintenance bills resulting 
from the race for fish, cut into what money we could make at the dock.
    Even more absurd, though, was the impact the derby fishery had on 
the prices we could command. With all the catch arriving on shore in a 
glut when the fishery was `open', there was little fishermen could do 
to secure a fair price for their catch. Equally intractable was the 
fact that the derby system didn't generate a regular source of supply. 
Buyers found in imports the certainty and consistency that our 
fisheries lacked. In a manner of speaking, the derby system was 
shipping jobs that should have stayed right here in the Gulf region to 
countries that exported seafood to the United States. It was absurd.
    A growing number of us viewed the status quo as a low-paying, high-
risk gamble. As we were fond of saying in Pensacola, if we kept 
swimming in circles like a one-legged duck we were destined to be eaten 
by a Vietnamese catfish. Something had to change.
Fishermen-led, job-creating reforms
    No single tool was wholly responsible for our success in charting a 
different course. But I'd like to tell the Committee about two reforms 
that were critical in rebuilding our fisheries: reforms that are 
turning our fisheries around, and should bring sustained economic 
benefits to our region for years to come.
    First, wholesale changes to the Magnuson-Stevens Act included 
mandates that science-based Annual Catch Limits be imposed in all 
fisheries, and that overfished stocks be rebuilt. It has taken years of 
additional hard work at the council level to implement these 
legislative mandates, and in some cases the effort controls they 
required imposed additional limitations on my fellow fishermen and me. 
But the fact is that we're seeing results--here in the Gulf and around 
the country. The number of overfished stocks in federal waters has 
steadily ticked down, while the number of depleted fish populations 
that have been rebuilt has gradually ticked up. Mr. Chairman, you have 
no doubt seen the same estimates from NOAA as I have regarding the 
additional economic activity and employment opportunities rebuilt fish 
stocks could generate. Thankfully I'm a fisherman, not an economist. 
But my belief, based on the decades I've spent working and helping to 
manage the Gulf's fisheries, is that the economic dividends healthy 
fisheries could provide are immense.
    Second, we commercial reef fish fishermen won the opportunity to 
choose for ourselves how to manage our fishery. And we chose--through 
two overwhelming majority votes--to move away from a derby fishery and 
instead to embrace a catch share program.
    Mr. Chairman, I know that on Capitol Hill catch shares have been 
controversial among some of your colleagues; and that Mr. Southerland 
has led a thus-far-unsuccessful effort to prevent fishermen here and 
around the country from deciding for themselves whether they want to 
transition to a catch share system. I certainly would not presume to 
suggest that catch share management would be the right choice in every 
fishery. But I'm very surprised that Mr. Southerland would presume to 
suggest that it would never be--and that he would enshrine his 
misguided conviction on that point in legislation.
    The truth is that catch share management has worked well for Gulf 
fisheries. Although the Florida net ban caused me significant economic 
hardship at the time it was passed, it had the benefit of forcing 
commercial fishermen to examine ways to more effectively regulate 
themselves. The Lobster fishermen had already entered into a tag 
program in 1992. And after the net ban, they were followed by the Stone 
Crab fishery in 2002. The Red Snapper fishery ITQ went into effect in 
2007. Today, fishermen are able to catch their limits under safer 
conditions and we get paid far better for it. A slower harvest results 
in little or no glut in supply, which has allowed ex-vessel prices to 
climb from as low as $1.50 per pound under the derby fishery to $4.75 
per pound today. Higher prices and a year-round commercial season have 
flow-on effects for the regional economy. For example, local fish 
houses are staying busy year-round, resulting in more full-time 
employment.
We can do even better
    Of course, there are more challenges looming.
        <bullet>  The BP Deepwater Horizon disaster of 2010 was a 
        catastrophe for us and its impacts continue to be felt in our 
        fishery. I remain very fearful about the long-term consequences 
        that disaster will have on the Gulf of Mexico ecosystem and our 
        fisheries' long-term health.
        <bullet>  Red Snapper is still rebuilding, and the timeline to 
        restore the fishery to full health is long. We are fishing 
        under a plan with a target rebuild date of 2032--the longest 
        anywhere in the country--but some are already seeking to push 
        that date back even further.
        <bullet>  We are the victims of endemic seafood fraud, and more 
        must be done to combat instances of our catch being undermined 
        in restaurants and on supermarket shelves by cheap and inferior 
        product. The Gulf Coast Professional Fishermen support 
        introduction of a binding traceability system for seafood 
        bought and sold in the United States, and urge committee 
        members to examine both legislative proposals and regulatory 
        hooks that could help address this troubling phenomenon, which 
        costs jobs in our fishery every single day.
        <bullet>  Ongoing investments in the `information 
        infrastructure' upon which science-based fishery management 
        depends are essential. I encourage committee members to do what 
        they can to provide adequate appropriations for fisheries 
        science; and to consider supporting pending legislative 
        proposals that would dedicate Saltonstall-Kennedy funds to 
        those purposes.
    Mr. Chairman, difficult changes in fisheries management over the 
last two decades have only been possible because of the presence of 
strong and visionary leaders in the United States Congress. Senators 
Ted Stevens of Alaska and Trent Lott of Mississippi were among the most 
impressive principals I worked with on the 2006 MSA reauthorization, 
and their absence from Capitol Hill is sorely felt. My sincere hope is 
that the enthusiasm some members of this committee have shown for 
engaging on questions of fisheries management may evolve into a 
sustained commitment to forging policies in Congress that promote 
healthy fisheries, support stable jobs, and secure prosperous coastal 
communities. Those giants of the Senate have left big shoes to fill, 
but their leadership, courage and foresight are qualities we need in 
our elected representatives if we are to conserve our fisheries--for 
the jobs we need today, and the jobs of our sons and daughters 
tomorrow.
                                 ______
                                 
    The Chairman. I would like to recognize Captain William 
Kelly, Executive Director of the Florida Keys Commercial 
Fishermen's Association.

  STATEMENT OF CAPTAIN WILLIAM E. KELLY, EXECUTIVE DIRECTOR, 
        FLORIDA KEYS COMMERCIAL FISHERMEN'S ASSOCIATION

    Mr. Kelly. Thank you, Chairman Hastings, Ranking Member 
Markey, Mr. Southerland and distinguished members of the 
Committee.
    The Chairman. A little closer.
    Mr. Kelly. Fisheries management based on science is the 
stated policy of NOAA; however, of the 528 fish stocks 
currently managed by the agency, only 114 are considered 
adequately assessed. Approximately 80 of those occur on 
economically important stocks in Alaska and New England where 
in some cases they occur on an annual basis. Assessments in the 
Gulf and the Southeastern United States occur far less 
frequently or not at all, resulting in data poor science on 
commercially important species in those area, such as red 
snapper and golden crab. So while science-based fisheries 
management is the stated goal, NOAA's inability to provide it 
at an acceptable level negatively impacts all of us.
    Further frustrating fishermen is the absence of hard 
scientific data due to a failure to acquire what is readily 
available. Funds dedicated to scientific research are routinely 
diverted to promote catch share programs addressing perceived 
over-fishing when up-to-date science would in many cases negate 
their need.
    Catch shares and sector separation are causing enormous 
economic harm in New England fisheries and trouble is brewing 
in the Gulf of Mexico. These programs have two common elements 
associated with them worldwide--fleet reduction and job loss. 
They are an inappropriate management tool in multi-species 
fisheries, which predominant in both the Gulf and the South 
Atlantic and often result in high volumes of regulatory 
discards.
    Transactional analysis of catch shares in the Gulf red 
snapper fishery, while still under study, indicates there is a 
shift in ownership of catch shares. More and more allocation is 
being accumulated, held onto and leased by non-fishermen. Known 
as ``Slipper Skippers'' in the Gulf, these non-fishing entities 
have found it far more profitable to lease their shares rather 
than fish them.
    A proper evaluation of these programs should be a top 
priority before taking action to implement any new programs and 
we fully support legislation introduced by Congressmen 
Southerland and Grimm and passed by the House, calling for a 
prohibition on CJS funding for any new NOAA catch shares 
programs in Fiscal Year 2013.
    Changes in the Magnuson-Stevens Act significantly altered 
the way fisheries resources are managed. The new provisions 
focused on ending over-fishing, rebuilding stocks, reducing 
fishing capacity and developing limited access programs. All of 
this was predicated on the need for and expectation of better 
science. However, in this tight budgetary environment, 
fisheries managers now find themselves struggling to meet the 
demands of MSA. The fact that this Committee has recently 
considered as many as eight new bills targeting MSA reform 
sends a strong signal that serious problems exist with the 2006 
reauthorization.
    We support H.R. 6350 introduced by Congressman Runyan with 
specific provisions for amending MSA, including greater 
flexibility for fisheries managers in setting Annual Catch 
Limits, transparency for fishermen, a referendum requirement 
for catch shares, extension of time periods for rebuilding 
fisheries and additional sources for fishery surveys funding.
    In particular, we ask the Committee for a statutory 
exemption for trans-boundary stocks and stocks whose life 
history characteristics prevent us from being able to apply 
control rules in an appropriate manner, especially with regard 
to spiny lobster. Recruitment of juvenile lobster to the 
Florida fishery occurs from sources totally outside of U.S. 
waters. Thus, Florida fishermen are being held solely 
accountable for conservative MSA derived catch levels for 
trans-boundary or shared resource over which we have no 
management control. Species such as Florida spiny lobster 
should be exempt from the ACL provisions of the MSA.
    The creation of a National Ocean Policy is an area of 
concern for Florida fishing interests, especially in light of 
its development by Executive Order, bypassing thorough review 
and a vetting process by Congress. A basic component of the 
plan will be nine regional planning bodies comprised of 
Federal, State, and tribal representatives. Conspicuously 
absent are any representational components from industry.
    Florida will face double jeopardy dealing with two regional 
planning bodies and little opportunity to engage in the 
decision-making.
    We ask the Committee and Congress to take any steps 
necessary to protect Florida fishing interests and coastal 
communities during the implementation of the NOP.
    The Florida Keys are ranked by NOAA as the largest and most 
valuable commercial seaport in the State of Florida and in the 
Southeastern United States. We represent enormous economic 
value to the State and the Nation. Next to tourism, we are the 
second largest economic engine in our local economy and second 
largest employer. Small coastal communities like ours cannot 
assimilate job loss rapidly and will suffer irreparable 
economic harm if we do not make every effort to maintain a 
healthy and vibrant commercial fishing industry.
    Chairman Hastings, Ranking Member Markey, Committee 
members, Mr. Southerland, thank you for this opportunity to 
address you today.
    [The prepared statement of Captain Kelly follows:]

       Statement of Capt. William E. Kelly, Executive Director, 
            Florida Keys Commercial Fishermen's Association

    Chairman Hastings, Ranking Member Markey and distinguished members 
of the Committee, it is my distinct pleasure and honor to speak to you 
today regarding the importance of maintaining healthy fisheries in our 
nation and by so doing, creating jobs and strengthening our economy. My 
name is Bill Kelly and I am the Executive Director of the Florida Keys 
Commercial Fishermen's Association (FKCFA) headquartered in Marathon, 
Florida. FKCFA is the largest commercial fishing association in the 
Florida Keys and represents hundreds of men and women actively engaged 
in the spiny lobster, stone crab and finfish industries. In addition to 
my present role with FKCFA, I have 35 years of charter/for hire and 
recreational fishing experience in the waters of the Atlantic Ocean, 
Gulf of Mexico and the Bahamas.
    I have been involved in fisheries management for over thirty years 
representing commercial and charter/for-hire fishermen and serve on 
numerous advisory panels to both the South Atlantic and Gulf of Mexico 
Fisheries Management Councils and the Florida Keys National Marine 
Sanctuary including: Spiny Lobster, Stone Crab, Kingfish and Mackerel 
and Ecosystem Based Management. I have also participated and assisted 
in coordinating a number of cooperative research programs over the 
years with the National Marine Fisheries Service, Florida Fish and 
Wildlife Research Institute and The Billfish Foundation.
    Chairman Hastings, for the record, my comments here today are 
solely my own as an advocate for the commercial seafood/fishing 
industry. My testimony reflects issues critical to fishermen on both 
coasts of Florida and the Florida Keys.
(1)  Is outdated scientific information available to fishery managers 
        limiting harvest levels and harming the economies of coastal 
        communities?
    Of the 528 fish stocks currently managed by NOAA, approximately 114 
are considered adequately assessed by the agency. Approximately 80 of 
those 114 assessments occur on economically important stocks in Alaska 
and New England where in some cases assessments occur on an annual 
basis. Assessments in the Gulf of Mexico and the Southeastern United 
States occur far less frequently resulting in data poor science on 
commercially important species such as red snapper and golden crab.
    Requirements to end over-fishing coupled with inadequate data and a 
rush to set annual catch limits to ensure this measure have conceivably 
brought about significant reductions in harvest capability. So while 
science based fisheries management is the goal, our inability to 
provide it at an acceptable level negatively impacts all of us. And the 
old adage of utilizing the best available science is totally 
inappropriate when that science is 10-15 years old or more. It is also 
particularly troublesome when dollars dedicated to science are instead 
diverted to catch shares and other programs addressing perceived over-
fishing when up-to-date science would in many cases negate the 
necessity for such actions.
    It appears to our industry members that NMFS, at times, is quite 
comfortable using data that are flawed, out-of-date and not based on 
actual measurements of fish stocks. This is disconcerting knowing the 
stringent reporting requirements and harvesting rules placed on 
commercial fishermen while efforts to improve reporting of recreational 
landings such as MRFSS and the newly implemented MRIP program move at a 
much slower pace. Accountability in the recreational sector should be 
just as important. For example, in the Gulf of Mexico the recreational 
allocation is as follows: Redfish--100%, Greater Amberjack--73%, King 
Mackerel--70%, Gag Grouper--65%, Red Snapper--49%. Quota over-runs by 
the recreational sector can be egregious as was the case in 2010 when 
the red snapper quota was exceeded by more than one million pounds.
(2)  Are governmental restrictions on harvest of fishery resources 
        unnecessarily harming the coastal economies?
    Government restrictions based on inadequate or out-dated data have 
significant and profound impacts on coastal economies. The Florida Keys 
are a prime example. The commercial fishing industry in the island 
chain is the second largest economic engine next to tourism and the 
second largest employer. This is typical of many small coastal 
communities throughout America where commercial fishing operations co-
exist with seasonal tourism activities. According to recent NOAA 
rankings the Florida Keys are collectively the largest and most 
valuable commercial seaport in the State of Florida and in the 
Southeastern United States. We represent enormous economic value on a 
local, state and federal level.
    Inadequate data and the lack of more localized management measures 
by the Regional Councils can and does harm coastal communities. We have 
asked both the South Atlantic and Gulf of Mexico Councils to consider a 
joint regional management plan for South Florida and the Keys, which 
they are presently evaluating. South Florida and the Keys represent a 
unique demographic with the only living reef in North America literally 
at our doorstep. In addition many of the species we fish for are sub-
tropical in nature as compared to temperate water species further to 
the north.
    The 240' closure in the South Atlantic extending out 200 miles to 
the EEZ to bottom fishing in order to protect Speckled Hind and Warsaw 
grouper was a good example. Fishermen were denied access to harvest of 
other bottom species for more than a year until a regulatory amendment 
was issued lifting the ban. This closure was enacted despite the fact 
there are no stock assessments on Speckled Hind or Warsaw Grouper to 
substantiate that either is undergoing overfishing or overfished. Now, 
there seems to be some preliminary evidence that recruitment of both 
Speckled Hind and Warsaw grouper located in the South Atlantic actually 
comes from the Gulf of Mexico where harvest of both species is 
ironically permitted. Yet, fishermen in the South Atlantic have been 
made to pay the price of inadequate science.
(3)  To what extent will governmental programs including catch shares, 
        annual catch limits and the National Oceans Policy affect how 
        fisheries are harvested in the future?
    Catch shares programs are harming commercial fishermen and coastal 
community infrastructure in New England and the Gulf of Mexico and 
ENGO's, that have little or no history of fisheries management, 
continue to press for implementation in the South Atlantic even though 
the vast majority of fishermen in both the Gulf of Mexico and along the 
Atlantic coastline continue to voice strong opposition to the expansion 
of these programs.
    Catch share programs are not conservation tools. They are business 
plans and a type of social engineering most commonly associated with 
cap and trade. They do nothing to protect the resource and have two 
common elements associated with their development worldwide--fleet 
reduction and job loss. In the words of one NOAA pitch-person 
advocating for catch shares programs to the South Atlantic Council, 
``There are winners and losers with catch shares.'' Now that might play 
well in big cities like Washington, DC but that doesn't float in small 
coastal communities like Key Largo or Marathon where even small numbers 
of ``losers'' would have a significant impact on the local economies.
    The majority of commercial fishermen in both the South Atlantic and 
the Gulf of Mexico are engaged in multi-species fisheries with each 
contributing in part to a wholesome, well-rounded business model based 
on seasonal availability of particular species. Many of the existing 
catch shares programs eliminate this component from smaller fishing 
entities by initiating control dates and landings requirements that 
preclude their participation. In order to fill these voids, many would 
be forced to lease or buy shares to continue their generational 
participation in the fishery.
    As yet incomplete research on transactional analyses of catch 
shares programs in the Gulf of Mexico indicates there is a shift in 
ownership of catch shares and more and more allocation is being 
accumulated, held onto and leased by non-fishermen. Known as ``Slipper 
Skippers'' in the Gulf, these non-fishing entities have found it far 
more profitable to lease their shares rather than fish them.
    Additional trends show that costs associated with leasing shares 
are actually serving to depress the average price paid to fishermen 
rather than increase it as was expected. These costs, of course, are 
ultimately passed on to the consumer in the form of higher prices at 
the check-out counter and creating the potential for decreased demand 
for local seafood products.
    Some supporters of catch shares programs are actually creating 
derby fisheries by rushing to catch fish and establish quota in 
anticipation of catch shares programs eventually being implemented. 
This creates the potential for spill-over into healthy fisheries like 
golden crab and king mackerel.
    The Gulf Council has yet to complete an analysis of the efficacy of 
the red snapper catch share program under its jurisdiction and there 
was no discussion of the progress on this item at the Council meeting 
held this past week in New Orleans. An evaluation of these programs is 
of paramount importance and we salute Congressman Southerland and 
Congressman Grimm for their sponsorship of the Southerland-Grimm 
Amendment appropriately calling for a prohibition of CJS funding for 
any new NOAA catch shares programs in FY2013.
    Annual Catch Limits, implemented to eliminate or prevent 
overfishing, serve a legitimate purpose provided they are based on 
modern, up-to-date science and Southeast Data Assessment Review (SEDAR) 
stock assessments. Unfortunately, many ACL's have been implemented 
arbitrarily, in haste and based on inadequate or outdated science in 
order to comply with provisions in Magnuson.
(4)  Is current data generated by NOAA adequate for fishery managers to 
        comply with the current Magnuson-Stevens Fishery Conservation 
        and Management Act and would proposed amendments to the act 
        improve the situation?
    Changes to the MSA in 2006 significantly altered the way fisheries 
resources are managed. The new provisions focused on ending 
overfishing, rebuilding stocks, reducing fishing capacity and 
developing limited access programs. All of this was predicated on the 
need for and expectation of better science to substantiate these 
changes. Requirements to immediately end overfishing added another 
burdensome layer of management responsibility and caused increased 
premiums for resources and increased dependence on short-term 
monitoring of these programs. In this tight budgetary environment, 
federal fisheries managers now find themselves struggling to meet the 
demands of MSA. The fact that this Committee has recently considered as 
many as eight bills targeting MSA reform sends a strong signal that 
that serious problems exist with the 2006 re-authorization.
    With regard to changes in Magnuson, we would ask the Committee for 
a statutory exemption for trans-boundary stocks and stocks whose life 
history characteristics prevent us from being able to apply control 
rules in an appropriate manner especially with regard to spiny lobster 
(Panulirus argus). Recruitment of juvenile lobster to the Florida 
fishery occurs from sources totally outside of US waters. Thus, Florida 
fishermen are being held solely accountable for conservative MSA 
derived catch levels for a trans-boundary or shared resource over which 
we have no management control. Species such as Florida spiny lobster 
should be exempt from the ACL provisions of the MSA.
    Genetic evidence indicates a near 100% level of external 
recruitment in the Florida spiny lobster fishery from the Caribbean 
Basin. Noteworthy is total harvest levels of spiny lobster in Florida 
represent only 6% of the trans-boundary population.
    An exemption from the ACL's for spiny lobster does not mean we 
support the absence of a quota. Rather, we would prefer a long term 
average yield approach compared to the overly precautionary ACL process 
that resulted from the implementation of the 2006 re-authorization.
(5)  Is the precautionary/risk averse approach in combination with 
        decreasing funding for fishery surveys and cooperative research 
        and the 2007 amendments to the Act resulting in unnecessarily 
        depressed harvest levels affecting coastal economies and 
        fishery related jobs.
    A principle tenet of precautionary risk aversion is to act 
prudently when there is sufficient scientific evidence and where action 
can be justified to prevent irreversible harm to future generations. 
Engaging a precautionary/risk averse approach in the absence of hard 
scientific evidence, due to a failure of effort to acquire that which 
is attainable, represents a failure of the responsibilities of the 
management body charged with that mission.
    If indeed we are committed to fisheries management based on science 
as our stated policy, then every effort should be made to acquire 
appropriate science on all managed stocks to the highest levels 
attainable, at regular, prescribed intervals, to guide, substantiate 
and provide rationale for our decision making.
    We are far removed from the initial concept of MSA, in which we 
fished to Maximum Sustainable Yield. NMFS guidelines have instituted a 
multi-tiered system of further reducing harvest levels beginning with 
an Over Fishing Limit (OFL), Acceptable Biological Catch (ABC), Annual 
Catch Target (ACT) and Annual Catch Limit (ACL). These steps may be 
further reduced by accountability measures, scientific uncertainty and 
a precautionary/risk averse approach.
(6)  How will the National Ocean Policy affect your activities and will 
        the policy result in further restrictions and create more 
        uncertainty in the management of fishery resources in the Gulf 
        of Mexico.
    Implementation of a National Ocean Policy is an area of concern for 
Florida fishing constituencies especially in light of its development 
by Executive Order . . . by-passing a thorough review and vetting 
process by Congress. A basic component of the plan will be the 
establishment of 9 regional planning bodies comprised of Federal, State 
and Tribal representatives with broad authority over not only oceans 
but extending well into the heartland of our nation via rivers, lakes 
and streams. Conspicuously absent are any representational components 
from industry.
    Florida and our industry will face double jeopardy since we will 
have to deal with two regional planning bodies complicated by little 
input opportunity in future decision making in a cloud of uncertainty.
    We ask the Committee and Congress to take any steps necessary to 
protect Florida fishing interests and coastal communities during the 
implementation of the National Ocean Policy and Coastal marine Spatial 
Planning.
In Closing:
    In closing, I would like to thank Congressman Runyan for 
introducing H.R. 6350 with specific provisions for amending MSA and 
providing for additional flexibility for fisheries managers in setting 
Annual Catch Limits, transparency for fishermen, a referendum 
requirement for catch shares, extension of time periods for rebuilding 
certain overfished fisheries, and additional sources for fishery survey 
funding.
    I would also like to thank you Chairman Hastings and your staff for 
your leadership and efforts to set the table for a substantive debate 
on these issues and for recognizing the differences on some of these 
issues from the Pacific Northwest.
    Chairman Hastings, Ranking Member Markey and Committee Members, 
this concludes the written portion of my testimony. I thank you for the 
opportunity to present this information to the Committee.
                                 ______
                                 
    The Chairman. Thank you very much, Captain Kelly, for your 
testimony.
    We will now have a round of questioning, maybe one or two 
rounds, with this panel before we call the second panel. And I 
will recognize myself now for 5 minutes for questioning.
    Mr. Wright, you note that the Interjurisdictional Fisheries 
Act grants have been used by the State of Florida to fund 
research on important near-shore species. Yet, your State has 
not done these surveys. Will we soon be facing a crisis for 
these species because we do not have adequate data to manage 
these species? And if you do not conduct these surveys, who 
will?
    Mr. Wright. Where is Gill? Gill or Jessica.
    Chairman----
    The Chairman. Why do you not give me your verbal response 
and then if you want to submit a written response----
    Mr. Wright. I can certainly provide you a written response, 
Mr. Chairman. But we are providing the lion's share of research 
now through our research institute, which is one of the finest 
in the world. I think the problem that we have is the 
interjurisdictional issues between Federal water and State 
waters. Regardless of what our data may indicate in terms of 
near-shore limits and stock assessments, we are constantly at 
regulatory odds with our Federal partners trying to meet 
mandates of Magnuson-Stevens in a short duration of recovery. 
So that we are constantly pitting fishermen against Federal 
regulations and State regulations.
    The Chairman. Let me follow up on that. You mentioned in 
your testimony something that I have to say I am not all that 
familiar with, is that NOAA has referred to some fisheries as 
boutique fisheries. Give me your assessment of that term and 
when does it stop being boutique?
    Mr. Wright. I would not necessarily agree with the 
connotation of boutique fishery when you consider the economic 
impact of not only commercial fishing but recreational fishing 
in our State, and the numbers that I gave you earlier will not 
even count the multiplier. It is billions and tens of billions 
of dollars.
    No, we are not in a position to ship fish around the world 
and around the country as some of the other fisheries in the 
United States are. And I think that name has been given to 
Florida because there is I think a misconception that fish are 
caught in the Gulf, they are brought to the shoreline and they 
are distributed among a local market.
    Regardless of the market destination, the impact of not 
having the attention to our fishery and having it be perceived 
as a boutique fishery is the very problem that we have.
    The Chairman. Let me just ask real quick, does boutique, to 
your knowledge, apply to the other councils or just here?
    Mr. Wright. I think just here.
    The Chairman. OK. Mr. Waters, you mentioned in your 
testimony going back. I do not think anybody is talking about 
going back. But I mentioned in my opening statement that I 
understand the uniqueness of commercial and recreational 
fishing. I come from the Northwest. But let me just posit 
something for you to consider and ask how this would affect 
you.
    Recently, the newly implemented West Coast ground fish IFQ 
program required an observer on 100 percent of the trips for 
commercial fishing. That works out to about $600 a day. How 
would that affect commercial fishermen if that were applied to 
you, $600 a day, 100 percent observer.
    Mr. Waters. It would depend on who is paying the bill.
    The Chairman. Well obviously the commercial fishermen. I am 
asking because this is happening in other areas.
    Mr. Waters. Yes, sir.
    The Chairman. I am asking you how would it affect you?
    Mr. Waters. You are asking me a question about which I am 
not fully aware, but I do understand observers, I do 
understand, but at that time I would support some type of 
monitoring system that would be a lot cheaper, such as cameras 
or some other type of video monitoring that would not cost us 
$600 a day. But it would affect anybody for $600 a day, I will 
have to agree with that. But you give a fisherman a problem, 
you let him ride around on a boat that only runs 6 miles an 
hour, he will come up with some very innovative ideas to get 
around that $600 a day. We would support cameras or something 
like that, but at this time I am not advocating cameras, but I 
do advocate----
    The Chairman. Mr. Waters, I just point this out to say that 
because there are differences, we are trying to figure out a 
way to bridge that.
    Mr. Waters. Right.
    The Chairman. And my guess is, you know, the North Pacific 
fishery is different and that is a mandate, 100 percent, and it 
averages $600 a day.
    My time has expired, so----
    Mr. Waters. Can I ask a question, Mr. Hastings? What kind 
of gross income are these folks producing? Are they small 
vessels? I am running a 39-foot vessel. Are you talking $600 a 
day for somebody to monitor a 39-foot vessel?
    The Chairman. It is anybody that has a commercial vessel, 
my understanding, has to have an observer and that is costing 
$600 a day.
    Congressman Southerland is recognized.
    Mr. Southerland. Let me say, Doc Hastings, Chairman 
Hastings, I know that if our commercial fishermen right now had 
to pay $600 a day for a Federal bureaucrat to go out to sea 
with them, they could not afford that, from everything that I 
am hearing from our commercial fishermen. What they are doing 
in the Pacific, the government does not provide that for free, 
that is a charge to the boat. And I know that the commercial 
fishermen that I meet with could not afford that, but the 
government does not care.
    Let me say this--let me ask Captain Kelly, implementation 
of the red snapper IFQ plan has resulted in a consolidation of 
the commercial fleet. Did all the fishermen who left the 
fishery do so because they wanted to leave, or did they leave 
because the amount of quota they received in the initial 
allocation was not enough to keep them in business?
    Mr. Kelly. This is a program that fishermen weighed in on 
and did vote for. The issue that I tried to raise and wanted to 
point out is that there are associated problems connected with 
the development of these catch share programs. One of them in 
particular is this consolidation where we are seeing more 
individuals now leasing the shares rather than fishing them, 
that is the trend. We are also seeing in this transactional 
analysis, we are seeing that because of the cost of leasing the 
shares, it is now starting to affect fishermen where it is 
actually decreasing the amount of revenues going to fishermen 
instead of increasing it. And that is exactly the opposite of 
what was expected.
    We have costs associated with this, as Mr. Hastings pointed 
out, where there is the potential for observers on board and 
the fees that are paid to the Federal Government to administer 
the program. A lot of that is presently being absorbed by the 
Federal Government in some catch shares programs, some of it is 
being subsidized by environmental groups. But if these burdens 
were all placed on the fishermen, then it would paint an 
entirely different scenario of how effective these programs 
are.
    Mr. Southerland. When the permits were issued, there were 
704, from what I understand, 704 permit holders. There are now 
425. If you were someone that did not get enough allocation, if 
you were someone who was not fortunate enough to receive those, 
what happened to the value of your vessel when you did not 
receive your quota?
    Mr. Kelly. Well, Mr. Southerland, there are a couple of 
ways to look at this. You can look at the value of the vessel, 
which it may affect the climate, but more importantly, as I 
mentioned in my comments, we have to take a look at what 
constitutes a fishery here in the Gulf of Mexico and the South 
Atlantic. Many of these are multi-species fisheries in small 
communities where an individual like maybe a Donnie Waters or 
someone else is fishing yellowtail snapper, they are fishing 
grouper, they are fishing greater amberjack. They catch stone 
crab, they catch spiny lobster. If you start chiseling away and 
taking out these elements because you have set control days or 
landing requirements and take away my yellowtail snapper now, 
that is $15,000, $20,000 out of my pocket. You take away 
greater amberjack for the same reasons, now I lose another 
element of my fishery, only because I have been excluded 
because I did not catch enough and did not get enough 
allocation.
    So now all of a sudden my little business that had a well-
rounded business model, suddenly I am in trouble because I am 
getting nickeled and dimed out of the business.
    Mr. Southerland. So you are forced out of the business 
rather than choosing to exit the business.
    Mr. Kelly. I am either forced out of the business or I am 
forced to go and lease shares. And if I have to do that, with 
the associated cost, especially if costs like observers and the 
transactional fees were involved in this, now what is going to 
happen? Those costs are going to get passed on to the 
supermarket, folks at the checkout counter are going to pay a 
higher price and it is going to decrease demand for fresh 
Florida seafood.
    Mr. Southerland. Let me mention, one of the things that I 
have been told from several sources, is we talk about the vote, 
you know, for the IFQs, we talk about the vote, the vote, the 
vote. It was my understanding that there were 167 ballots 
distributed before that vote and it excluded some 600 holders. 
So, you know, I am worried--and I was not a part of that. I am 
worried by what I hear that many people who are small 
operators, operators who did not have a lot of say, they did 
not have a lot of influence. I am bothered by that, smaller 
boats, why should they not have had the right to vote for their 
future and to be excluded. That is a huge concern of mine.
    And I see I have the red light.
    The Chairman. I just have one question and I will yield to 
you.
    Mr. Southerland. OK.
    The Chairman. I just have one more question here on the 
second round and this is to Captain Kelly and Commissioner 
Wright. I mentioned in my opening statement about the National 
Ocean Policy by Executive Order. Have you looked into that, do 
you have a response to that National Ocean Policy by this 
Administration?
    Mr. Kelly. Yes, we are very concerned about the National 
Ocean Policy. Under the primary plan here, this does not just 
affect coastal communities or our oceans, but by the design of 
the program, this will migrate its way into the very heartland 
of our country, into our rivers, streams, the Great Lakes, et 
cetera.
    Of serious concern I think for industry is there is no 
effort or plan to incorporate industry representatives into 
this, whether it is commercial fishing, for-hire charter boats, 
or the recreational component. We are going to have State, 
Federal and tribal representatives in essence, I suppose, 
formulating plans and dictating what we are going to do with 
one of our most important natural resources.
    The Chairman. Commissioner Wright, do you have a response 
the National Ocean Policy?
    Mr. Wright. My response, Mr. Chairman, is we need more data 
and science and information that I made a plea for earlier than 
we need another layer of regulatory infrastructure.
    The Chairman. I will just say I have been very critical of 
that. What we need is authorization from Congress, not this 
being done by Executive Order.
    Mr. Wright. Right.
    The Chairman. I will yield my time to Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman.
    One of the things I have found as I have talked with 
fishermen everywhere, no matter where you come down on certain 
regulations, everyone seems to agree that we do need better 
data. I do not think any fisherman I have ever talked to is 
happy with the amount of data, the kind of data that we have. 
Everyone says we need more. Let me be crystal clear on my 
desire to get you more data. The current Administration has 
instructed the Department of Commerce, thus NOAA--this past 
year, the Director of NOAA transferred $300 million out of 
research. Now we need research. You can imagine how upset I was 
that they transferred $300 million out of research and yet 
everyone agrees that we need better research. It was 
transferred to put a $700 million satellite in space. Then they 
come back and want more money for research.
    Now you cannot run your businesses like that. I cannot run 
my businesses like that. One of the things I am very proud of, 
that no one seems to talk about, is that in the RESTORE Act 
that was recently passed, in the RESTORE Act, bucket four of 
those dollars that are going to be BP fine money--BP fine 
money--next year, the fourth bucket of that money is 
specifically set aside and mandated that NOAA must use those 
dollars to gather more research, better data so that we can 
make good decisions--not harmful decisions, good decisions.
    So I am a huge advocate of better data. I am a huge 
advocate that we have to make decisions--because the government 
tends to make decisions like this--ready, shoot, aim. Well, 
that is backwards--that is backwards. We have to make good 
decisions with good data and I am proud of what the RESTORE Act 
is going to do because it is going to put dollars there that 
cannot be moved out of that research account and used to put 
satellites into space.
    I want to say this, last year I sponsored an amendment to 
the CJS bill that was passed on the Floor, the appropriations 
bill. I want to be crystal clear because you will not hear 
this. That bill said that NOAA could not use any funds in 2013 
for the development, the approval and the implementation of new 
catch share programs. It did not say existing. Mr. Chairman--
this whole region has existing catch share programs. The point 
is I have been crystal clear and apparently I'm not getting 
through, my amendment does not affect those of you who have 
IFQs. To tell the truth, it only dealt with new catch share 
programs, going forward, because what Mr. Latinko really wants 
is IFQs to spread to the recreational fishery and to the head 
boats and I know they do not want that. So my amendment and my 
efforts going forward, the bill we just brought, did not in any 
way affect what you have, commercial fishermen, it did not. It 
just guaranteed that the boats like Ms. Anderson rides, the 
head boats, as well as the recreational fishermen, that we were 
not going to feel the oppression of the government's boot on 
our neck because we do not like what it looks like when they 
start applying that pressure.
    I yield back.
    The Chairman. Well, my time has expired. You are starting 
to see the red lights and how that works. Now I recognize you 
for your 5 minutes of questioning and I will say that that 
amendment that you did pass did say that there is a sense in 
Congress, when we reauthorize Magnuson-Stevens, we have to take 
those sectors into consideration. There is absolutely nothing 
wrong with that.
    With that, I will recognize the gentleman again for 5 
minutes.
    Mr. Southerland. Mr. Waters, let me ask you a question. I 
know you are itching.
    Mr. Waters. I am dying.
    Mr. Southerland. I am going to scratch your itch. You are 
dying, we do not want that to happen.
    Mr. Waters. We all are, Captain, some of us just faster 
than others.
    Mr. Southerland. One of the things that I have been 
bothered with since I came to Congress and learned about the 
fisheries issues is the data, as we talked about. And proper 
assessments, and the lack thereof. Why would NOAA continually 
over and over and over again refuse to count the fish that are 
making their home on artificial reefs?
    Mr. Waters. Mr. Southerland, you are asking the right man.
    [Laughter.]
    Mr. Southerland. Scratch that itch.
    Mr. Waters. I sat on the stock assessment, red snapper 
stock assessment, I have sat on red snapper stock assessment 
panels. I was in Pensacola this week for 2 days watching the 
red snapper stock, then I had to rush for public testimony in 
New Orleans. The overlapping of these two meetings was 
devastating again to my life. then I went to LSU to do some 
research with Dr. Jim Calvin on red snapper, then back to FSC 
in Pensacola to do the follow-ups and look for data. This is a 
very, very open process. You know how many people were in the 
audience of this very open process? Zero, not one person.
    Mr. Southerland. Why would that be? Why would men and 
women----
    Mr. Waters. I cannot----
    Mr. Southerland. I am sure there are some commercial 
fishermen here today that are working.
    Mr. Waters. I am trying to say that there are more 
fishermen in this audience, all I have ever heard was how bad 
the data, how bad the data, how bad the data. The red snapper 
started in 1988 when we first did a stock assessment. We have 
set that rebuilding date back down to 2032, over 40 years to 
rebuild this fishery. Now the data we are----
    Mr. Southerland. But why----
    Mr. Waters. I will answer the question.
    Mr. Southerland. I am just asking a question.
    Mr. Waters. The lack of fishery people that can do stock 
assessments in the United States, the qualified people who can 
do it, is overloaded. We do not have the people that are 
qualified for fishery dynamics in the United States to do a 
stock assessment on every stock of fish in this ocean that we 
have today. That is something that maybe you should fund some 
college graduates for, send them through LSU, send them through 
and let us get some----
    Mr. Southerland. OK, why would NOAA refuse to count the 
fish that are there on the reef. They do not count those fish.
    Mr. Waters. They do count those fish with larvae and krill 
samples and they do it with ground fish. If they spawn, they 
survey for ground fish. If those fish produce a fish, they 
count the larvae that is floating. So if that fish populates, 
those larvae float freely into the ocean and they are accounted 
for in two different surveys in two different ways. Just 
because they were on the reef when they made it, you cannot 
tell if that larvae came from a natural reef or an oil platform 
reef. So they are accounted for. It is a spin that you have 
been told that they do not account for them. You cannot go 
around a reef and sit there and count each one of them, but 
they do have monitoring systems at LSU that have counters on 
the reef and they do track fish that come and go from those 
reefs and, yes, they do go there and eat lunch and then go 
someplace else for desert.
    [Laughter.]
    Mr. Waters. I will tell you if those fish produce a larvae, 
they are counted through by larvae surveys and ground fish 
surveys. So you have been given totally--not totally 
misinformation, but you have been led away from the solid 
truth.
    Mr. Southerland. Well, I have asked this in Congressional 
hearings--I will reclaim my time.
    Mr. Waters. But----
    Mr. Southerland. I will reclaim my time. In Congressional 
hearings, I have asked specifically that question with no 
satisfactory answer. Now they will not count those fish while 
they are on that reef or on that artificially created reef, but 
they certainly catch it when you bring that fish over the 
transom. OK, so the point is, it seems to me like, you know, we 
are picking and choosing what we want to recognize and we are 
picking and choosing what we want to ignore. I know that Ms. 
Anderson mentioned earlier that perhaps there is as much as 100 
million pounds of red snapper out there and you have Texas, for 
example, that has fishing year-round. It seem to be incredibly 
inconsistent and what I am worried about is that this 
inconsistency of acknowledging truth is crushing you, crushing 
you. Be consistent.
    I yield back.
    Mr. Waters. Can I say one thing, Mr. Southerland?
    The Chairman. I thank you very much for that exchange. I 
want to thank very much the first panel for your testimony. As 
sometimes happens, not all the time, there are questions that 
come up because of an answer that one of you may have and there 
may be a letter sent to you asking you to clarify, and we would 
certainly look forward to that.
    So with that, I want to thank all of you very, very much 
for being here on a Saturday, and I will dismiss the first 
panel. We will take a very brief 5-minute break while the 
second panel comes up.
    [Recess.]
    The Chairman. The Committee will reconvene and we are 
pleased to welcome our second panel here, or at least three-
fourths of the second panel.
    We have Ms. Candace Hansard, who is Vice President and Reef 
Development Director for the Emerald Coast Reef Association; 
Captain Tom Adams, Mexico Beach Charters; Captain Michael 
Jennings, who is President of the Charter Fishermen's 
Association; and Captain Robert Zales, National Association of 
Charterboat Operators. And here she comes right now, I think. 
You have a way of getting attention.
    Ms. Hansard. Hey everybody.
    [Laughter.]
    The Chairman. We are very pleased to welcome the second 
panel and you heard what I mentioned to the first panel as to 
how the lights work. Apparently the special seats we installed 
did not work, so that is why we took the 5-minute break. But if 
you could hold your oral testimony to the 5 minutes, I would 
appreciate it. Your full testimony, of course, will appear in 
the record.
    So, Ms. Hansard, you are recognized for 5 minutes.

     STATEMENT OF CANDACE HANSARD, VICE PRESIDENT AND REEF 
      DEPLOYMENT DIRECTOR, EMERALD COAST REEF ASSOCIATION

    Ms. Hansard. Hello, I am----
    The Chairman. Pull the microphone close to your face.
    Ms. Hansard. OK. I am the Vice President and Reef 
Deployment Director of the Emerald Coast Reef Association. Our 
mission is to improve the fishery in the Gulf of Mexico by 
providing habitat and evaluating the effectiveness of 
artificial reefs. Our mission is accomplished 100 percent with 
volunteer effort and private contributions. The majority of our 
members are private recreational fishermen and divers.
    Florida is known as the fishing capital of the world. The 
importance of free and open access to the fisheries to 
Floridians is tremendous. Fishing is not simply a hobby for 
many fishermen and women in Florida, it is an important part of 
our cultural identity. It is part of our unique heritage. 
Denying millions of Americans free and open access to the 
fishery is denying them their heritage.
    For years, our government agencies have attempted to 
maintain the health of the fishery by restricting access. Catch 
Shares, Sector Separation and Marine Protected Areas are all 
proposed plans to manage the problems of our fishery. While 
well intentioned, access limiting plans, manage but do not 
solve fishery problems. These plans hurt our economy and deny 
millions of people their right to access our Nation's natural 
resource.
    Recreational fishing, including the charter industry, 
support a wide range of jobs. In Florida alone, there are 
nearly 1 million registered boats. All these boats need 
insurance, maintenance, storage, fuel, et cetera. These 
services support a wide range of jobs. Even people who do not 
fish are economically affected when the fishing activities are 
reduced, because jobs are created by fishing activities. When 
fishing access is restricted, the side effect is fewer jobs.
    The economic importance of free and open access to the 
fishery in the State of Florida is enormous. In Florida, 
saltwater fishing alone is a $5.7 billion industry that 
supports over 150,000 jobs. In 2011, the boating industry in 
Florida was $32.3 billion. In 2003, the FWC stated that for 
every one dollar spent building artificial reefs, it created 
$131.00 in recreational value. In 2008, the Director of the FWC 
stated that, and I quote, ``Recreational saltwater fishing 
generates a staggering amount of consumer spending in this 
State's economy--roughly $14.3 million per day. That is close 
to $10,000 per minute.''
    Artificial reefs provide solutions to many of the problems 
facing our fishery and our economy. Imagine what the return on 
investment would be in 2012 dollars and all the jobs that could 
be created, if more money was spent building artificial reefs 
that sustain a healthy and sustainable fishery.
    In the Florida panhandle, 95 percent of our sea floor is 
sandy bottom, so artificial reef building is critical to 
building and maintaining a healthy and sustainable fishery. One 
of the biggest obstacles to reef building in the Florida 
panhandle is the one-size-fits-all permitting by the 
Jacksonville District of the U.S. Army Corps of Engineers. The 
Florida panhandle underwater topography is identical to 
Alabama, whose underwater permits are granted by the Mobile 
District of the Army Corps of Engineers. Generous permitting in 
Alabama has provided them the opportunity to create the largest 
artificial reef building program in the United States, even 
though they have less than 60 miles of coastline on the Gulf of 
Mexico.
    I stand before you today and respectfully request that our 
government agencies that are charged with managing our fishery 
please weigh the economic and cultural importance of free and 
open access to our natural resource when they are forming 
management plans. Please use our tax dollars to create real 
solutions (artificial reefs) that will build a healthy and 
sustainable fishery, and a thriving economy, and restore our 
birthright, access to our fishery.
    I would also like to bring up the fact that we need to stop 
destroying oil platforms that are in the Gulf of Mexico. They 
have become artificial reefs, and when we destroy all the 
platforms, we are killing millions of red snapper. It is taking 
those red snapper out of our catch limit and I think that is 
not very wise management.
    Thank you so much for listening and for your consideration, 
and I appreciate you having me here today.
    [The prepared statement of Ms. Hansard follows:]

    Statement of Candy Hansard, Vice President and Reef Deployment 
             Director, Emerald Coast Reef Association Inc.

    I am the Vice President and Reef Deployment Director for the 
Emerald Coast Reef Association. Our Mission is to improve the fishery 
in the Gulf of Mexico by providing habitat and evaluating the 
effectiveness of artificial reefs. Our mission is accomplished 100% 
with volunteer effort and private contributions. The majority of our 
members are private recreational fishermen and divers.
    Florida is known as the Fishing Capital of the World. The 
importance of free and open access to the fishery to Floridians is 
tremendous. Fishing is not simply a hobby for many fishermen and women 
in Florida; it is an important part of our cultural identity. It is 
part of our unique heritage. Denying millions of Americans free and 
open access to the fishery is denying them their heritage
    For years, our government agencies have attempted to maintain the 
health of the fishery by restricting access. Catch Shares, Sector 
Separation and Marine Protected Areas are all proposed plans to manage 
the problems of our fishery. While well intentioned, access limiting 
plans, manage but do not solve fishery problems. These plans hurt our 
economy and deny millions of people their right to access our Nations' 
Natural Resource.
    Recreational fishing, including the charter industry support a wide 
range of jobs. In Florida alone, there are nearly 1 million registered 
boats. All these boats need insurance, maintenance, storage, fuel etc. 
These services support a wide range of jobs. Even people who do not 
fish are economically affected when the fishing activities are reduced 
because; jobs are created by fishing activities. When fishing access is 
restricted, the side effect is . . . fewer jobs.
    The Economic importance of free and open access to the fishery, in 
the State of Florida, is enormous. In Florida, Saltwater fishing alone 
is a $5.7 Billion dollar industry that supports over 150 thousand jobs. 
In 2011, the Boating industry in Florida was $32.3 Billion dollars. In 
2003, the FWC stated that for every One dollar spent building 
artificial reefs; it created $131.00 in recreational value. In 2008, 
the Director of the FFWCC stated that ``Recreational Saltwater fishing 
generates a staggering amount of consumer spending in this state's 
economy--roughly $14.3 million per day . . .'' ``That's close to 
$10,000 per minute.''
    Artificial Reefs provide solutions to many of the problems facing 
our fishery and our economy. Imagine what the return on investment 
would be in 2012 dollars and, all the jobs that could be created, if 
more money was spent building artificial reefs that support a healthy 
and sustainable fishery!
    In the Florida Panhandle, 95% of our seafloor is sandy bottom so, 
artificial reef building is critical to building and maintaining a 
healthy a sustainable fishery. One of the biggest obstacles to reef 
building in the Florida Panhandle is the one-size-fits-all permitting 
by the Jacksonville District of the USACOE. The Florida Panhandles 
underwater topography is identical to Alabama, whose underwater permits 
are granted by the Mobile District of the USACOE. Generous permitting 
in Alabama has provided them the opportunity to create the largest 
Artificial Reef Building program in the United States, even though they 
have less than 60 miles of coastline on the Gulf of Mexico.
    I stand before you today and respectfully request that our 
Government Agencies that are charged with managing our fishery please 
weigh the economic and cultural importance of free and open access to 
our natural resource when they are forming management plans. Please use 
our tax dollars to create real solutions (Artificial Reefs) that will 
build a healthy and sustainable fishery, a thriving economy and restore 
our birthright . . . access to our fishery.
    Thank you so much for listening and for your consideration.
                                 ______
                                 
    The Chairman. Thank you very much for your testimony. I now 
recognize Captain Adams from Mexico Beach Charters, who is the 
Chair of the Recreational Fishing Alliance, Forgotten Coast 
Chapter. Captain Adams, you are recognized.

 STATEMENT OF CAPTAIN TOM ADAMS, MEXICO BEACH CHARTERS, CHAIR, 
     RECREATIONAL FISHING ALLIANCE, FORGOTTEN COAST CHAPTER

    Mr. Adams. Thank you, Chairman Hastings, Representative 
Southerland and members of the House Natural Resources 
Committee for the opportunity to speak before all of Congress 
today from at home within my own district on behalf of fishing 
and jobs.
    I am Captain Tom Adams, owner and operator of Mexico Beach 
Charters and Chairman of the Forgotten Coast Chapter of the 
Recreational Fishing Alliance, or RFA. I have been fishing both 
coasts of Florida since 1959, moved to Mexico Beach about a 
decade ago and have been operating a charter business here for 
the last several years.
    I am sure when a lot of people from Washington think of 
Florida fishing, they think of fancy gamefish like bonefish, 
sailfish or tarpon. Florida is a world class destination for 
these types of ``catch and release'' targets, but here in this 
region on the Gulf, red snapper is critical to the health and 
prosperity of our coastal fishing businesses and our economies 
in general. People love to book charters to catch a couple of 
red snapper, but the majority of these folks who spend their 
hard-earned money at the hotels and in gift shops, they like to 
eat a couple of the snapper as well.
    I do not know how it was 100 years ago, but I do know what 
it was like 30 or 40 years ago. I can also tell you that just 
in the past 6 years, I have seen more red snapper out there in 
the Gulf than any time in my memory. When I first started 
fishing for red snapper out of Mexico Beach, we fished for them 
deep, you always had to drop down to the bottom to hook up a 
fish or two. Now these fish are so plentiful they are so spread 
out throughout the water column, from surface to bottom, that 
you cannot get the bait down to catch a grouper.
    I am sure this is good news for the fish. A lot of folks 
who do not fish and who really do not care what happens to our 
local fishermen in Mexico Beach and Panama City will tell you 
this is good news for everyone. I can tell you that if you want 
fish populations to explode, all you have to do is stop people 
from fishing. What is harder is coming up with a way that we 
can sensibly fish on these populations as they continue to 
grow, and that is what the same non-fishing people do not want 
to talk about honestly with the American people.
    All the captains I talk to have seen a great number of red 
snapper, a growing population. As the population increased and 
during a time of an 8-month red snapper season in the Gulf, 
something happened which forced us to suddenly cut back to a 
40-day season. Everyone at this hearing knows what changed, it 
was Federal fisheries law, which was originally created to help 
American fishermen, but reauthorized by Congress in 2006 and it 
is now destroying our Gulf fishing communities.
    During the past two seasons alone, my business as a charter 
boat captain has been cut in half. Red snapper season was cut 
by 70 percent, triggerfish have been shut down, gag grouper 
days cut in half. Now I hear the same rumors about vermillion 
snapper as well. What has ended up happening to our community 
is that our tourist season for visiting anglers has also shrunk 
with the decreasing opportunities to fish, and that means lost 
jobs.
    Instead of having a longer, more sensible season, local 
captains now are pushing themselves to extremes, fishing every 
single day during the 40-day season, rain or shine. This is 
what they call derby fishing where you have to fish every 
possible chance during that 40-day window to make up for lost 
revenues from the other 325 days of the year, where our anglers 
could reasonably fish sustainably for red snapper.
    Of course, the same groups who pushed us into this corner 
by supporting the reauthorization of Magnuson back in 2006 with 
all the new rigid definitions and deadlines, are dangling 
another carrot in front of us today to help stop the derby. The 
new sector separation schemes and individual catch shares for 
the Gulf of Mexico is not the answer, it is an agenda. It will 
forever change the face of our local community in a way that is 
not good for all Florida fishermen.
    Instead, here is what we do need--we need some flexibility 
in our Federal fisheries law. There are no deadlines in nature. 
The last thing we need to do is mandate unnatural timelines for 
rebuilding fisheries.
    We need better science and data collection. These shortened 
seasons and sudden closures based on recreational data 
collection was called ``fatally flawed,'' by the National 
Research Council back in 2006 which is when Congress mandated 
that these recreational harvest surveys be replaced by 2009. 
Earlier this year, NOAA Fisheries said they had accomplished 
their mission. Well, if that is true, let us let the National 
Research Council decide through another comprehensive analysis 
of NOAA's work to ensure that it is truly the best available 
science. No scientific effort should be considered the best 
without peer review.
    We all need the Commerce Department's help in untangling 
the bureaucracy created by the new annual catch limits and 
accountability measures like catch shares and recreational 
harvest payment. It all sounds good, but if the best available 
science is still ``fatally flawed'' and research stock 
assessments do not use sound data, then what are we left with? 
Congress needs to step in on this one. If the government is not 
going to meet their commitment to fishermen, then Congress 
needs to help draw a line in Magnuson-Stevens to protect the 
fishermen.
    We are not an industry that is looking for handouts, we are 
only looking for a hand to protect our coastal heritage and 
traditions while fostering sustainable Gulf fisheries for 
generations to come.
    [The prepared statement of Captain Adams follows:]

    Statement of Capt. Tom Adams, Mexico Beach Charters, and Chair, 
       Recreational Fishing Alliance ``Forgotten Coast'' Chapter

Introduction:
    Thank you Chairman Hastings, Representative Southerland and members 
of the House Natural Resources Committee for the opportunity to speak 
before all of Congress today from at home within my own district on 
behalf of `fishing and jobs.'
    I'm Capt. Tom Adams, owner and operator of Mexico Beach Charters 
and chairman of the Forgotten Coast chapter of the Recreational Fishing 
Alliance \1\ (RFA). I've been fishing both coasts of Florida since 
1959, moved to Mexico Beach about a decade ago, and have been operating 
a charter business here for the last several years.
---------------------------------------------------------------------------
    \1\ RFA is a national 501(c)(4) non-profit political action 
organization whose mission is to safeguard the rights of saltwater 
anglers, protect marine industry jobs, and ensure the long-term 
sustainability of our Nation's marine fisheries. The RFA represents 
individual recreational fishermen, recreational fishing boat 
manufacturers, party and charter boat owners and operators, bait and 
tackle businesses, marina operators, and other businesses dependent on 
recreational fishing.
---------------------------------------------------------------------------
    I'm sure when a lot of people in Washington DC think of Florida 
fishing they think of fancy gamefish like bonefish, sailfish or tarpon. 
Florida is a world class destination for these types of `catch and 
release' targets I'll give you that--but here in this region, on the 
Gulf of Mexico, red snapper is critical to the health and prosperity of 
our coastal fishing businesses and our coastal economies in general. 
People love to book charters to catch a couple of red snapper--but the 
majority of those customers in this area, who spend hard-earned money 
at the hotels and in the gift shops and local stores, they like to eat 
a couple of red snapper too!
    I don't know how it was 100 years ago, but I do know what it was 
like 30 or 40 years ago. I can also tell you that in just the past six 
years alone, I've seen more red snapper out there in the Gulf of Mexico 
that any time in this captain's memory. When I first started fishing 
for red snapper, here out of Mexico Beach, we fished for them deep--you 
always had to drop lines down to the bottom to hook up with a fish or 
two. These fish are so plentiful today that they're spread out 
throughout the water column, from surface to bottom--red snapper are so 
thick at times that you can't get a bait down to the bottom for 
grouper.
    Sure, this is good news for the fish. A lot of folks who don't fish 
and who don't really care about what happens to our local fishermen in 
Mexico Beach and Panama City will tell you this is good news for 
everyone; I can tell you that if you want fish populations to explode, 
all you have to do is stop people from fishing, that's easy. What's 
harder is coming up with a way that we can sensibly fish on these 
populations as they continue to grow--and that's what those same `non-
fishing' people don't want to talk about honestly with the American 
people.
    All the captains I talk to have seen a great number of red snapper, 
a growing population. As the population increased and during a time of 
an eight-month red snapper season in the Gulf, something happened which 
has forced us to suddenly cut back to a 40-day season. Everyone at this 
hearing knows what changed--it was a federal fisheries law which was 
originally created to help American fishermen, but as reauthorized by 
Congress in 2006 is now destroying our Gulf fishing communities and our 
economies.
    During the past 2 seasons alone, my business as a charter boat 
captain has been cut in half. Red snapper season was cut by 70%, 
triggerfish have been shutdown, gag grouper days cut in half, now I 
hear the same rumors about vermillion snapper as well. What's ended up 
happening to our community is that our tourist season for visiting 
anglers has also shrunk with the decreasing opportunities to fish, and 
that means lost jobs.
    Instead of having a longer, more sensible season, local captains 
are now pushing themselves to extremes, fishing every single day during 
a 40-day season, rain or shine. This is what they call `derby fishing' 
where you have to fish every possible chance during that 40-day window 
to make up for lost revenues from the other 325 days of the year where 
our anglers could reasonably be fishing sustainably for red snapper.
    Of course, the same groups who pushed us into this corner by 
supporting the reauthorization of Magnuson back in 2006 with all the 
rigid new definitions, requirements and arbitrary deadlines, are 
dangling another carrot in front of us today to help stop the derby--
the new sector separation schemes and `individual catch shares' for 
Gulf of Mexico fisheries is not an answer, it's an agenda, and it will 
forever change the face of our local community in a way that is not at 
all what's good for Florida fishermen.
The Need for Deadline Flexibility
    We need some `flexibility' in our federal fisheries law . . . there 
are no deadlines in nature; the last thing we need is to mandate 
unnatural timelines for rebuilding fisheries. If fish stocks are 
growing on a positive trend, why should we be shutting down seasons and 
denying fishermen the opportunity to fish the Gulf of Mexico? All for 
the sake of building stocks faster? Fisheries management should be more 
reasonable, and fisheries managers should be given the ability to 
manage within reason, for the sake of both fish and the fishermen.
    To better explain our current situation here in the Gulf with 
regard to the inflexibility of the Magnuson-Stevens Act, it's important 
to look to other regions where similar issues occurred in the past. 
During the reauthorization debate in the House back in 2006, Congress 
approved a three-year deadline extension on the summer flounder 
rebuilding period to help fishermen in the Mid Atlantic region deal 
with a looming crisis there. By giving the fishing community three 
additional years to fish towards the final rebuilding target without 
threat of complete closure or a 75% cutback in season, the stock was 
still allowed to rebuild.
    There were no negative biological consequences resultant of this 
extension, yet the fishermen and industry were given the opportunity to 
modestly continue fishing on the stock, which had increased to the 
highest level in recorded history after this flexibility extension was 
granted by Congress. Fishermen on all coasts of the U.S. and all 
fisheries under federal jurisdiction should have the option of 
rebuilding timeframe extensions when the certain criteria are met to 
ensure the continued health of the stock. In the summer flounder 
fishery, the extension proved to be a successful use of common sense in 
fisheries management. All fisheries should be afforded this common 
sense.
The Need For Improved Science and Data Collection
    We also need better science and data collection. These shortened 
seasons and sudden closures are based on recreational data collection 
called ``fatally flawed'' by the National Research Council back in 
2006, which is when Congress mandated that these recreational harvest 
surveys be replaced by 2009. Earlier this year, NOAA Fisheries said 
they'd accomplished their mission--well, if that's true, let's let the 
National Research Council decide through another comprehensive analysis 
of NOAA's work, to ensure that it's truly the best available science. 
No scientific effort should be considered the ``best'' without ``peer 
review.''
    Responsible, efficient fishery management can only be achieved when 
the information used by decision makers is of the highest quality. The 
Magnuson-Stevens Act contains a national standard which mandates that 
management measures be based on the best available science. All too 
often, the information contains gaps and deficiencies which ultimately 
lessens the confidence in the data and negatively impacts fishermen 
through lower quotas. This information can only be called the best 
available science because it is only available science due to a close 
door culture at NOAA which prevents any outside information that 
challenges `their' science.
    Amendments included during the reauthorization debate in 2006 
placed even greater demands that the quality of data be exceedingly 
high. The implementation of annual catch limits and accountability 
measures directly hurts fishermen when the data is less than perfect. 
Achieving such high quality data requires significant investment in 
both money and resources. NOAA has failed to make that investment and 
fishermen suffer.
    When fishery information is poor, managers assign a specific level 
of uncertainty to the information under the widely adopted 
precautionary approach. Specific to the recreational fisheries, fish 
available to anglers are limited by both scientific uncertainty and 
management uncertainty. When combined, this uncertainty lowers the 
overall recreational harvest limit producing shorter seasons and more 
restrictive regulations. Of additional concern, when such regulations 
are imposed, mortality associated with harvest is simply converted to 
mortality associated with discards resulting in a wasteful management 
approach that serves no benefit.
    In recent years, NOAA has allocated millions of dollars towards the 
implementation of catch shares programs at the expense of efforts which 
would improve stock assessments, lower uncertainty and provide more 
fish to anglers. Catch shares do not improve stock assessments or 
reduce uncertainty; they are a management tool with the primary 
objective of reducing capacity in a fishery. High quality stock 
assessments are expensive and demand significant commitment from this 
administration. NOAA needs to stop diverting money to catch shares and 
restore funding to cooperative research and other programs that 
directly improve and contribute to fishery stock assessments.
The Need to Protect Both Fish & Fishermen
    Finally, we do need the Commerce Department's help in untangling 
this bureaucracy created by Magnuson. New annual catch limits and 
accountability measures like `catch shares' and recreational harvest 
payback--it all sounds good, but if the best available science is still 
``fatally flawed'' and research stock assessments don't use sound data, 
then what are we left with? Congress needs to step in on this one . . . 
if the government isn't going to meet their commitment to fishermen, 
then Congress needs to draw a line in Magnuson to allow the Department 
of Commerce to help protect the fishermen.
    Magnuson was originally intended to support a robust domestic 
fishing industry in the United States. What it lacks today is a proper 
balance between commerce and conservation. I'm grateful that leaders 
from the House Natural Resources Committee have taken considerable time 
and effort to hold this field hearing today, it's a great opportunity 
for our Gulf fishing community.
    We're not an industry that's looking for handouts--we're only 
asking for a hand, to protect our coastal heritage and traditions while 
fostering sustainable Gulf fisheries for generations to come.
Conclusion
    In closing, I would like to express my appreciation for the 
opportunity to discuss the importance of recreational fishing in 
Florida, and especially the Gulf of Mexico here along our Forgotten 
Coast. It's an honor to have key Members of Congress and the 
distinguished Chairman of this Committee in our district today. I would 
be happy to work with Committee members and sponsors of various 
fisheries legislation on any follow-up questions you may today or at 
any other time.
                                 ______
                                 
    The Chairman. Thank you very much, Captain Adams.
    I will recognize Captain Jennings, who is the President of 
the National Association of Charterboat Operators. Captain 
Jennings, you are recognized.

   STATEMENT OF CAPTAIN MICHAEL JENNINGS, PRESIDENT, CHARTER 
                    FISHERMEN'S ASSOCIATION

    Mr. Jennings. Thank you, Chairman Hastings, Representative 
Southerland, I am the President of the Charter Fishermen's 
Association.
    Given the gravity and the contentiousness of some of these 
issues, sitting here looking out that window, I would rather be 
sitting out there on that dock that I am looking at with all 
this fishing than I would be sitting here talking to you all.
    And this is my first time in this part of the coast, 
Representative Southerland, and it is beautiful and the 
hospitality has been fantastic.
    I do appreciate the opportunity to testify today. I own and 
operate two permitted charter boats in the Gulf and I make my 
living providing access to recreational anglers. In fact, the 
for-hire industry in the Gulf of Mexico provides access to 
millions of fishermen every year. Our customers come from all 
over the country and are a large part of the economic machine 
that supports thousands of businesses just like mine.
    Recreational fishing seasons have gotten shorter and bag 
limits have gotten smaller. The service we provide to our 
clients is open access to ocean fisheries and this has become 
more and more difficult. These increasingly stringent managers 
are blocking public access to our fisheries and in the process 
hurting our local economies.
    One thing we cannot do though is go back to the days when 
unrestricted fishing crushed important stocks, but we cannot 
just sit here and watch our seasons continue to get shorter and 
shorter either. Fortunately, there are solutions that can do 
both and provide for increased access to our fishery while also 
providing a long-term sustainability of these resources. There 
is some flexibility in the existing Magnuson-Stevens Act, or 
MSA, that can move us toward this and maintain the integrity of 
the MSA as we go forward. Congress needs, in our opinion, to 
leave the MSA alone. And rather than amend it, we would like to 
see Congress ensure that sufficient funding is given for 
fisheries science rather than creating loopholes. And allow 
fisheries managers to use all management tools that might 
benefit this fishery.
    Legislation was recently introduced that would exempt or 
limit the use of basic management practices, including the 
setting of annual catch limits and extending the rebuilding 
timelines. In 2012, NMFS reviewed more stocks than ever, 
including several stocks in the Gulf, and we strongly support 
more funding for stock assessments and more for fishery 
independent surveys. But similar to other regions with large 
numbers of managed species, traditional population assessments 
are not always available.
    In those cases, management is based on other information 
that can be obtained without complex and resource-intensive 
models, such as fishery catches, species life span, discard 
mortality just to name a few. These are all essential pieces of 
information needed for population assessments, along with other 
information about the biology and population trends of a 
species in question. To us, we see it as a myth that a fishery 
can only be managed by simply using a complex stock assessment.
    There continues to be a push to sacrifice long-term 
sustainability for short-term gain. Healthy and rebuilt fish 
stocks are a critical component of healthy coastal economies. 
In fact, according to NMFS, fully restored or fully rebuilt 
U.S. fish stocks would generate $31 billion in revenues and 
create almost 500,000 in jobs.
    The law offers ample flexibility to determine rebuilding 
timelines and setting catch limits, but we need additional 
flexibility to try different management approaches that the 
industry and the user groups feel is necessary. Traditional 
methods simply are not working. We see no reason to limit any 
options provided to the charter industry or any other user 
group that is currently allowed in the law.
    There have been numerous attempts, and some successes, to 
prohibit our right to work on options in our industry in the 
Gulf of Mexico. Today's current management system is failing 
our industry and is failing the fishermen who seek to access 
it. Alternative management systems can be useful in some 
fisheries. For example, the red snapper ITQ program may not be 
appropriate for recreational anglers. Regardless, we need to 
let the fishermen determine that and determine what tools work 
best for them. The MSA was set upon a manner that allows local 
issues to be dealt with in the local user groups and we need to 
continue to let that happen.
    Sustainable fisheries provide public access to sportfishing 
and long-term economic health for our coastal communities. 
Congress is pushing to take steps, encouraged by a few who are 
willing to trade long-term sustainability for short-sighted 
personal and political gain. Current fishing rules hurt anglers 
and fishing businesses due to outdated management practices. 
But this is solved by giving fishermen management flexibility 
and not through rolling back conservation successes and 
creating management loopholes.
    Now should be the time when Congress is giving us more 
tools to manage our fisheries, not less. We need all the 
options at our disposal and we need to allow the user groups to 
work within the guidelines of the MSA to work on what seems to 
be best for them. It is an issue that we feel needs to be dealt 
with on a local level when it comes to working within our 
fishery management system.
    I thank you all.
    The Chairman. Thank you very much, Captain Jennings.
    Now I will recognize Captain Zales who is the President of 
the National Association of Charterboat Operators. Captain 
Zales.
    [The prepared statement of Captain Jennings follows:]

 Statement of Capt. Mike Jennings, For-Hire Recreational Fisherman and 
     Owner of Cowboy Charters, Freeport, Texas; President, Charter 
                        Fishermen's Association

    My name is Captain Mike Jennings and I am the President of the 
Charter Fishermen's Association, representing Charter Captains and 
Private Recreational Members throughout the Gulf States. I appreciate 
the opportunity to testify today in support of achieving sustainable 
and accountable fisheries in a way that will increase all user groups' 
access to our nation's natural resources. The most effective way to 
reach these goals is to ensure that congressionally-created Regional 
Fishery Management Councils have the flexibility to explore all 
management options available. Restrictions from Washington, D.C. on 
what management options we can and cannot try could devastate our 
industry.
    I have been a licensed charter boat captain fishing the Gulf of 
Mexico off Texas for over 25 years. I grew up fishing Texas's inshore 
and offshore waters and I am proud to make a living by taking my 
clients fishing and giving them access to the fisheries in the Gulf of 
Mexico. In fact, the for-hire industry in the Gulf of Mexico provides 
access to millions of fishermen every year who cannot afford their own 
boats, live far away or who want to fish with an experienced captain. 
This year my boats took more than 1500 people out to fish in the Gulf. 
Our customers come from all over the country and are a large part of 
the economic machine that supports thousands of small businesses like 
mine and is a primary driver of our coastal communities.
    Several species of fish that are critical to the recreational 
fishing industry in the Gulf have suffered from fishing effort in years 
past that has put a strain on the overall populations and are subject 
to increasingly restrictive management measures. Fishing seasons have 
gotten shorter and bag limits have gotten smaller. These factors make 
it very difficult for charter boat operators like me to stay in 
business. The service we provide to our clients is access to ocean 
fisheries, but in recent years government regulations have prevented us 
from providing this access. Either the seasons are closed, in which 
case going fishing is not even an option, or the size and bag limits 
are so restrictive that clients cannot justify the expense of going 
fishing. These increasingly stringent measures are blocking public 
access to fishery resources, and in the process hurting our businesses 
and local economies.
    We can't go back to the days when unrestricted fishing crashed 
important stocks, but we can't watch our seasons get shorter and 
shorter while bag limits get smaller and smaller. Fortunately, there 
are solutions that can simultaneously provide increased access to our 
fishery while also providing for the long-term conservation of those 
resources. There is flexibility in the existing Magnuson-Stevens Act 
that can move us towards that increased access as these fish stocks 
rebound. In fact, we believe that it is critically important to 
maintain the integrity of the Magnuson-Stevens Act (MSA) to enable 
continued, long-term access to this valuable resource. Congress needs 
to leave the MSA alone. Rather than amend the MSA Congress should:
        <bullet>  Ensure there is sufficient funding for fisheries 
        science rather than creating loopholes
        <bullet>  Allow fisheries managers to use all management tools 
        that might benefit the fishery, and
        <bullet>  Protect valuable habitat that is now in place in the 
        Gulf of Mexico.
    Legislation was recently introduced that would exempt or limit 
fisheries from the use of basic fisheries management practices, 
including the setting of annual catch limits (ACLS) and extending 
rebuilding timelines. In 2012 NMFS reviewed more stocks than ever 
before, including numerous stocks in the Gulf of Mexico and we strongly 
support funding for stock assessments and fishery independent surveys. 
But similar to other regions with a large number of managed species, 
traditional population assessments are not always available to inform 
the setting of ACLs in the Gulf.
    In those cases, management is based on information that can be 
obtained without complex and resource-intense models, such as fishery 
catches, species life span and discard mortality just to name a few. 
These are all essential pieces of information needed for population 
assessments, along with other information about the biology and 
population trends of a species in question. It is a myth that a fishery 
can only be managed with complex population assessments. Good 
management systems are adaptable and are designed to accommodate a 
range of uncertainties.
    There continues to be a push for fishery managers to sacrifice 
long-term sustainability for short term gain. There have been numerous 
legislative attempts to extend rebuilding time frames for US fish 
stocks. In some cases these efforts could extend rebuilding almost 
indefinitely. Currently, the law requires stocks to be rebuilt in ten 
years but includes sufficient flexibility and takes into account the 
biology of the stocks. In fact, over half of rebuilding plans extend 
past the 10 year time line. Some Pacific Rockfish species have 
rebuilding timelines that exceed 70 years. Healthy and rebuilt fish 
stocks are a critical component of healthy coastal economics. In fact, 
according to NMFS, fully rebuilding US fish stocks would generate $31 
billion in revenue and create 500,000 new jobs.
    The law offers ample flexibility in determining rebuilding time 
lines and setting catch limits, but we need additional flexibility to 
try different management approaches. Traditional methods simply aren't 
working. We would like to explore the possibility of alternative 
management approaches on the local level as afforded us by the MSA. We 
see no reason to limit any option provided to the Charter Industry or 
any other user group that is currently allowed under law. Those 
alternatives may include sector allocations or even Limited Access 
Privilege Programs, (LAPP) if the user group feels this is in their 
best interest.
    Limited Access Privilege Programs, (LAPP) may not be appropriate 
for all fisheries and all fishermen. For example, we do not believe 
they should be used to manage private anglers. But the Charter Industry 
should have the option to explore them if they see fit. Under the 
Magnuson-Stevens Act, the regional fishery management councils now have 
the option to implement a LAPP where the stakeholders in a fishery want 
such a program. Here in the Gulf of Mexico any new LAPP is subject to a 
fishermen referendum and must be approved by a majority of the active 
participants in the fishery before it can be implemented. No other 
fishery management program requires that level of fishermen input.
    There have been numerous attempts, and some successes, to prohibit 
our right to work on options for our industry in the Gulf of Mexico. 
Today's current management system is failing our industry and failing 
the Fisherman who seeks to access it. Alternative Management Systems 
can be useful in some fisheries. For example, the Gulf of Mexico Red 
Snapper Commercial ITQ program may not be appropriate for others, such 
as private anglers. Regardless, it is not up to Congress to decide what 
tools fisheries managers and fishermen can and cannot use in their 
fisheries. We need to let fishermen determine what tools work best for 
them. The Magnuson-Stevens Act was set up in a manner that allows local 
issues to be managed at the local level. Congress should allow that 
process to take place.
    One of the top priorities for recreational fishermen in the Gulf of 
Mexico today is maintaining the Rigs to Reef program. Gulf of Mexico 
offshore oil and gas production platforms were originally designed and 
built to provide our nation with energy. However these structures have 
become critical habitat for many types of marine life and are also a 
valuable asset for recreational fishing and diving. The federal Rigs to 
Reefs program successfully allows removal of hazardous materials while 
allowing the useful habitat to remain and has been working great for 
decades. Many businesses and user groups have come to rely on the 
structures, which have improved our quality of life and ability to 
enjoy our Gulf of Mexico.
    Unfortunately, recent changes to federal policy are causing 
beneficial habitat to be destroyed at a huge cost to our communities 
and the Gulf ecosystem. The Department of Interior announced on 
September 15, 2010 that it would begin enforcing a long-dormant rule 
requiring rigs to be removed within five years from the time they cease 
production. This has sped up the process of removing non-producing 
rigs, regardless of their value as fish habitat. As a result, much 
habitat has been lost and continuing to remove more rigs will harm our 
businesses.
    The Gulf of Mexico Fishery Management Council is also expressed 
concern about the method and rate of oil and gas platform removal. The 
Council has sent a series of letters asking the agencies responsible 
for rig removal to reconsider the use of explosives to remove rigs 
because explosives are known to kill fish dwelling near those 
structures. The Council also asked that the rate of rig removal be 
slowed or discontinued until more information is gathered regarding the 
effects of Structure removal on the fishery. We strongly support the 
Council in these efforts.
    Sustainable fisheries provide seafood to America's dinner plate, 
public access for sportfishing enthusiasts, and long-term economic 
health for fishermen, and our coastal communities. Congress is pushing 
to take steps, encouraged by antiquated thinking by a few ``leave us 
alone'' fishermen of old, who are willing to trade the long-term 
sustainability of our coastal communities for shortsighted personal and 
political gain. Current fishing rules hurt anglers, fishing businesses, 
and our nation's fisheries by severely limiting fishing with short or 
even closed seasons and promoting wasteful discards due to outdated 
management practices, but this is solved by giving fishermen management 
flexibility and not through rolling back conservation provisions and 
creating management loopholes.
    The CFA sees our role in this fishery as a position of providing 
more access to the average American who just simply has no other avenue 
or opportunity to fish in the Gulf of Mexico. Current management 
practices are stripping the American public of this access. We also 
pledge to work to meet the mandates set by Congress through the 
promotion of fishery management practices that are beneficial to the 
American public, the fishery in general as well as the fishing 
industry. Now should be the time when Congress is giving us more tools 
to manage our fisheries, not less. The Charter Fisherman's Association 
looks forward to working with Regional Councils, Congress and the 
Administration towards long-term solutions, including any and all 
options that may increase fishing time, improve businesses, and ensure 
a sustainable fishery. We need all the options at our disposal and we 
need to allow the user groups to work within the guidelines of the MSA 
at the council level to best manage our fisheries.
                                 ______
                                 

 STATEMENT OF CAPTAIN ROBERT F. ZALES, II, PRESIDENT, NATIONAL 
              ASSOCIATION OF CHARTERBOAT OPERATORS

    Mr. Zales. Thank you, Chairman Hastings, Representative 
Southerland, my name is Robert Zales, II, and I am appearing 
today on behalf of the National Association of Charterboat 
Operators. NACO thanks you and the members of the Committee for 
your kind invitation to present testimony on this issue today.
    NACO is a non-profit 501(c)(6) association representing 
charter boat owners and operators across the United States, 
including the Great Lakes. I also serve on the board of other 
recreational fishing associations and work with a national 
coalition of recreational for hire, private recreational, and 
commercial fishing associations as well as the National Ocean 
Policy Coalition. I have been involved in fishing for over 47 
years with over 21 years of that time involved with local, 
State, and Federal fishery management, providing expert 
testimony, serving on a host of advisory panels, and working to 
ensure that reason and common sense are applied to the 
management of our natural resources.
    On July 19, 2010, President Obama signed and executed 
Presidential Executive Order 13547, creating the National Ocean 
Policy. Two years later, this one stroke of a pen has led to 
the creation of the National Ocean Council and we are awaiting 
the announcement of the National Ocean Policy Implementation 
Plan. This plan will provide for the creation of nine Regional 
Planning Bodies whose membership will be limited to Federal, 
State, and tribal representatives only. Regional Planning 
Bodies will adopt a comprehensive national ecosystem-based 
management principle, implement comprehensive, integrated 
ecosystem-based coastal and marine spatial planning and 
management, and a host of other management objectives. As 
bureaucrats gather to draw lines on maps and determine the fate 
of significant contributors to the economy and social fabric of 
the Nation, the fishing and boating communities simply will not 
have a seat at the table.
    Here in the Gulf of Mexico region, 19 officials from 14 
Federal entities have been identified to participate on a 
government-only Regional Planning Body--Department of the 
Interior, Bureau of Ocean Energy Management, U.S. Fish and 
Wildlife, National Park Service, U.S. Geological Survey, 
Environmental Protection Agency, Department of Commerce, 
Department of Homeland Security (the Coast Guard), Department 
of Agriculture, Department of Energy, Federal Energy Regulatory 
Commission, Department of Transportation, U.S. Air Force and 
U.S. Navy. Apparently, Mr. Chairman, you and your colleagues 
are not necessary to the proper management and care of our 
natural marine and land-based resources as Congress has been 
left totally out of this process.
    Charter, commercial, and saltwater recreational fishing is 
extremely important to the United States, both economically and 
socially. According to the NOAA publication ``Fisheries 
Economics of the United States for 2009,'' recreational 
saltwater fishing produced sales impact from angling and 
durable expenditures totaling $50 billion and value-added 
impacts of $23 billion, while providing over 327,000 jobs in 
2009. In addition, the commercial fishing industry provided 
over 1 million jobs, $116 billion in sales and $32 billion in 
income impacts. Seafood retailers added another 484,000 jobs 
and contributed another $10 billion to the Nation's economy. 
This impact is derived on less than 20 percent of the seafood 
provided locally as over 80 percent of our Nation's seafood is 
imported. According to the local Tourist Development Council, 
15 percent of tourism dollars comes from saltwater recreational 
fishing off Panama City. All of these industries depend on our 
healthy and resilient resources and must have flexibility in 
management in order to survive.
    Recreational and commercial fishermen are already over-
regulated and subjected to restricted fishing seasons, over-
restrictive bag limits and quotas, closed areas to boating and 
fishing, the Endangered Species Act, Clean Water Act, and 
Marine Mammal Protection Act, engine emission regulations, 
marine protected areas, gear restrictions, U.S. Coast Guard 
regulations, manning requirements, life-saving requirements, 
licensing, medical review processes, navigation restrictions, 
and FCC radio licensing and requirements, among others.
    In addition to the coastal impact of the NOP, according to 
the American Farm Bureau Federation, instead of being 
restricted to just the oceans and coasts, the National Ocean 
Policy ``could extend to the regulation of every farm and ranch 
in the United States.'' The NOP national priority objective for 
Water Quality and Sustainable Practices on Land is to ``enhance 
water quality in the ocean, along our coasts, and in the Great 
Lakes by promoting and implementing sustainable practices on 
land,'' with the draft implementation plan proposing an action 
to ``reduce rural sources of excessive nutrients, sediments, 
toxins and pathogens.''
    Under the Regional Ecosystem Protection & Restoration 
national priority objective, the NOC has proposed in part to 
``support the development and implementation of statewide 
nitrogen and phosphorus reduction strategies in the Mississippi 
River Basin and Gulf region'' and the ``development of State 
regulatory certainty programs for reducing nutrient and 
sediment loads. Will support of States translate to coercion, 
as is taking place in the Chesapeake Bay watershed? The 
Mississippi River Basin spans from Montana to New York, 
draining water from parts or all of 31 States. The new overlay 
of Federal requirements could negatively affect home builders, 
private landowners, and other businesses. Furthermore, the 
significant financial and human resources that will be required 
to implement this massive new program that has not been 
authorized by Congress, stands to harm all economic sectors, 
including those that operate solely on land, that are dependent 
in some part on already squeezed Federal programs and 
resources.
    Mr. Chairman, this concludes this portion of my testimony. 
Again, I truly appreciate the invitation and opportunity to 
provide you and the Committee with this information. I will be 
pleased to respond to any questions.
    [The prepared statement of Captain Zales follows:]

          Statement of Capt. Robert F. Zales, II, President, 
             National Association of Charterboat Operators

    Chairman Hastings, Ranking Member Markey, Representative 
Southerland and members of the committee, my name is Robert F. Zales, 
II and I am appearing today on behalf of the National Association of 
Charterboat Operators (NACO). NACO thanks you and the Members of the 
Committee for your kind invitation to present testimony on this issue 
today.
    NACO is a non-profit 501 (c) (6) association representing charter 
boat owners and operators across the United States including the Great 
Lakes. I also serve on the Board of other recreational fishing 
associations and work with a national coalition of recreational for 
hire, private recreational, and commercial fishing associations as well 
as the National Ocean Policy Coalition. I have been involved in fishing 
for over 47 years with over 21 years of that time involved with local, 
state, and federal fishery management providing expert testimony, 
serving on a host of advisory panels, and working to ensure that reason 
and common sense are applied to the management of our natural 
resources.
    On July 19, 2010 President Obama signed and executed Presidential 
Executive Order 13547 creating the National Ocean Policy (NOP). Two 
years later, this one stroke of a pen has led to the creation of the 
National Ocean Council (NOC) and we are awaiting the announcement of 
the National Ocean Policy Implementation Plan. This plan will provide 
for the creation of 9 Regional Planning Bodies whose membership will be 
limited to Federal, State, and Tribal Representatives only. Regional 
Planning Bodies will adopt a comprehensive National ecosystem based 
management principal, implement comprehensive, integrated, ecosystem 
based coastal and marine spatial planning and management, and a host of 
other management objectives. As bureaucrats gather to draw lines on 
maps and determine the fate of significant contributors to the economy 
and social fabric of the nation, the fishing and boating communities 
simply will not have a seat at the table.
    Here in the Gulf of Mexico region, 19 officials from fourteen 
federal entities have been identified to participate on a government-
only ``Regional Planning Body'' (Department of Interior, Bureau of 
Ocean Energy Management, U.S. Fish and Wildlife Service, National Park 
Service, U.S. Geological Survey, Environmental Protection Agency, 
Department of Commerce (NOAA), Department of Homeland Security (Coast 
Guard), Department of Agriculture, Department of Energy, Federal Energy 
Regulatory Commission, Department of Transportation, US Air Force, and 
US Navy). Apparently, Mr. Chairman, you and your colleagues are not 
necessary to the proper management and care of our natural marine and 
land based resources as Congress has been left totally out of the 
process.
    Charter, commercial, and saltwater recreational fishing is 
extremely important to the United States, both economically and 
socially. According to the NOAA publication Fisheries Economics of the 
United States for 2009 Recreational Saltwater Fishing produced sales 
impacts from angling and durable expenditures totaling $50 BILLION and 
value added impacts of $23 BILLION while providing over 327,000 JOBS in 
2009. In addition the Commercial Fishing industry provided over 1 
MILLION JOBS, $116 BILLION in sales and $32 BILLION in income impacts. 
Seafood Retailers added another 484,000 JOBS and contributed another 
$10 BILLION to the nations' economy. This impact is derived on less 
than 20% of the seafood provided locally as over 80% of our Nation's 
seafood is imported. According to the local Tourist Development 
Council, 15% of Tourism Dollars comes from saltwater recreational 
fishing off Panama City. All of these industries depend on our healthy 
and resilient resources and must have flexibility in management in 
order to survive.
    Recreational and commercial fishermen are already over-regulated 
and subjected to restricted fishing seasons, overly-restrictive bag 
limits and quotas, closed areas to boating and fishing, the Endangered 
Species Act, Clean Water Act, and Marine Mammal Protection Act, engine 
emission regulations, marine protected areas, gear restrictions, U.S. 
Coast Guard regulations, manning requirements, life-saving 
requirements, licensing, medical review processes, navigation 
restrictions, and FCC radio licensing and requirements, among others.
    In addition to the coastal impacts of the NOP, according to the 
American Farm Bureau Federation, instead of being restricted to just 
the oceans and coasts, the National Ocean Policy ``could extend to the 
regulation of every farm and ranch in the United States.'' The NOP 
national priority objective for Water Quality and Sustainable Practices 
on Land is to ``enhance water quality in the ocean, along our coasts, 
and in the Great Lakes by promoting and implementing sustainable 
practices on land,'' with the draft implementation plan proposing an 
action to ``reduce rural sources of excessive nutrients, sediments, 
toxins and pathogens.''
    Under the Regional Ecosystem Protection & Restoration national 
priority objective, the NOC has proposed in part to ``support the 
development and implementation of State-wide nitrogen and phosphorus 
reduction strategies in the Mississippi River Basin and Gulf region'' 
and the ``development of State regulatory certainty programs for 
reducing nutrient and sediment loads'': will ``support'' of states 
translate to coercion, as is taking place in the Chesapeake Bay 
watershed? The Mississippi River Basin spans from Montana to New York, 
draining water from parts or all of 31 states. The new overlay of 
federal requirements could negatively affect home builders, private 
landowners, and other businesses. Furthermore, the significant 
financial and human resources that will be required to implement this 
massive new program, that has not been authorized by Congress, stands 
to harm all economic sectors--including those that operate solely on 
land--that are dependent in some part on already-squeezed federal 
programs and resources.
    Mr. Chairman, this concludes this portion of my testimony. Again, I 
truly appreciate the invitation and opportunity to provide you and the 
committee with this information. I will be pleased to respond to any 
questions.
                                 ______
                                 
    The Chairman. Thank you, Captain Zales, and I thank all of 
you for your testimony.
    And Captain Zales, I want to thank you for your testimony 
regarding the National Ocean Policy. That is a big concern of 
mine, because while Washington is a coastal State, my 
particular district is in central Washington and two rivers go 
through--two principal rivers, there are more than just those 
two--but the Columbia River and Snake River. And that policy 
would have a huge, huge effect, as you alluded to in your 
testimony.
    My understanding is that you have been involved in the 
Marine Protected Area Advisory Committee for some time now. In 
your opinion, and the discussions that are going on within that 
committee, is there much science or is it more about some 
policy objectives that they want to address?
    Mr. Zales. Mr. Hastings, I was one of the initial 
appointees to that panel, and ended up my last few years 
serving on that panel about 3 years ago as vice chairman of 
that panel. It had 30 members from all varieties of 
stakeholders on there from fishermen to environmentalists to 
government people.
    In my opinion, on that panel, there is a true agenda to 
pretty much put fishermen and boaters off the water. It started 
out--initially it was a pretty clear balance of representation 
on there. We had the oil industry involved with it, like I 
said, commercial and recreational fishermen, the environmental 
community, there are academics on there, there are--you know, 
all the agencies from the Federal Government are represented. 
We were able to get, in the first 2 years--and it was tough--we 
came up with an initial plan and there was a lot of negotiation 
that went back and forth. And it was only within the last few 
hours of the last day of the meeting that we finally came 
together on that.
    But since that time, it is my understanding it has drifted 
away from that initial work, it has just become more--the 
membership has become more academic and environmental oriented 
and there is a continued push--and they continually use, to 
this day, the Marine Protected Act off of California. And if 
you follow that Act, you see that there has been a host of 
problems. I mean there are court cases out there today with 
that Act where there were a lot of things done behind the 
scenes outside of public view that created these large areas of 
marine protected areas off of California that should not have 
been done if they had been done properly. And that has been 
used as the epitome of how you do it.
    Now if that is how you do things, we have serious problems. 
And hopefully in the Federal system, you will look at it a lot 
better.
    The Chairman. Well, I will just simply say that is my view 
in a variety of areas and I intend to.
    I will yield the balance of my time to Congressman 
Southerland.
    Mr. Southerland. Thank you, Mr. Chairman.
    Great testimony, thank you very much for being here today.
    Ms. Hansard, let me ask you a question. Your organization 
has been effective in building and placing artificial reefs in 
the Gulf, yet it appears that NOAA does not use those sites to 
survey fish. Why do you think they ignore these areas in 
surveys?
    Ms. Hansard. I could not begin to tell you why they do it 
because it does not make any sense to me whatsoever. If you 
look at the Florida panhandle, according to FWC, 95 percent of 
our sea floor is sandy bottom. If we did not build artificial 
reefs in the Florida panhandle, we would not have a fishery in 
the Florida panhandle to support all the different people that 
want to go out there and fish.
    So the fact that they are not surveying those reefs just 
means that they are not looking at the majority of the fish in 
our area.
    Mr. Southerland. I have heard this--can you confirm this? I 
have heard that some 40 percent of the landings out of the Gulf 
of Mexico, red snapper landings, occur in Alabama. And I have 
not actually been there to see their rebuilding program, but I 
heard it is very robust. So is it a true statement that the 
reason that they have such a large percentage of landings is 
directly related to the fact of their very aggressive 
rebuilding program?
    Ms. Hansard. I have this which I will show you, a picture. 
Now this map is a little outdated, Escambia County and Bay 
County have gotten a few more permitted zones, this is from a 
few years ago. You can see the green areas is Alabama's 
permitted areas and you can see the other colored areas, those 
are the permitted area that we had in the Florida panhandle. 
They have permitted almost every square inch of their sea floor 
and they allow people to go in there, even private people go in 
there and drop anywhere in those permitted areas. And one of 
the wonderful things about the private artificial reef building 
is that private artificial reefs do not have the pressure put 
on them that the public artificial reefs have. And they help 
the fishery at absolutely no cost to the taxpayers.
    If the Federal Government were to remove some of the 
restrictions and encourage private reef building, then we could 
help our fishery. I think we could rebuild our fishery in 5 
years if they would get out of the way, let the private 
industries build up our fishery. Even these people that are 
sitting out in this room today, I am sure a lot of these people 
would build reefs at no cost to the taxpayers. And every single 
reef that goes into the water, whether you have the coordinates 
to it or not, helps our fishery because it gives fish habitat.
    The Chairman. My time has now expired and I will now 
recognize you for your time. This is the way we do it back in 
Washington, D.C. It may be convoluted to some of you that are 
watching this here, but we have 5 minutes, if we do not use it, 
we will yield to somebody that wants to utilize that time. 
Obviously, Congressman Southerland, this being his district, 
knows the area much better than I, so I am going to yield to 
him. I will now recognize him for his own time.
    Mr. Southerland. Thank you, Mr. Chairman.
    Captain Jennings, you stated in your testimony that it is 
not up to Congress to decide what tools fishery managers can 
and cannot use. But who do you think wrote the Magnuson-Stevens 
Act?
    Mr. Jennings. Congress wrote the Magnuson-Stevens Act.
    Mr. Southerland. Well, OK, if we wrote the Magnuson-Stevens 
Act and we also authorized the Magnuson-Stevens Act, then--I 
mean just by its very nature, we have to get involved in 
understanding the process. And why would we want Congress to 
pass, you know, laws that have to be reauthorized every several 
years without the knowledge that we are seeking?
    Mr. Jennings. Without the knowledge that you are seeing as 
far as the problems with the data? I am not really following 
your question.
    Mr. Southerland. Well, I think you are kind of picking and 
choosing, I mean when you want Congress to be involved and when 
you do not. I mean, for example, you said that the removal of 
rigs is hurting the business. And if that is the case--and then 
you say if Congress does not act, the Department of the 
Interior will require that all inactive rigs be removed 
immediately. So is this a case where you would like Congress to 
step in? Because we hold the Department of the Interior's feet 
to the fire, we serve as accountability to President Obama and 
his agencies. So I mean, I hear push back when we are asking 
questions and we are trying to be--again, this is my home, this 
is the only place I have ever known, and I think my motives 
here of trying to be involved and trying to get data and 
information so we can make really good decisions and hold these 
departments' feet to the fire, I think is a pure motive.
    So, you know, the criticism that we need to approve more 
funding, as you also state in your testimony, and then when you 
say stay away from the Magnuson-Stevens Act, it seems to be 
inconsistent.
    Mr. Jennings. No, I think the message we are getting from 
Congress has been inconsistent. We were given Magnuson-Stevens 
and then it was reauthorized and now when we start to work 
within that process of Magnuson-Stevens as local constituents 
and local fishermen, we are faced with things like the Jones 
bill, which is slipped in from the back door to shut down 
something that Magnuson-Stevens gave us the opportunity to work 
on in the first place.
    And when it comes to the Rigs-to-Reefs Program, the problem 
that we have with removal of the Rigs-to-Reefs Program goes 
back 20, 30, 40, sometimes 50 years and comes down to the lease 
agreements. They are bound under lease agreements to remove 
those rigs. That was the problem, it was not Congress that is 
causing them to remove those rigs. We need some kind of 
injunction or some kind of help along those lines, whether it 
be a Federal judge or Congress or anything. I was trying to 
bring that to light more to how the removal of those fish----
    Mr. Southerland. OK.
    Mr. Jennings. You talked today about how these artificial 
reefs hold these fish and how they are beneficial to our 
fishermen and to our economies and to this resource. And that 
is the reason I have that in my written testimony. I removed it 
from my oral testimony today because it was kind of a sidebar 
issue.
    Mr. Southerland. Yes. Well, I know that, you know, you talk 
about the Magnuson-Stevens Act and there are a lot of good 
things in the Magnuson-Stevens Act, I do not question that.
    Mr. Jennings. Yes.
    Mr. Southerland. But one of the standards, and I want 
everyone to understand that one of the standards that is 
clearly inside the Magnuson-Stevens Act that is often 
overlooked--and I am reading from Section 301 of the National 
Standards for Fisheries, directly out of the Magnuson-Stevens 
Act, it says that ``Conservation and management measures shall, 
consistent with the conservation requirements of this Act, take 
into account the importance of fishery resources to fishing 
communities to the extent practical, minimize adverse economic 
impacts on communities.'' And I want you to know that when I 
push NOAA, give me the facts of an economic impact of your 
rules, they will not do it. And I think it is only fair, 
representing you, that I fight and demand that every part of 
Magnuson-Stevens is adhered to, not just the part that they 
like, ignoring the part that they do not like. And I think to 
ask what the economic impacts are before we push these 
regulations over on someone, I think that is a fair 
expectation.
    And I think you and I would agree on the rigs that look, if 
the rigs are good for the fishermen, why in the world, if you 
have a rig that is good for the sustainability of the fishery, 
why would they remove that rig, if it is proven to not harm the 
environment.
    I yield back.
    The Chairman. I thank the gentleman. I will recognize 
myself for a final round here of questioning.
    I want to make an observation and one of the reasons why I 
was looking forward to coming down here--I did not mention it, 
but I will mention it now, the Natural Resources Committee has 
jurisdiction over most Federal lands and offshore waters and 
obviously you, here on the coast. Now Federal lands, from my 
point of view, unless otherwise designated, were designed to be 
for multiple purposes--as recreation and commercial activity.
    I come from the Northwest where unfortunately there is a 
lot of Federal land. You are lucky, you do not have a lot of 
Federal land except--it is all water here, but land/water, 
believe me. I have some counties that have 75 percent of their 
county owned by the Federal Government, and the activities are 
greatly restricted because of that.
    Now there has been a movement going on for generations in 
this country to restrict commercial and recreation activities 
on Federal lands. I suspect that that same activity has 
extended to the fisheries, whether you are talking about the 
coast of California or talking the Atlantic coast and probably 
in the Gulf. You should be aware of that, because the 
consequences of that will be harmful in the long term to the 
economy and the way of life you all know. Captain Zales alluded 
to that in his testimony. And especially with this National 
Oceanic Policy.
    But I want to give you just a couple of take-aways that I 
got from testimony here, as it relates to my area in the 
Northwest. The issue here--and I did not sense that there is 
any disagreement about artificial reefs being beneficial to the 
fishery--but one of the big debates in the Northwest is the 
issue of salmon, and particularly the issue of wild salmon. Now 
we have had fisheries on the Columbia River for well over 100 
years. Nobody marked the hatchery fish over 100 years ago, 
which would be probably 25 generations ago, but all of a sudden 
now, there is a movement saying that you cannot harvest wild 
salmon when they could be progeny of hatchery salmon several 
generations ago. And there are advocates that are using that 
argument to even advocate taking out dams, which of course 
provide the electricity in the Northwest.
    The reason I am giving you this background is because I 
think in the long term--and by the way, when I hear that debate 
about hatchery fish, it sounds to me strangely similar to not 
counting artificial reefs. The similarity there to me is true. 
And all I am suggesting to you, you all had better be aware of 
it, I understand there is tension between commercial and 
recreation, that is one of the reasons we are here--I recognize 
that. But what you want is a viable fishery, that is what you 
really want, is a viable fishery.
    There is and has been a political agenda in this country 
that wants to cause that to end. And so to the extent that all 
of you can get together--yes, Magnuson-Stevens is a national 
act, there is no question about it. But yes, it was designed 
with regional jurisdiction, if you will, as best can be done. 
Now just because you have regional jurisdiction does not make 
it easy. For goodness sakes, it is hard, there is no question 
about that. But the alternative to having some sort of regional 
decision-making is national, one size fits all. That, to me, is 
not acceptable, I think that is a horrible way to go and I 
simply ignore that.
    So what I want to say, and one of the take-aways I got 
coming down here is there are other agendas out there, and do 
not be caught up in the other agendas that will destroy your 
livelihood, whether you are recreational or whether you are 
commercial. But you had better be aware of that. And the 
National Ocean Policy that was alluded to by Captain Zales and 
alluded to in others' testimony, will in fact potentially have 
precisely that outcome.
    So I just want you to know, this will be worked on, we will 
have more open debate on Magnuson-Stevens, no question about 
that. But I am a firm believer that government that's closest 
to the people governs best. But there is no guarantee that it 
is easier, it is hard. We live in a country where we have had 
liberty and freedom for over 200 years. A lot of countries 
would like to be like us and we should never lose sight of 
that.
    So I want to thank all of you for being here, I want to 
thank the panel and I will yield to Mr. Southerland.
    Mr. Southerland. Thank you, Mr. Chairman.
    I want to say that I am--first of all, thank you for being 
here and thank you for your remarks. Currently, in the Gulf of 
Mexico, we currently have--and I am referring to recreational--
currently 3.9 annual catch limits or 619, 620,000 pounds of 
fish caught--so 620,000 pounds of fish caught equals 3.9. As I 
am looking at these numbers and I look back at 2006 and we had 
1.3 million fish caught at 9.1 tag. Based on that increase, it 
seems that the fish for the recreational sector should be in an 
ACL of 7.6 million pounds, if you do the numbers, the size of 
the fish and the increase in the poundage.
    I am going to ask you this, Captain, because you do this 
for a living and I do not, why--why has that adjustment not 
been made when all of the data that oftentimes the Council 
seems to trust and NOAA seems to trust, why has that not been 
adjusted?
    Mr. Jennings. The information that we had gotten from NOAA, 
Congressman, is that the size of the fish has increased. I know 
that we are missing some size classes in the fish and we see 
that when we are on the water.
    Mr. Southerland. And by the way, that was referring to the 
snapper.
    Mr. Jennings. Yes, sir, I followed you, I followed the 
numbers. We are seeing some issues with some age classes on the 
water, we are seeing some very large fish and some--for our 
part of the Gulf anyway, I cannot speak for the entire Gulf of 
Mexico, but I am just talking about being on the water. We are 
seeing some very large fish and we are seeing a lot of very 
small fish. We are seeing some issues with some age classes 
that may be missing and seeing some issues with some bottom 
that may not be holding some fish as well as it did. I know I 
am hearing a lot of issues from the North Central coast about 
there's missing fish after the oil spill and things along those 
lines.
    But why those numbers have not been adjusted, I am guessing 
here, from the information I have received, it has got to do 
with some missing age classes, some areas that are still not 
holding fish, some areas that are holding fish that haven't 
held them historically. And there is still some uncertainty in 
the numbers themselves, but one of the things we do is we see, 
as these numbers get thrown around, the math gets more and more 
and more fuzzy about where we should be and where we can go and 
cannot go and things along those lines. I think we are sitting 
on a position where the stock assessment that we are looking at 
for 2013 is probably going to be one of the bigger issues and 
things may be able to be adjusted after that. The shame of the 
matter is that----
    Mr. Southerland. But we are hearing rumors that some in the 
Administration believe that we have exceeded that once again 
and in spite of having lost so many days to weather and we did 
have the additional 6 days, but they are already saying, guess 
what, you are over.
    Mr. Jennings. I think the number was anywhere from 400 to 
800,000 pounds.
    Mr. Southerland. I guess my point is they never seem to be 
satisfied in being willing to take away from us, is my point. 
They will not recognize the good data that we do have, they 
will not make adjustments when we have increases and there is 
strong evidence that the fisheries are healthy. As a matter of 
fact, in the South Atlantic, red snapper has been closed for 
over 900 days--900 days. And guess what, no assessment is even 
scheduled.
    So if they said to you, we are just going to close you down 
for 900 days and, you know what, we are going to move $300 
million out of research and data and we are going to put 
another satellite in space, does that seem like the kind of 
bureaucrats we want to trust with our livelihood?
    Look, if it walks like a duck, looks like a duck, quacks 
like a duck, it is a duck. At some point in time, I have to ask 
these individuals that are 1,000 miles from here and have never 
put bait on a hook, what are you doing--what are you doing. 
That is not fair.
    Captain Adams, it seems to be common sense--that is missing 
a lot in Washington, D.C., but----
    Mr. Adams. They seem to be missing quite a bit actually in 
Washington, D.C. about the health of our fisheries. I do not 
think that is really an issue to them. I mean every time we 
count the fish, we have gone over our limits, they will not 
count the fish on the artificial reefs, then they destroy our 
reefs and take out a million more pounds here and there. It 
just does not make any sense.
    Mr. Southerland. Two things that bother me, and in 
closing--I know I have the red light--I am bothered, number 
one, that there are people from the commercial sector, there 
are people that can buy catch shares, they can live in Kansas, 
they can live in Kansas, never, again, put bait on a hook and 
they are taking away from you. I want you to know, I have a 
problem with that. You are struggling. As a matter of fact, I 
asked in the last hearing we had, the last hearing before we 
came, when they seize a foreign vessel, or any vessel, that is 
illegally harvesting, I asked them what do you do with all the 
fish that you seize. Do you know what they said? They auction 
them off. And I said well, that fish that you auction off, what 
is that poundage credited to. The commercial IFQ. Well, why 
should you be OK with them seizing fish caught illegally and 
then them hammering you and taking away from your IFQ. That is 
not right, it is unfair. That is unacceptable. Look, we can 
stand to raise the annual catch limits. We can stand to--all 
the data says there is a lot more fish out there and we have 
heard numbers like 90 million, 100 million. We deserve more, 
you deserve more. You have been sold out for decades. It breaks 
my heart. I am not here to hurt you, I am here to get to the 
truth. And every time I talk to NOAA, the Department of 
Commerce, when I see them slide $300 million out to put 
satellites in space and all the things that they are doing and 
not doing, it angers me, because you deserve better.
    I want to say to Doc Hastings, I want to say thank you for 
coming. This is my home, those waters, I learned to swim in 
those waters. All four of my children were baptized in that 
water. It is home. I thank you for coming.
    The Chairman. We have one more panel and we may----
    Mr. Southerland. Oh, I was not aware of that, I thought we 
just had two. Very good.
    The Chairman. As I dismiss this panel, we will have Dr. 
Richard Merrick, Director of Scientific Programs and Chief 
Scientific Advisor for the National Marine Fisheries Service, 
and I would ask him to come up as we dismiss this panel.
    [Brief pause.]
    The Chairman. The Committee will reconvene and we have our 
third panel, Dr. Richard Merrick, Director of Scientific 
Programs and Chief Scientific Advisor for the National Marine 
Fisheries Service.
    You heard the protocol as far as testimony is concerned. We 
very much appreciate your coming here. You sat in on the first 
two panels, and I hope that there was something that was 
gleaned out of the discussion there.
    So Dr. Merrick, with that, I will recognize you for 5 
minutes.

STATEMENT OF DR. RICHARD MERRICK, DIRECTOR, SCIENTIFIC PROGRAMS 
 AND CHIEF SCIENCE ADVISOR, NATIONAL MARINE FISHERIES SERVICE, 
     NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION, U.S. 
                     DEPARTMENT OF COMMERCE

    Dr. Merrick. Thank you. Chairman Hastings, Representative 
Southerland, thank you for the opportunity to testify before 
you today. My name is Richard Merrick and I am the Director of 
Scientific Programs and Chief Science Advisor for the National 
Marine Fisheries Service at NOAA.
    Like my fellow speakers, I also grew up on the coast of 
Florida as well as New Jersey and I came from a charter boat 
family. I have spent most of my 27 years with NOAA working on 
the water in Alaska and New England to develop science-based 
advice for NOAA managers. Today, I want to talk about how our 
fishery science underpins and provides for good fisheries 
management in the U.S. and here in the Gulf of Mexico.
    Under the Magnuson-Stevens Act, we have used this to advise 
management councils in the States and fishermen to make great 
strides in ending over-fishing, rebuilding stocks and building 
a sustainable future for our fishing communities. Today, the 
U.S. is the fisheries management model for the world.
    Some 230 finfish and shellfish stocks comprise the bulk of 
the landings and value for U.S. fisheries. To sustainably 
manage these stocks, we need to know how big that stock is, and 
what proportion of it can be harvested without impacting its 
long-term productivity. Stock assessments are conducted for 
this purpose, and in a typical year, we provide around 90 new 
stock assessments to managers.
    Because of the diverse fish stocks and habitat in the 
Southeast, stock assessment efforts have lagged behind the rest 
of the country here. However, in recent years NMFS, by 
providing focused funding for the Southeast, has strengthened 
our relationships with our partners and significantly improved 
our stock assessment process and we are obtaining more and 
better data.
    There are a few examples of how this is happening. The 
incorporation of recreational fisheries in the fish stock 
assessments may be more important in the Gulf of Mexico and the 
South Atlantic region than in any other part of the country. We 
try to produce data as part of the NMFS Marine Recreation 
Information Program, or MRIP. Under MRIP, NMFS is implementing 
revised methodologies to substantially improve the accuracy of 
the effort and catch estimates that are developed from our 
angler surveys.
    NMFS is also working on pilot projects to move toward 
electronic reporting, including sampling head boats and logbook 
reporting for charter boats.
    Another example is because Gulf reef fish are so hard to 
survey, NMFS is funding a multi-year research project with the 
University of South Florida to explore to use of towed camera 
arrays to assess the stocks in these hard to survey areas, 
whether artificial or natural reefs.
    Finally, in Fiscal Year 2010, recognizing that we needed 
more stock testing scientists, the Southeast Fisheries Science 
Center received funds to bring on five additional stock 
assessment scientists to work in the Gulf of Mexico. This will 
double our stock assessment output from an average of 5 stocks 
per year to approximately 10 per year by 2015.
    Now it is true that the Gulf of Mexico red snapper 
management has posed one of our greatest challenges. However, 
the difficult catch reductions that commercial and recreational 
fishermen have endured to end over-fishing are now beginning to 
pay off. Our most recent red snapper stock assessment indicated 
over-fishing of red snapper had ended in 2009. Since then, we 
have been able to provide commercial and recreational catch 
increases each year, and fishermen on the west coast of Florida 
have been afforded new fishing opportunities as red snapper has 
expanded to its historic range.
    NMFS is working with the council on ways to adjust the 
recreational red snapper season within the constraints of the 
Magnuson Act to better meet the needs of fishermen. We provided 
a supplemental recreational red snapper season in the fall of 
2010 after the DWH oil spill resulted in closure and prevented 
the recreational sector from taking its entire quota. Also, we 
extended the length of the recreational red snapper season this 
year by 6 days after it was determined that weather events 
likely caused fishing efforts to be lower than expected. So we 
continue to look for these types of opportunities to adapt and 
improve our management approach.
    Finally and perhaps most importantly, we are now in a 
position to provide significantly improved assessment advice on 
red snapper based on the enhanced sampling effort that was 
begun in 2010 and the new stock assessment scientists in the 
Southeast. Work has begun on the new benchmark assessment. This 
assessment will be delivered to the Gulf Council in late spring 
of 2013 for incorporation into the quota that we will set for 
the next fishing year.
    So in summary, NMFS is working hard to improve the science 
that acts as a basis for management decisions in the Gulf. With 
cooperation and support of Congress, our management partners, 
industry, we are making great strides to having a more complete 
understanding of these important fishing resources in the Gulf 
of Mexico.
    I would like to thank all of the preceding speakers that 
have given me some new insights into the issues here. And 
again, I want to thank you all for the opportunity to testify 
before you today and I am happy to answer any questions you 
have.
    [The prepared statement of Dr. Merrick follows:]

Statement of Dr. Richard Merrick, Director, Scientific Programs & Chief 
  Science Advisor for the National Marine Fisheries Service, National 
  Oceanic and Atmospheric Administration, U.S. Department of Commerce

Introduction
    Good afternoon, Mr. Chairman and Members of the Committee. I 
appreciate the opportunity to speak with you today about how 
strengthening America's fisheries strengthens the economy. My name is 
Dr. Richard Merrick and I am the Director of Scientific Programs and 
Chief Science Advisor for the National Marine Fisheries Service (NMFS) 
within the Department of Commerce's National Oceanic and Atmospheric 
Administration (NOAA). Thank you very much for the opportunity to come 
before you today.
    NMFS' mission is stewardship of living marine resources for the 
benefit of the nation through science-based conservation and 
management, while simultaneously promoting the health of marine 
ecosystems. Today, I will discuss how our fisheries science is 
conducted and how this science underpins and provides for good 
management here in the Gulf of Mexico. I will also describe some of the 
recent advances we have made in our science.
    Effective fisheries management is based on science. National 
Standard 2 of the Magnuson-Stevens Fishery Conservation and Management 
Act (Magnuson-Stevens Act) mandates that all fisheries conservation and 
management measures must be based upon ``the best scientific 
information available'' (16 U.S.C. 1851(a)(2)). While there are 
challenges in securing accurate, precise, and timely data for stock 
assessments, on balance, science-based management has consistently 
proven to provide better resource management than decisions made 
without this advice.
    Sustainability of our Nation's fisheries requires continual 
monitoring of fisheries and fish stocks. NMFS continues to make 
substantial progress toward improving the quality of the science 
available to effectively manage commercial and recreational fisheries, 
benefiting coastal communities and the U.S. economy both today and for 
generations to come.
    NMFS is an international leader in fishery science, rebuilding 
overfished stocks, and preventing overfishing. Today, we know more 
about our fish stocks than ever before, and it is vital that our 
science not regress, as this would inevitably lead to declines in our 
stocks and a loss in the economic and social values they provide.
Robust Science is the Foundation for Management
    Some 230 finfish and shellfish stocks comprise the bulk of landings 
and value for U.S. fisheries. NOAA monitors the status of these stocks 
in several ways, with a key indicator being the quality of the stock 
assessment advice provided to fisheries managers. To sustainably manage 
these stocks, we need to know how big that stock is, and what 
proportion of it can be harvested without impacting its long-term 
productivity. Stock assessments are conducted for this purpose, and in 
a typical year, we provide around 90 new stock assessments to managers.
    NMFS supports the development of fish stock assessments through 
several budget lines, including Expand Annual Stock Assessments, Survey 
and Monitoring, Fisheries Statistics, Fishery Information Networks, and 
Observer Programs. NMFS also utilizes NOAA's Office of Marine and 
Aviation Operation's Fishery Survey Vessels as a primary platform for 
many of its stock assessment data collection activities. The 
President's FY 2013 request for NOAA includes robust funding to support 
stock assessments. Specifically, NOAA's FY 2013 request would increase 
the Expand Annual Stock Assessment budget by another $5 million, 
increase the Survey and Monitoring budget line by $2.3 million (to 
historical levels of $24.3 million), increase the Observer Programs 
budget by $2.9 million, and maintain funding from other contributing 
budget lines. This combined funding level would allow NMFS to continue 
to increase the number of stocks with assessments which are of adequate 
precision to identify the status of the stock and to set fishery 
quotas.
    The stock assessment process includes both data collection and the 
analysis of that data by fishery scientists. Data for fishery science 
is based generally on three sets of data:
        1.  Fishery catch from monitoring commercial and recreational 
        fisheries,
        2.  Fish abundance from scientific surveys, and
        3.  Fish biology from a variety of sources including 
        cooperative research.
    By tracking these three data series over time and incorporating 
these data into stock assessment models, scientists can estimate the 
current range and abundance of stocks, calculate maximum sustainable 
yield, determine whether overfishing has been occurring or whether the 
stock has declined into an overfished state, and can project a 
sustainable level of catch. The latter provides the foundation for 
setting annual catch limits in accordance with law.
Fishery Catch
Commercial Fisheries
    NMFS is continually striving to improve and augment its processes, 
methods and programs for commercial fishery data collection and 
analysis. For example, in the Gulf of Mexico, commercial landings data 
are collected in cooperation with the five Gulf States and the Gulf 
States Marine Fisheries Commission, and are used to track progress 
toward reaching the Annual Catch Limits of managed stocks. By shifting 
from paper dealer reports, submitted semimonthly, to electronic dealer 
reporting, submitted weekly, more timely data are generated to more 
accurately project when a fishery will reach the Annual Catch Limit. 
This will enable commercial fishermen to more efficiently plan their 
fishing activities, and reduce the risks of exceeding an Annual Catch 
Limit.
    In addition, NMFS has relied heavily on its partnerships with the 
states and the interstate marine fisheries commissions to conduct 
efficient and cost-effective monitoring of commercial landings and 
recreational catches. The federally-funded Fisheries Information 
Networks have provided a means through which NMFS has been able to work 
collaboratively with its partners to design and implement well-
integrated data collection programs that meet the management needs of 
both state and federally-managed fisheries. Cooperative regional 
programs such as the Gulf Fisheries Information Network have worked 
effectively to eliminate unnecessary overlaps, standardize data 
elements and collection methods, and improve the timeliness of data 
processing, statistical analysis, and dissemination of catch statistics 
to all partners.
Recreational Fisheries
    The Gulf of Mexico and South Atlantic regions may be the most 
important areas in the country for incorporation of recreational 
fisheries into fish stock assessments. These data are collected as part 
of NMFS' Marine Recreational Information Program. NMFS is developing 
and testing new survey methodologies to improve the accuracy, 
geographic resolution, and timeliness of recreational fishing catch and 
effort data, which are based on the findings and recommendations of the 
National Research Council's 2006 review of the Marine Recreational 
Fishing Statistical Survey. NOAA's FY 2012 enacted budget includes $10 
million to continue implementing improvements developed through the 
Marine Recreational Information Program. The President's budget request 
for FY 2013 is level with FY 2012 for this program.
    NMFS previously developed recreational fishery catch estimates for 
the Gulf and Atlantic coasts via three ongoing surveys. The coastal 
household telephone survey generated information on angler trips. The 
access point angler intercept survey provided data on catch per trip. 
The results of these two surveys were combined to generate catch 
estimates for shore and private boat angling modes. The for-hire survey 
and the access point angler intercept survey were utilized to provide 
estimates for the for-hire (charter and head boat) mode. Under the 
Marine Recreational Information Program, revised methods were developed 
that are being incorporated to substantially reduce sources of error 
and improve the accuracy of effort and catch estimates based on a 
combination of telephone, mail, and access point surveys.
    The Marine Recreational Information Program has also been working 
with our state partners, including Florida and Louisiana, to develop 
and test new methods that utilize angler registries to survey anglers 
for production of trip estimates. Following completion of major pilot 
efforts under way in CY 2012 and CY 2013, a new survey design to 
replace the coastal household telephone survey will be selected and 
implemented for the Atlantic and Gulf coasts. The Marine Recreational 
Information Program and our partners are also developing and testing a 
number of other possible improvements to the current suite of surveys, 
including:
        <bullet>  Pilot projects to move toward electronic reporting 
        and improved sampling for validation of the Southeast Headboat 
        Survey;
        <bullet>  Development of a sample design to subdivide Florida 
        into sub-state geographic regions;
        <bullet>  Pilot testing of a logbook reporting with dockside 
        validation for the Gulf of Mexico Charterboat fishery;
        <bullet>  Methods to produce preliminary estimates more 
        frequently than bi-monthly, and to evaluate the tradeoffs among 
        timeliness, precision of estimates and cost.
    In addition to these improvements, NMFS also initiated expansion of 
recreational data collection in response to the Deepwater Horizon oil 
spill. NMFS provided funds to our state partners to enable them to 
significantly increase sampling via the for-hire survey in the Gulf of 
Mexico from May 2010 to June 2011. The increased sampling effort, and 
resultant improved precision of the charter boat trip estimates, 
enabled NMFS and our partners to produce and publish weekly trip 
estimates to be used for near real-time tracking of the fishery. Weekly 
tracking of changes was useful for documenting and assessing economic 
impacts associated with the Deepwater Horizon oil spill. In addition, 
weekly estimates of for hire fishing trips was compared to past fishing 
rates based on past experience, and differences were used to evaluate 
the potential for changes to fishery management actions.
Fish Abundance
    Long-term monitoring of fish abundance provides an indicator of the 
status of the stock over time, and as such are invaluable inputs to 
stock assessments. The importance of such time series has been driven 
home by recent environmental perturbations. Hurricane Katrina, the oil 
spill in 2010, historic floods in the Mississippi River basin in 2011, 
and the severe drought of this year all have influenced commercially 
and recreationally important species and their habitats in the Gulf of 
Mexico.
    The Supplemental Appropriations Act, 2010 (P.L. 111-212, 124 Stat. 
2338) provided $10 million to conduct additional fish surveys in the 
Gulf of Mexico to help capture changes in living marine resource 
populations relative to the Deepwater Horizon oil spill. A majority of 
those funds were used to contract commercial and recreational vessels 
for use as research platforms to enhance fishery-independent data 
collections. With these funds we were able to add a total of 846 days 
at sea to our base level of effort of 60 days at sea. Nearly 1,200 
additional bottom longline stations were added and comparisons of these 
data to vertical long line samples were made possible. Over 5,000 red 
snapper otoliths (ear bones used to age fish) were collected and 
processed, compared to the more typical level of about 300 samples. 
These data will be instrumental in the red snapper benchmark stock 
assessment currently underway.
    NMFS expects to develop new and innovative approaches to surveying 
fish stocks in hard to survey areas, which are common in the Gulf of 
Mexico. We are funding a multi-year research project with an academic 
partner to explore the use of towed camera arrays for use in surveying 
reef fishes in the Gulf of Mexico. If feasible, shifting to this 
approach would dramatically increase the effectiveness and efficiency 
of our reef fish surveys--meaning more science for the dollar. We are 
also providing support for capitalizing on the advanced multibeam 
hydroacoustic capabilities of the NOAA Ship Pisces, enabling us to 
characterize fisheries habitat while simultaneously sampling the water 
column.
Stock Assessments
    All of the data discussed thus far provide the inputs for stock 
assessments. Passage of the Magnuson-Stevens Fishery Reauthorization 
Act in 2006 resulted in requirements for timely stock assessments, to 
ensure overfishing has ended, set Annual Catch Limits and to track 
progress toward rebuilding overfished stocks. In FY 2010, the NMFS' 
Southeast Fisheries Science Center received funds to bring on seven 
additional stock assessment scientists to help meet this need. Five of 
the new scientists have been assigned to work primarily on Gulf of 
Mexico species. With these new scientists, we expect to double our 
stock assessment output in the Southeast from an average of about five 
stocks per year to approximately ten Gulf of Mexico stocks per year by 
2015.
    The Southeast Data, Assessment and Review process is being 
streamlined to increase throughput. Modifications to the process are 
being made in a way that balances the desire for both speed and 
transparency. Increases in our throughput of stock assessments will 
better enable the Gulf of Mexico, South Atlantic, and Caribbean Fishery 
Management Councils to measure the effectiveness of their management 
decisions and refine their strategies based on this feedback to the 
economic benefit of the region.
Science-Based Management of Red Snapper
    Fishery management in the Southeast Region is unique because of the 
large number of species managed, the multispecies nature of fisheries, 
the wide range of gear types used, and the variable objectives of user 
groups. In recent years, NMFS has provided focused funding to build 
stock assessment capacity in the Southeast. The goal of this effort is 
to support the Gulf of Mexico, South Atlantic, and Caribbean Fishery 
Management Councils as they work to meet the new statutory requirements 
of the Magnuson-Stevens Reauthorization Act. We have implemented annual 
catch limits proposed by the three regional councils for all species, 
where required, as well as rebuilding plans and management measures to 
end overfishing and rebuild overfished stocks.
    We recognize the impacts catch reductions required to end 
overfishing are having, and we are working hard to minimize adverse 
economic impacts on fishermen and fishing communities throughout this 
recovery period. Gulf of Mexico red snapper management has posed one of 
our greatest challenges. The Magnuson-Stevens Act requires that we 
specify separate commercial and recreational quotas for red snapper and 
that we close each fishery when it takes its quota. For many years, the 
commercial red snapper fishery was subjected to increasingly shorter 
seasons because the capacity of the fishery to catch the quota was much 
larger than needed. Prior to 2007, the commercial red snapper season 
had been reduced to about 88 days, on average, and we implemented the 
first individual fishing quota program in the Gulf of Mexico at 
industry's request to end the race for fish and improve fleet 
profitability.
    The difficult catch reductions that commercial and recreational 
fishermen have endured to end overfishing are now beginning to pay off. 
Our most recent red snapper stock assessment update (2009) indicated 
overfishing of red snapper ended in 2009. Since then, we have been able 
to provide commercial and recreational catch increases each year, and 
fishermen on the west coast of Florida have been afforded new 
opportunities to target this popular species as it has expanded to its 
historic range. But we still have a great deal of work remaining to 
effectively manage the recovery of this resource. While recreational 
fishermen recognize and appreciate that higher catch rates and larger 
fish are substantially improving the quality of their fishing 
experience, they are frustrated and dissatisfied with the progressively 
shorter fishing seasons required to constrain them to their quota.
    NOAA Fisheries is actively working with the Council on ways to 
adjust the recreational red snapper season within the legal constraints 
of the Magnuson-Stevens Act to better meet the needs of fishermen. We 
provided a supplemental recreational red snapper season in the fall of 
2010 after the large-scale closure we implemented in response to the 
Deepwater Horizon event prevented the recreational sector from taking 
its entire quota. Also, we extended the length of the recreational red 
snapper fishing season this year after determining that a series of bad 
weather events likely caused fishing effort to be lower than expected. 
We continue to look for these types of opportunities to adapt and 
improve our management approach.
    We are now in a position to provide significantly improved 
assessment advice on red snapper based on the enhanced sampling effort 
that was begun in FY 2010 and the new cadre of stock assessment 
scientists provided to the Southeast through supplemental NMFS funding. 
This assessment will begin with a data workshop in August 2012 where 
data collected by NOAA and our state and academic partners are reviewed 
to formulate the strategy for the stock assessment. This will be 
followed by a benchmark stock assessment model (January-February 2013), 
and an independent peer review of the assessment's results (April-May 
2013). The stock assessment is expected to be delivered to the Gulf of 
Mexico Fishery Management Council in the late spring of 2013 for 
incorporation into the quota setting process for the next fishing year.
General Views on Proposed Legislation
    In previous hearings before this Committee, the Department of 
Commerce has commented on proposed legislation that would amend the 
Magnuson-Stevens Act. We would like to take this opportunity to 
reiterate a couple of key concerns with respect to Annual Catch Limits 
(ACLs) and stock assessments:
    It is critical that we maintain progress towards meeting the 
mandate of the Magnuson-Stevens Act to end overfishing and, as 
necessary, rebuild stocks. ACLs are an effective tool in improving the 
sustainability of fisheries around the Nation, and NOAA has concerns 
with legislation that would create exemptions or otherwise weaken 
provisions regarding ACLs. Uncertainty in the stock assessments upon 
which ACLs are based should not be used as a basis for exempting 
fisheries from ACLs. Such actions risk depleting fisheries and making 
fishermen worse off than under the current, science-based management 
system.
    In an increasingly constrained fiscal environment, legislation 
should not mandate duplicative or otherwise unnecessary actions. 
Additional stages of review for certain types of fisheries data, or 
repeating data collection and stock assessment efforts when there are 
already sound peer reviewed processes in place are examples of actions 
that will divert resources to a select few fisheries at the expense of 
others with little additional benefit. Moreover, legislation should be 
cost-effective and consistent with the President's Budget. NMFS 
welcomes the opportunity to work closely with Congress, the regional 
fishery management councils, and the recreational and commercial 
fishing industries, to use the best available science to seek 
opportunities for efficiency and improved management in order to end 
overfishing and rebuild stocks.
Conclusion
    Sound, science-based management is central to rebuilding the Gulf 
of Mexico fishery resources to levels that support stable jobs and a 
healthy economy in the region. We remain committed to improving the 
quality and timeliness of the data and scientific advice used to 
support management decisions here in the Gulf of Mexico, in 
collaboration with our many partners in the fishing industry, states 
agencies and academic institutions. Thank you again for the opportunity 
to discuss NMFS's fishery science. We are available to answer any 
questions you may have.
                                 ______
                                 
    The Chairman. Thank you very much, Dr. Merrick, we 
appreciate your testimony.
    It seems to me that one of the issues is getting good data 
and then utilizing that good data. Now according to the 
National Standard Guidelines, if a council and its SSC have old 
information, they are required to use precaution and include 
buffers when setting the over-fishing level, when setting the 
allowable biological catch level and when setting the ACL. They 
are then also required to include buffers for managing 
uncertainty.
    Now this could require councils to include as many as four 
or five buffers in calculating harvest levels. Is this not a 
serious problem when fisheries are not surveyed regularly or 
frequently?
    Dr. Merrick. It has potential to be. The way in practice--
--
    The Chairman. It has potential to be?
    Dr. Merrick. In practice, the way most councils have dealt 
with this, is they have set the ABC equal to the ACL, so they 
removed the management buffer basically. So most of the buffer 
that exists is the buffer for scientific uncertainty. It's 
basically one buffer and it is typically, as you may recognize, 
about 25 percent.
    The Chairman. But you could go up--I mean the point is, 
what we are asking, we now have buffers, we have ACLs and you 
say--I just heard you say that this has not been but 
potentially could. My understanding of the way the guidelines 
are, you could have up to four or five buffers, which would be 
a problem; is that correct?
    Dr. Merrick. Well, yes. There is potential for four or five 
buffers. Whether that is a problem or not is not clear. 
Basically these are the standards that have been applied.
    The Chairman. But it is being based on data and you are 
making decisions and the data is uncertain or old and you are 
adding buffers, which presumably would lower harvest levels, 
would that not be a problem?
    Dr. Merrick. It would only be a problem in the sense that 
we want to make sure that we do not over-fish. So that is why 
the buffers are there, that uncertainty buffer.
    The Chairman. OK. Well, let me ask it this way, because I 
can see how potentially--because this is relatively new--I can 
see potentially this being run out where in fact it has a great 
restriction on harvest levels and I am wondering, taking your 
answer that this could be a potential, is there anything that 
we should be looking at in the reauthorization to address this 
issue. If the potential is there to have buffers--now I will 
draw this conclusion, maybe somebody will disagree with me, but 
if you have more buffers, it seems to me you are going to have 
a smaller harvest. And a smaller harvest is not going to be 
based on good data. That is the potential that I see that is a 
negative.
    I would like to find a way to get around that in the 
reauthorization. Can you help in that regard?
    Dr. Merrick. It is generally considered that there are two 
suites of buffers, the ones that go through the over-fishing 
limits to the ABC and then the ABC and the ACL catch limit. 
Those can be dealt with in two separate ways. We do see the 
scientific uncertainty as how you--that is the buffer between 
the OFL and the ABC. That can be produced by having better 
quality data, more timely assessments. Again, with more stock 
assessment scientists, for example, you have more assessments. 
So that is directly amenable to having additional funding, and 
that is one of the reasons we continue to ask for more funds 
for the stock assessment scientists.
    The management uncertainty one is in some ways a lot 
tougher to get to because that basically says how well can you 
manage the fishery, how well do you understand what the catch 
is.
    The Chairman. But that is what the council is for, the 
council's report will ascertain that.
    Dr. Merrick. Right. So when the council----
    The Chairman. That is not easy, I acknowledge that is not 
easy. It is always going to be hard, but I guess what I am 
getting to in order to ask this question, is this having some 
certainty. And I am just afraid--I will have to kind of digest 
what you said as to your answer on this, but I see some 
uncertainty as long as the potential is out there for those 
buffers. And I would like you to think about where maybe some 
flexibility in Magnuson-Stevens can, you know, maybe--these are 
regulations, these are not written in Magnuson-Stevens, this is 
authority given. That sometimes scares me because sometimes we 
give too much authority to the agency to write regulations.
    Dr. Merrick. I think it is a major issue as we move toward 
management of fisheries, the process where we sort of jump 
start the Gulf with the new version of Magnuson-Stevens. This 
should be an issue that we talk about, uncertainly is an issue 
with all the councils.
    The Chairman. One last statement, is this shared up and 
down the line?
    Dr. Merrick. It is in NMFS from Eric and Sam down to me.
    The Chairman. OK, very good.
    My time has expired. I recognize the gentleman from 
Florida.
    Mr. Southerland. First of all, Doctor, thank you very much 
for being here.
    Dr. Merrick. I am here, I am the third panel.
    Mr. Southerland. You are the third panel, thank you very 
much.
    A witness on an earlier panel discussed State-funded 
surveys. As a matter of fact, during the break, I had someone 
in an orange shirt come up and express to me the desire to 
get--well, the unrest about giving NOAA all this money, because 
they have proven to be able to waste a lot of money and that 
they needed data and they did not want money to be wasted. And 
I agreed with him, and he was referring to the RESTORE Act and 
the money that goes toward that and I stated that there is 
money that is going directly to the States for that as well, to 
kind of serve as a little protector, that the States, the five 
States around the Gulf, do a good job I think, oftentimes some 
would say a better job. And so with that being said though, an 
earlier witness on an earlier panel discussed State run 
surveys. How does NOAA incorporate that information into its 
stock assessments?
    Dr. Merrick. Directly typically.
    Mr. Southerland. Directly?
    Dr. Merrick. Yes. Any stock assessment usually has a 
significant number of lines of data that are coming into it. 
There is no actual survey that goes out and counts every fish, 
so the output is from bits and pieces.
    Mr. Southerland. Sure.
    Dr. Merrick. So we have surveys that are conducted by us, 
we have State surveys and that is all around the country. Those 
all become part of the data stream that goes into the stock 
assessment.
    Mr. Southerland. One of the concerns raised by Commissioner 
Ryan was the lack of funding for the Interjurisdictional 
Fisheries Act grants. In fact, it appears that NOAA is slowly 
eliminating funding for all the grant programs that provide 
funding for outside entities that really help and we depend on 
these outside entities. And they are trying to keep all of the 
funding in other areas of NOAA. So while we appear to need more 
data, better data, more individuals, NOAA keeps eliminating 
grant programs and saying we want to keep all the money here. I 
guess they have this love affair with satellites.
    Can you tell us why the very valuable Interjurisdictional 
Fisheries Act grants are being zeroed out?
    Dr. Merrick. It is largely because we have to reduce 
funding somewhere and we are closing our own labs, for example. 
The Interjurisdictional grants are one of the areas that have 
been considered to be a lower priority. There are directed 
surveys that we are funding.
    Mr. Southerland. But Doctor, let me say this, being in 
Washington, it is an amazing thing that I see. I mean, we are 
$16 trillion in debt, OK, the CBO just came out this week and 
said on our current pace we are going to hit $20 trillion in 
debt by 2016. If you come to Washington, D.C., you see 
construction cranes everywhere. I mean they are building 
buildings, they are hiring employees, the Federal Government is 
expanding, they are exploding. So I think it is about choices 
that the President is--I think they are making choices that 
maybe one department means more to them than another and so 
therefore, they are saying we would rather grow in another area 
and while we all agree--everyone agrees we need better data, 
everyone. I have not had anyone disagree with that. We keep 
listening to those in higher places move that money because 
they are making a different choice. When we need something that 
we all agree on, they are moving that money to other places, 
and it is just aggravating as a new Congressman to see, and I 
know that has got to be frustrating to you.
    Dr. Merrick. I can understand why you are aggravated. I 
happen to be a champion conceivably for science. We have been 
fairly successful and if you look at the 2013 budget request, 
the only place where the money is going up is fish stock 
assessments--not a lot, but at least it is going up.
    Mr. Southerland. Let me ask you another question. According 
to testimony given earlier, the recreational season for gag 
grouper was closed for approximately three quarters of the 
year, including all summer. Amberjack was closed most of the 
summer and red snapper was open for 40 days plus those 
additional six that you alluded to earlier. With these 
restrictions and with the fact that we are seeing that some of 
these fisheries are rebounding and doing well, how do you 
expect, how could we expect a charter boat operation to stay in 
business?
    Dr. Merrick. I recognize it is difficult.
    Mr. Southerland. It is more than difficult.
    Dr. Merrick. Part of the reason I am here goes back to the 
story of why I am no longer in my family charter boat business. 
I saw them going out of business because there were no fish, 
this is in New Jersey in the 1950s. And the place for me where 
I could make a contribution seemed to be by providing better 
science and that is why I am here today.
    Mr. Southerland. Well, let me say this. I think you are 
needed, I think you should not have to compete with agendas 
that seem to take the money necessary for good data, good 
research, at a time when we need it like we have never needed 
it before. And so I thank you.
    I see I have my red light on, so I will yield back.
    The Chairman. I just have one question, Dr. Merrick, and 
that is you heard the discussion on the artificial reefs. Do 
you have an opinion on that?
    Dr. Merrick. Let us go back to what a stock assessment is. 
It is not a census of populations. Basically a stock assessment 
takes a stream of data series and incorporates that trying to 
recreate a virtual population. We use the results of the 
artificial reef in terms of the larval survey. We do not go and 
count fish on the artificial reefs, but our partners do and as 
part of this stock assessment, there will be data----
    The Chairman. Who is your partner in this case?
    Dr. Merrick. In this case, this current stock assessment, 
there are a lot of partners but the ones who are dealing with 
artificial reefs are Auburn University in the State of Alabama 
and the University of South Florida.
    The Chairman. Now I do not mean to interrupt, I will let 
you finish your thought, but you say in this assessment.
    Dr. Merrick. Yes.
    The Chairman. Does that mean in prior assessments that was 
not done?
    Dr. Merrick. That is correct.
    The Chairman. So it was not done. The testimony we heard--I 
am glad you are going forward. I do not think they count 
hatchery fish in the Northwest sometimes too, I think that 
would be a plus. Why did they not do that prior, is my 
question?
    Dr. Merrick. At that point, it was not considered to be a 
strong enough data stream to be used.
    The Chairman. I mean this is maybe the advantage of not 
living here but having experience going out in the Gulf and 
seeing the fishery around an oil rig. That truly baffles me 
that that would not be considered as a place that you should be 
counting. I am glad you are doing that, that is good. I will 
let you finish your thought.
    Dr. Merrick. Two points here. One is that as we do a stock 
assessment, it is not NOAA doing a stock assessment, it is not 
NMFS doing a stock assessment, we have a community that does 
that stock assessment. So if you go to a workshop, you will see 
a variety of people there, there are a variety of scientists 
there participating in that. Some are academic, some are State, 
some are Federal. So if that group is deciding that there is a 
data stream that is not ready to be used, it is not----
    The Chairman. That bothers me when I hear the group decides 
it is not a data stream.
    Dr. Merrick. To be used, it is not ready at the current 
time.
    The Chairman. To be used. The fundamental issue is the 
difference between artificial and natural reef. Who decides 
that data should or should not be used and why?
    Dr. Merrick. The scientific peer review body basically 
decides.
    The Chairman. On a case-by-case basis?
    Dr. Merrick. Potentially, yes.
    The Chairman. I guess we need more information on that.
    Dr. Merrick. Sure, the point though is you should recognize 
that those data sets have now reached the point where they are 
going to be used in this next stock assessment.
    The Chairman. And the Committee definitely will follow up 
with you on that.
    The concern that I certainly got from this testimony is 
that it had not been used before. And of course, the big 
question is how does that affect the overall fishery because it 
has not been used before. Go ahead.
    Dr. Merrick. My second point was that remember again, we 
are not censusing population. We are not going out and counting 
all the fish. We are using a series of indices. Even in Alaska, 
when they are doing pollock surveys, they are using their 
surveys as indices of the abundance of pollock. There are a 
variety of indices you can use--larval indices are valid and 
are actually used in the Gulf for stock assessments, and that 
is one of the ways that if there is spawning going on on 
artificial reefs, those fish will be counted. So if there is 
more spawning going on, the larval count goes up.
    The Chairman. I will yield my last minute and then the 
extra five to you, Steve.
    Mr. Southerland. First of all I am glad you are here today 
because you are the one doing the surveys, you are the one 
doing the research, and I think you are credible.
    It bothers me that we have not been using that data in the 
past. I have had several individuals tell me today that we 
have. And you are saying that we have not in the past, but 
going forward we are going to start because you have partners, 
you have other people that are assisting, you have other people 
that are coming in that is valuable. But it is also at a time 
that NOAA is choosing--back to my original point--that NOAA is 
choosing, making a choice to zero out Inteurisdictional 
Fisheries Act grants that enabled those organizations to be 
funded to come and partner with you to get down to the facts. 
It is--you do need assistance, but you also need some common 
sense at the top making better choices so that--we have to look 
differently at this budget issue, we have to say OK, what is 
critical, what is a necessity and what is a luxury. This 
Administration is funding luxuries while the necessities--good 
data, so you all can make a living--are being ignored.
    So, look, I thank you for being here helping us, Doc and I. 
We have not had testimony that shed light on this, and I just 
thank you for being here.
    I guess I have one other thing--do I roll over?
    The Chairman. Yes, you roll over, it is your time now.
    Mr. Southerland. Tell me about, I heard this from others 
and this is just a question that I have heard from people that 
make a living, OK, many are here. How do you factor in natural 
disasters and how those natural disasters may affect--for 
example, and I hear this, that after Katrina, that diesel 
prices have gone through the roof and all these fishing boats 
are fueled by diesel. And it shot up to over $4.00 a gallon and 
just the price of taking your boat out has increased their 
expense--not any increase in revenue, not any increase in being 
able to make more money, but the expense side of their P&L has 
increased. And diesel prices have really not come down, so 
therefore, a lot of shrimpers have left. They have left the 
United States, they have gone to China. As a matter of fact, I 
heard some people say that the percentage has dropped down--100 
percent of the shrimpers we had pre-Katrina are now down to 55 
percent. So if you do not have shrimpers shrimping in these 
bays and you have baby fish, juvenile fish in the nurseries 
growing--and that is where they grow--would that not have an 
impact on the increase that we see in red snapper? That is just 
common sense. Would that not have something to do with perhaps 
some of the onerous regulation that continue to harm our 
fishermen--would it not make--I mean do you all take those kind 
of things--back to my question, do you all take into 
consideration some of those things that are real events that 
really happen that harm real people? Do you consider that?
    Dr. Merrick. In a couple of ways, yes. If, for example, an 
event like that occurred, the fishing pressure was much reduced 
and you wound up with an ecosystem effect since there was more 
larval survival or more little fish, we would pick that up in 
our larval surveys. So by having a continual series of surveys, 
which is one thing that is important to have, you would see 
that.
    In terms of economic impact to the community, that is 
something that we would pick up as we would go through the 
analysis, the economic analysis that is required for any 
fisheries management action.
    Mr. Southerland. OK, OK. I know we have waning seconds and 
this is the last minute and a half and I will not get any more 
time. In Washington, everything is based on time. You see on C-
SPAN, us yielding time to partners, time is a precious 
commodity there and I know your time is a precious commodity. 
Many of you are struggling, I get that, for you to be here says 
that you want to have a say in your business going forward. You 
deserve that.
    I want to say thank you to all of you, no matter where you 
come down on the issues that we have discussed today, I want to 
say thank you for being a part of your government going 
forward. You deserve a say, that is why we brought this field 
hearing here, because not everybody can afford to come to D.C. 
and leave their families and their businesses. So I thank you.
    I want to thank everyone who testified here today. Thank 
you for coming to our home, this is a wonderful place and we 
have some pretty good seafood restaurants by the way in close 
proximity to here, I am sure they would love to feed you after 
our hearing.
    And to Doc, I want to say thank you very much. I know 
Washington State is a long way and I know that you and I do not 
agree on everything, but you know what, I will say we could not 
have a better man serving as the Chairman of the Natural 
Resources Committee. He has been fair to me and he has allowed 
me to have this opportunity to have the Committee come here. So 
I just want to say thank you to everyone that participated, all 
of you who have been here for the last few hours. Doc, again, 
thank you and God-speed in your travels. And I yield back.
    The Chairman. Good, thank you very much. Thank you, Steve.
    And Dr. Merrick, thank you very much.
    And I want to thank the first two panels also for their 
testimony. I do know that, Dr. Merrick, on this particular 
issue, the Committee will follow up on trying to ascertain why 
that was not done before and what was left on the table as far 
as the artificial reef. We will give some thought to that and 
follow up and we would like to have a response obviously as 
soon as we possibly can.
    Dr. Merrick. Not a problem.
    The Chairman. And I too want to thank all of you for being 
here. These issues obviously are not easy. For goodness, sake, 
if they were easy, we would not be here, I think that is 
probably self-evident. But I am a firm believer that we should 
try to get the best data that we possibly can on whatever 
issue, because after all, at the end of the day, Steve and I 
have the privilege of representing you in the government and we 
want to make sure that whatever decisions we make are made on 
the best information that we possibly can have.
    I will say when I flew in here last night, just on a 
personal note, I saw all the thunder and lightning. The good 
news is that you did not get any forest fires because of the 
lightning. If you have heard about forest fires on the West 
Coast, when we get thunderstorms like that, we typically do not 
get the rain and as a result, as you saw, as you are reading 
the papers, the forest fires in the western part of the United 
States principally come from that activity you had last night. 
So maybe you can be thankful you have all this rain. I think 
sometimes you are not.
    I will make a note, while this is a full Committee hearing 
and yet there are only two of us here, that satisfies the 
requirements, but all members of the Natural Resources 
Committee were invited to attend and the information obviously 
that is gleaned from here will be shared with all of our 
members and their staff.
    So once again, I want to thank all of you. You have been 
very patient and we appreciate that very much. And if there is 
no further business to come before the Committee, we stand 
adjourned.
    [Whereupon, at 12:38 p.m., the Committee was adjourned.]

                                 <all>

</pre></body></html>
